<html>
<title> - MILITARY CONSTRUCTION AND VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]


 
   MILITARY CONSTRUCTION AND VETERANS AFFAIRS, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2018

                              ----------                              


                         TUESDAY, JUNE 6, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:35 p.m. in Room SD-124, Dirksen 
Senate Office Building, Hon. Jerry Moran (chairman) presiding.
    Present: Senators Moran, Murkowski, Collins, Boozman, 
Rubio, Schatz, Tester, and Udall.

                         DEPARTMENT OF DEFENSE

STATEMENT OF HON. PETER J. POTOCHNEY, ACTING ASSISTANT
            SECRETARY OF DEFENSE FOR ENERGY, 
            INSTALLATIONS AND ENVIRONMENT


                opening statement of senator jerry moran


    Senator Moran. Good afternoon. I am sorry for the nearly 5 
minute late start due to votes on the Senate floor, but the 
subcommittee will come to order.
    Good afternoon. We meet today to discuss the President's 
fiscal year 2018 budget requests for Military Construction and 
Family Housing for the Department of Defense.
    The request represents a sharp departure from historically 
low MILCON requests of the past few years. The base budget 
request is $9.8 billion. It is a 27 percent increase over last 
year's enacted levels. In addition, the Overseas Contingency 
Operations, OCO request, is $638 million.
    After years of our military taking on increasing levels of 
risk in infrastructure, the MILCON increase is a welcome 
change. This change does not take place in a vacuum, however. 
And the fiscal year 2018 budget request, when viewed in its 
totality, leaves this committee with some difficult decisions 
to make, on both defense discretionary and non-defense 
discretionary, both sides of that ledger.
    I don't think it is a stretch to say that this subcommittee 
will have to find savings and efficiencies and that not every 
project in the request will be funded when we are all said and 
done. To this end, I would welcome a dialogue with our 
witnesses today about large projects that could be funded 
incrementally. I understand OMB frowns on this practice, but 
with tight budgets, incremental funding is an effective tool 
that Congress has at its disposal.
    I think it is useful to note that the dollars this 
subcommittee appropriates will directly improve the quality of 
life for those who volunteer to serve in uniform and their 
families. I want to hear about how this budget request improves 
the quality of family housing, of schools, and health care for 
military families.
    Military construction is more than just bricks and mortar. 
It supports important strategic goals. I want to hear from our 
witnesses how the projects that they are requesting fit into 
our military strategy, how they enhance our warfighting 
capabilities, and how they will help our forces project power 
more efficiently.
    Today we hear from representatives of all the military 
services as well as the Office of the Secretary of Defense. 
Joining us is Mr. Peter J. Potochney, Acting Assistant 
Secretary of Defense for Energy, Installations, and 
Environment; Lieutenant General Gwendolyn Bingham, Assistant 
Chief of Staff of the Army for Installation Management; Vice 
Admiral Dixon R. Smith, Deputy Chief of Naval Operations for 
Fleet Readiness and Logistics; Major General John J. 
Broadmeadow, Commander of the Marine Corps Installations 
Command and Assistant Deputy Commandant, Installations, and 
Logistics; and Major General Timothy S. Green, Air Force Deputy 
Chief of Staff for Logistics, Engineering, and Force Protection 
and Director of Civil Engineers.
    [The statement follows:]
               Prepared Statement of Senator Jerry Moran
    The Subcommittee will come to order. Good afternoon. We meet today 
to discuss the President's fiscal year 2018 budget request for military 
construction (MILCON) and family housing for the Department of Defense. 
The request represents a sharp departure from the historically low 
MILCON requests of the last few years. The base budget request of $9.8 
billion is a 27 percent increase over last year's enacted levels. In 
addition, the Overseas Contingency Operations, or OCO, request is $638 
million.
    After years of our military taking on increasing levels of risk in 
infrastructure, the MILCON increase is a welcome change. This change 
does not take place in a vacuum, however. The fiscal year 18 budget 
request--when viewed in total--leaves this committee with some very 
difficult decisions to make, on both the defense discretionary and non-
defense discretionary sides of the ledger.
    I don't think it is a stretch to say that this subcommittee will 
have to find savings and efficiencies and that not every project in the 
request will be funded when all is said and done. To that end, I would 
welcome a dialogue with our witnesses about large projects that could 
be funded incrementally. I understand OMB frowns on this practice, but 
with tight budgets, incremental funding is an effective tool the 
Congress has at its disposal.
    I think it is important to note that the dollars this subcommittee 
appropriates will directly improve the quality of life for those who 
volunteer to serve in uniform and their families. I want to hear about 
how this budget request improves the quality of family housing, of 
schools, and of health care for military families.
    Military construction is more than bricks and mortar--it supports 
important strategic goals. I want to hear from our witnesses how the 
projects they are requesting fit into our military strategy, how they 
enhance our warfighting capability, and how they will help our forces 
project power more efficiently.
    Today we will hear from representatives of all the military 
services as well as the Office of the Secretary of Defense. Joining us 
are:

  --Mr. Peter J. Potochney, Acting Assistant Secretary of Defense for 
        Energy, Installations, and Environment;
  --Lieutenant General Gwendolyn Bingham, Assistant Chief of Staff of 
        the Army for Installation Management;
  --Vice Admiral Dixon R. Smith, Deputy Chief of Naval Operations for 
        Fleet Readiness and Logistics;
  --Major General John J. Broadmeadow, Commander of Marine Corps 
        Installations Command and Assistant Deputy Commandant, 
        Installations, and Logistics (Facilities); and
  --Major General Timothy S. Green, Air Force Deputy Chief of Staff for 
        Logistics, Engineering, and Force Protection and Director of 
        Civil Engineers.

    Senator Moran. The subcommittee looks forward to your 
testimony. I appreciate the conversations that many of you have 
had with me in person. And before we begin our witness 
testimony, I'd turn to my colleague and friend from Hawaii, the 
Ranking Member.

               OPENING STATEMENT OF SENATOR BRIAN SCHATZ

    Senator Schatz. Thank you, Mr. Chairman.
    I appreciate your holding this hearing to discuss fiscal 
year 2018 Military Construction and Family Housing budget 
requests, especially on this day, the 73rd anniversary of the 
invasion of Normandy. June 6th is the day to remember the 
importance of American military resolve and the commitment of 
our allies. That resolve and our alliances remain important 
today in our continued efforts to bring security to 
Afghanistan, deter aggression in Europe, and to keep the peace 
on the Korean Peninsula. And when it comes to our overseas 
military presence, our allies play an important role in 
supporting our troops and their families and we recognize that 
role.
    I would like to welcome the members of our panel and I look 
forward to your testimony. For the past several years MILCON 
funding has steadily declined as the Department and the 
services have sacrificed infrastructure and sustainment to make 
room in their budgets for new mission requirements and 
operational funding.
    This subcommittee has expressed repeated concerns, ones 
that DOD leaders and commanders have echoed at these hearings, 
over time underinvestment in MILCON will negatively impact 
mission. With this in mind, the fiscal year 2018 budget 
requests for MILCON and family housing represents a step 
forward. Funding for the active components is up 39 percent 
over fiscal year 2017 enacted levels and military family 
housing accounts are up 10 percent.
    Make no mistake, while this is an important step, it is not 
enough. The world is becoming an increasingly complex place and 
our military infrastructure is the foundation for our fighting 
forces. I look forward to hearing from our witnesses about how 
this request will do that.
    Representing Hawaii, I take a particular interest in the 
Asia Pacific region where our commitment remains absolute. This 
includes the plans to move Marines from Okinawa. Those efforts 
must be done thoughtfully and strategically to make the most of 
every MILCON dollar. Similarly, our investments in Europe must 
demonstrate our resolve to defend against regional aggression 
and reaffirm our ironclad commitment to stand with our NATO 
allies.
    I am also concerned about our public shipyards and their 
capacity and their need to be recapitalized to meet the demands 
of a larger fleet and increased maintenance needs.
    Likewise, we must make good on our promise to our soldiers 
and their families on the home front and invest in projects 
that improve their quality of life. This includes facilities 
for our guard and reserve who have shared the heavy burden of 
fighting the wars in the Middle East.
    Mr. Chairman, thank you again for holding this important 
hearing and I look forward to hearing from our witnesses.
    Senator Moran. Mr. Schatz, thank you very much for your 
opening statement, and more importantly, thank you for working 
with me so cooperatively. And thank you for your remembrance of 
D-Day's anniversary.
    I was at the Big Red One Memorial this morning and this is 
the hundredth anniversary of the creation of the Big Red One. 
And, again, great to have this day to express our gratitude to 
those who were so successful on our behalf in the invasion of 
France.
    We are going to begin with the Secretary. Mr. Secretary, 
please, we welcome your testimony.

              SUMMARY STATEMENT OF HON. PETER J. POTOCHNEY

    Secretary Potochney. Thank you, Mr. Chairman.
    Chairman Moran, excuse me, Ranking Member Schatz, and 
distinguished members of the committee. I do appreciate the 
opportunity to be here and I certainly respect and have the 
honor of being here as well.
    By way of introduction, I am Pete Potochney. I am the 
currently Acting Assistant Secretary for Energy, Installations 
and Environment. I have been acting in this capacity for a year 
and a half now or so, but I am sure we will be transitioning 
over to a team here soon.
    I would appreciate my statement being entered into the 
record. And I just want to summarize a few points here and I 
will be brief.
    The people at this table are the proponents for 
installations. We are the ones who do our best to make sure 
that our installations compete as favorably as they can for the 
limited funding that we have. We are though the--not the 
Department of Facilities and Installations. We are the 
Department of Defense. And so over the years, at least in my 
experience, we always choose to take risks in installations. We 
will run our installations somewhat into the ground in order to 
devote the resources necessary to support the warfighters in 
the capabilities that they need, and in particular for 
lethality if the current term.
    So we are doing our best, and I wanted you to hear that 
from me, to make sure that the requirements that our 
installations generate for funding deserve and get the 
attention that they need. Previous budgets though have 
exacerbated the dynamic of installations being billpayers. We 
have been putting ourselves into a hole. This budget gets us 
out of the hole a little bit, or at least gets us on a glide 
path that could get us out of the hole, but there is a lot to 
be done.
    And, you know, with the $2 billion increase in MILCON and a 
billion or plus in the O&M that goes into sustainment, that is 
an important vector, if you will, for us, but there is more to 
do.
    As we go forward, and the Congress and in particular this 
committee requires that we demonstrate a product application of 
the funding that you give us. And that's what I think you 
alluded to, Mr. Chairman. And to that end I have to say that we 
are asking for a base realignment and closing authority this 
year once again. That is important to us. It is important to us 
to make sure that we are spending the precious funds that we 
get on the facilities that we need and make sure that we are 
not spending money otherwise that should otherwise be devoted 
to readiness on facilities that we do not need. And in the end, 
it allows us to validate the installations that remain so that 
they can best compete for the funding that we expect in the 
future and that's what BRAC (Base Realignment and Closure) is 
important to us.
    So, having said all of that. This concludes my remarks. 
Thank you.
    [The statement follows:]
             Prepared Statement of Hon. Peter J. Potochney
                              introduction
    Chairman Moran, Ranking Member Schatz and distinguished members of 
the subcommittee: Thank you for the opportunity to present the 
President's fiscal year 2018 budget request for the Department of 
Defense programs supporting energy, installations, and the environment.
    First, let me thank you for your support for our installation 
mission. Our installations are the foundation from which America's 
military capability is generated, deployed, and sustained. As the 
missions within the Department change to meet emerging threats, and as 
advances in technology generate new requirements for how we use our 
physical plant, we must be ready and flexible in our vision and 
processes to adapt rapidly in response to future challenges. We could 
not have progressed as far as we have without the continuing support of 
Congress, and in particular, this subcommittee.
    The DoD operates an enormous real property portfolio encompassing 
more than 568,000 facilities on more than 500 bases, posts, camps, 
stations, yards, and centers. The replacement cost of the Department's 
installations exceeds $1 trillion, excluding the cost of the 27 million 
acres of land that our installations occupy. Our installations remain 
critical components of our ability to fight and win wars. Our 
warfighters cannot do their job without bases from which to fight, on 
which to train, or in which to live when they are not deployed. Our 
installations support our families--many of which live there and all of 
which use their support services. The bottom line is that installations 
support our military readiness. Our primary focus in our fiscal year 
2018 budget request is to ensure that our military installations are 
capable of supporting the missions of our forces, today and in the 
future. America's military installations, including both their built 
and natural environments, must be managed in a comprehensive and 
integrated manner to optimize our investment in the assets needed to 
accomplish the mission. The fiscal year 2018 President's Budget request 
builds on readiness improvements included in the fiscal year 2017 
budget and the fiscal year 2017 Request for Additional Appropriations, 
adds resources to balance the force, and address evolving national 
security challenges such as recapitalizing and modernizing the nuclear 
enterprise.
    My testimony will outline the fiscal year 2018 budget request 
specific to the Military Construction (MilCon) appropriation and 
highlight a handful of top priority issues--namely, the 
Administration's request for Base Realignment and Closure (BRAC) 
authority, the status of the movement of Marines to Guam, the 
Department's investments in assuring the delivery of fuel to combat 
forces, and an overview of our facility energy programs.
    My testimony also will address our environmental budget, which has 
been relatively stable in recent years. I will provide an update on our 
environmental programs, including progress in our compliance programs 
where we've seen a decrease in environmental violations, and our 
efforts to address perfluorooctanoic sulfonate (PFOS) and 
perfluorooctane acid (PFOA) in drinking water.
   fiscal year 2018 budget request--military construction and family 
                                housing
    The President's fiscal year 2018 budget requests $9.8 billion for 
the MilCon and Family Housing Appropriation--an increase of 
approximately $2.3 billion from the fiscal year 2017 base budget 
request and $2.0 billion more than the fiscal year 2017 base budget 
enacted level. This increase is directly attributable to Secretary of 
Defense's guidance to fund high priority readiness and weapon's 
modernization programs. In addition to construction required to bed-
down new or changing missions, this funding will also be used to 
restore and modernize enduring facilities, acquire new facilities where 
needed, and eliminate those that are excess or obsolete. Overall, this 
MilCon request provides $1.7 billion for new mission facilities and 
another $5.5 billion for current mission facilities.
    While the fiscal year 2018 budget request is a marked improvement 
compared to the last few years, the funding is focused on restoring the 
Department's ability to respond to warfighter requirements and mission 
readiness, and therefore, is still insufficient to reverse the impacts 
to our facilities resulting from sequestration. In reaction to the 
Budget Control Act and subsequent Balanced Budget Acts, Defense 
Components significantly reduced their investments in Facilities 
Sustainment, MilCon, and Restoration and Modernization. Combined, these 
reductions have significantly degraded our facilities, necessitating 
significant investment for facilities repair and replacement in the 
future and exacerbating the need for the Department to be able to 
right-size its infrastructure rather than continuing to waste scarce 
resources maintaining excess facilities. The Department has an unfunded 
backlog of deferred maintenance and repair (M&R) work that exceeds $140 
billion, raising significant concerns about the performance and 
reliability of our facilities and installations.

           TABLE 1. MILCON AND FAMILY HOUSING BUDGET REQUEST, FISCAL YEAR 2017 VERSUS FISCAL YEAR 2018
----------------------------------------------------------------------------------------------------------------
                                                    Fiscal year     Fiscal year    Change from fiscal year 2017
                                                       2017            2018      -------------------------------
                    Category                     --------------------------------
                                                    Request ($      Request ($      Funding ($        Percent
                                                     Millions)       Millions)       Millions)
----------------------------------------------------------------------------------------------------------------
Military Construction...........................           5,977           7,965           1,988            33.3
Base Realignment and Closure....................             205             256              51            24.9
Family Housing..................................           1,320           1,407              87             6.6
NATO Security Investment Program................             178             154            (24)          (13.5)
      Total.....................................           7,680           9,782           2,102            27.4
----------------------------------------------------------------------------------------------------------------
*Includes $236 million requested in the fiscal year 2017 Request for Additional Appropriations (RAA). The fiscal
  year 2017 Consolidated Appropriations Act enacted the RAA MilCon request in the Overseas Contingency
  Operations appropriations.

                         military construction
    We are requesting $8.1 billion for the MilCon account, which is the 
substantially higher than our previous budget submission. While this 
represents a 33 percent increase from our fiscal year 2017 request, 
inclusive of the fiscal year 2017 Request for Additional 
Appropriations, this level of funding is still not sufficient to 
reverse the impacts imposed through the implementation of 
sequestration. This request addresses requirements for construction at 
enduring installations stateside and overseas, and for specific 
programs such as the NATO Security Investment Program and the Energy 
Resilience and Conservation Investment Program. In addition, we are 
targeting MilCon funds in three key areas as discussed immediately 
below.
    As mentioned earlier, the Secretary of Defense issued guidance that 
the Administration's increased topline for DoD would focus on improving 
readiness and increasing warfighter lethality. In implementing this 
guidance, the DoD Components applied more than 54 percent of the MilCon 
budget request to construct operational/training facilities ($3.3 
billion) and maintenance/production facilities ($1.1 billion). MilCon 
is key to supporting these mission areas by ensuring our forces have 
the right size and mix of facilities to make them effective 
warfighters. Our fiscal year 2018 budget request includes two projects 
at Stuttgart and Wiesbaden, Germany, to continue the European 
Infrastructure Consolidation. The budget request also includes funding 
to support bed-down of new missions, such as $269 million for three 
projects to support arrival of Joint Strike Fighters at MCAS Cherry 
Point, North Carolina, RAF Lakenheath, United Kingdom, Eielson AFB, 
Alaska, and Eglin AFB, FL; $61 million for a project to support the F/
A-18 Super Hornet at NAS Lemoore, California and $34 million for 
projects at MCAS Iwakuni and NAS Fort Worth JRB to support arrival of 
the KC130J tanker. Additionally, more than $1.7 billion is included in 
this request to support Combatant Command priorities. For instance, $15 
million will be used to build a squadron operations facility at Central 
Command's Al Udeid AB in Qatar; in the European Command's area of 
responsibility (AOR), $22 million for a strategic aircraft parking 
expansion project at Souda Bay, Greece, $27 million for housing 
improvements at NAS Rota, Spain, and $27 million for a Guardian Angel 
Operations Facility at Aviano AB, Italy; and in the Pacific Command 
AOR, $53 million is requested for an unmanned aerial vehicle hangar at 
Kunsan AB, South Korea, $76 million for a fuel storage project in 
Darwin, Australia, and $28 million for Special Tactics Operations 
Facility at Kadena AB, Japan.
    In the second key area, the fiscal year 2018 budget request 
includes $858 million for medical facility recapitalization. This 
includes $251 million for the eighth and final increment to replace the 
hospital at Fort Bliss, $250 million for the first phase of Fort 
Leonard Wood's hospital replacement, $124 million for the second 
increment of the Walter Reed Medical Center Addition/Alteration and 
$107 million for the seventh increment of the Rhine Ordnance Barracks 
Medical Center replacement in Germany. The request also includes $126 
million to construct much needed blood donor/processing facilities, 
consolidate medical/dental facilities at several Marine Corps 
installations and expand/alter one Air Force medical/dental facility. 
All the projects are crucial for our continued delivery of the quality 
healthcare that our Service members and their families deserve.
    Finally, the third key area is Quality of Life. Our fiscal year 
2018 MilCon budget request includes $249 million to continue 
implementing the Department's 10-year plan (started in fiscal year 
2011) to replace and recapitalize more than half of the DoD Education 
Activity (DoDEA) schools. These funds will replace four schools in poor 
condition at Spangdahlem AB, Germany; Stuttgart, Germany; Vicenza, 
Italy; and Punta Borinquen, Puerto Rico. In recent years, we also have 
heavily invested in Unaccompanied Personnel Housing (UPH) to support 
initiatives such as BRAC implementation global restationing, and force 
structure modernization.
                    family and unaccompanied housing
    A Department priority that has not changed is our commitment to 
protect the quality of life for military personnel and their families 
by ensuring access to suitable, affordable housing. The environment in 
which our forces and their families live has an impact on their ability 
to do their job, and on the Department's ability to recruit and retain. 
Quality of life--to include the physical condition of the facilities in 
which our service members and their families live and work and a safe, 
healthy environment around and within those facilities--is also 
critical to the readiness and morale of the force. This request 
reflects that priority.
    Our fiscal year 2018 budget request includes $1.4 billion to fund 
construction, operation, and maintenance of government-owned and leased 
family housing worldwide and to provide housing referral services to 
assist military members in renting or buying private sector housing. 
This funding request supports more than 36,000 government-owned family 
housing units, most of which are on enduring bases in overseas 
locations now that the Department has privatized the vast majority, 
more than 202,000 units, of our family housing in the United States. 
The budget request also supports more than 7,500 government-leased 
family housing units where government-owned or privatized housing is 
unavailable. The requested funding will ensure that U.S. military 
personnel and their families continue to have suitable housing choices.

                TABLE 2. FAMILY HOUSING BUDGET REQUEST, FISCAL YEAR 2017 VERSUS FISCAL YEAR 2018
----------------------------------------------------------------------------------------------------------------
                                                    Fiscal year     Fiscal year    Change from fiscal year 2017
                                                       2017            2018      -------------------------------
                    Category                     --------------------------------
                                                    Request ($      Request ($      Funding ($        Percent
                                                     Millions)       Millions)       Millions)
----------------------------------------------------------------------------------------------------------------
Family Housing Construction/Improvements........             356             351             (5)           (1.4)
Family Housing Operations & Maintenance.........             961           1,052              91             9.5
Housing Improvement Fund........................               3               3               0               0
Military Unaccompanied Housing Improvement Fund.               0               1               1             100
      Total.....................................           1,320           1,407              87             6.6
----------------------------------------------------------------------------------------------------------------

    DoD also continues to encourage the modernization of Unaccompanied 
Personnel Housing (UPH) to improve privacy and provide greater 
amenities. In recent years, we have heavily invested in UPH to support 
initiatives such as BRAC implementation global restationing, force 
structure modernization and Homeport Ashore--a Navy program to move 
Sailors from their ships to shore- based housing when they are at their 
homeport. The fiscal year 2018 MilCon budget request includes $250 
million for five construction and renovation projects that will improve 
living conditions for trainees and unaccompanied personnel, as well as 
$76 million for four dining facilities.
    Our request also includes $3 million to support administration of 
the Military Housing Privatization Initiative (MHPI) program as 
prescribed by the Federal Credit Reform Act of 1990. This includes 
monitoring MHPI programmatic goals and performance, and risk associated 
with Federal credit assistance provided for MHPI projects (e.g., 
government direct loans and limited loan guarantees). The Department 
continues to work with our MHPI project owners to help ensure the long-
term viability of individual projects and the program as a whole. We 
are continually assessing the impact that Basic Allowance for Housing 
(BAH) changes may have on project revenue, which covers project 
operating and maintenance expenses, funds debt payments, and finances 
the future housing revitalization and recapitalization necessary to 
provide continued high quality housing for military families and to 
ensure these projects remain viable throughout their 40-50 year 
lifespans.
              facilities sustainment and recapitalization
    In addition to MilCon, the Department invests significant funds to 
maintain and repair our existing facilities. Sustainment represents the 
Department's single most important investment in preserving the 
condition of its facilities. It includes regularly scheduled 
maintenance and repair or replacement of facility components--the 
periodic, predictable investments that should be made across the 
service life of a facility to slow its deterioration, optimize 
investment, save resources over the long term, maintain safety, 
optimize facility performance across its lifecycle, and help improve 
the productivity and quality of life of our personnel.
    The accounts that fund these activities have taken significant cuts 
in recent years; funding constraints under the Budget Control Act led 
Defense Components to accept risk in facilities sustainment and 
recapitalization. Recognizing that too much risk has been endured in 
maintaining their facilities, the Military Departments increased 
Facility Sustainment commitments in the fiscal year 2018 budget 
request, which includes $8.5 billion of Operations and Maintenance 
(O&M) funding to sustain our real property, a 15 percent funding 
increase compared to the Department's fiscal year 2017 budget request.

       TABLE 3. SUSTAINMENT AND RECAPITALIZATION BUDGET REQUEST, FISCAL YEAR 2017 VERSUS FISCAL YEAR 2018
----------------------------------------------------------------------------------------------------------------
                                                    Fiscal year     Fiscal year    Change from fiscal year 2017
                                                       2017            2018      -------------------------------
                    Category                     --------------------------------
                                                    Request ($      Request ($      Funding ($        Percent
                                                     Millions)       Millions)       Millions)
----------------------------------------------------------------------------------------------------------------
Sustainment (O&M)...............................           7,464           8,555           1,091            14.6
Recapitalization (O&M)..........................           3,260           3,728             468            14.4
      Total.....................................          10,533          12,283           1,559            14.5
----------------------------------------------------------------------------------------------------------------
*Includes $13.7 million in Sustainment and $1.2 billion in Recapitalization funding DoD requested in its fiscal
  year 2017 Request for Additional Appropriations. Congress enacted $13.7 million in Sustainment and $955
  million for Recapitalization.

    Our fiscal year 2018 budget request includes $3.7 billion of O&M 
funding for recapitalization. The combined facility sustainment and 
recapitalization funding of $12.3 billion is a 14.5 percent increase 
from the fiscal year 2017 President's Budget request (inclusive of the 
fiscal year 2017 Request for Additional Appropriations), but still 
reflects an acceptance of significant risk in DoD facilities. In fact, 
the request supports an average DoD-wide sustainment funding level that 
equates to 78 percent of the Facilities Sustainment Model requirement 
as compared to the Department's goal to fund sustainment at 90 percent 
of modeled requirements.
    Previous budgets have limited investment in facilities sustainment 
and recapitalization to the point that 23 percent of the Department's 
facility inventory is in ``poor'' condition (Facility Condition Index 
(FCI) between 60 and 79 percent) and another 10 percent is in 
``failing'' condition (FCI below 60 percent) based on recent facility 
condition assessment data. Compared to last year, the Department is 
seeing more poor facilities moving into failing conditions. Until the 
out-year sequestration challenges are overcome, the Department will 
continue to take risk in funding to sustain and recapitalize existing 
facilities. This will ultimately result in DoD facing larger bills in 
the out-years to restore or replace facilities that deteriorate 
prematurely. That said, as the DoD Components implement our policy to 
standardize facility inspections using the Sustainment Management 
System, commonly referred to as ``BUILDER,'' we are seeing innovative 
investment techniques evolving to strategically apply the sustainment 
and recapitalization funds to maximize return on this investment. For 
instance, the Navy uses the BUILDER FCI output to prioritize funding on 
subcomponents that are most critical to keeping a facility in 
operation.
        fiscal year 2018 budget request--environmental programs
    Military readiness depends, to a significant degree, on our careful 
and responsible stewardship of the lands and natural resources 
entrusted to us. From protecting the health of our members to 
maintaining access to critical training lands, the Department's 
environmental budget is inextricably linked to our primary mission. We 
have sustained our readiness with a relatively stable budget despite 
growing challenges, which include new drinking water health advisories 
and critical habitat designations. In the President's fiscal year 2018 
budget, we are requesting $3.4 billion, a very slight decrease from 
fiscal year 2017, to continue the legacy of excellence in our 
environmental programs.
    The table below outlines the entirety of the DoD's environmental 
program, but I would like to highlight a few key elements where we are 
demonstrating significant progress--specifically, our environmental 
restoration program, our efforts to leverage technology to reduce the 
cost of cleanup, and the Readiness and Environmental Protection 
Integration (REPI) program.

             TABLE 4. ENVIRONMENTAL PROGRAM BUDGET REQUEST, FISCAL YEAR 2017 VERSUS FISCAL YEAR 2018
----------------------------------------------------------------------------------------------------------------
                                                    Fiscal year     Fiscal year    Change from fiscal year 2017
                                                       2017            2018      -------------------------------
                    Category                     --------------------------------
                                                    Request ($      Request ($      Funding ($        Percent
                                                     Millions)       Millions)       Millions)
----------------------------------------------------------------------------------------------------------------
Environmental Restoration.......................           1,030           1,009            (21)           (2.0)
Environmental Compliance........................           1,493           1,443            (50)           (0.3)
Environmental Conservation......................             420             424               4               0
Pollution Prevention............................              84              75             (9)          (10.7)
Environmental Technology........................             186             203              17               0
BRAC Environmental..............................             181             220              39            21.5
      Total.....................................           3,395           3,374            (21)           (0.6)
----------------------------------------------------------------------------------------------------------------

    We are requesting $1.2 billion to continue cleanup efforts at the 
remaining Installation Restoration Program (IRP--focused on cleanup of 
hazardous substances, pollutants, and contaminants) and Military 
Munitions Response Program (MMRP--focused on the removal of unexploded 
ordnance and discarded munitions) sites. This includes $1.0 billion for 
``Environmental Restoration,'' which encompasses active installations 
and Formerly Used Defense Sites (FUDS) locations and $220 million for 
``BRAC Environmental.'' The amount of BRAC Environmental funds 
requested will be augmented by the use of land sale revenue and prior 
year, unobligated funds. These investments help to ensure DoD continues 
to make property at BRAC locations safe and environmentally suitable 
for development. We remain engaged with the Military Departments to 
ensure they are executing plans to spend remaining unobligated balances 
in the BRAC account.

                                                         TABLE 5: PROGRESS TOWARD CLEANUP GOALS
 Goal: Achieve Response Complete at 90 percent and 95 percent of Active and BRAC IRP and MMRP sites, and FUDS IRP sites, by fiscal year 2018 and fiscal
                                                                 year 2021, respectively
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                   Status as of the end of     Projected status at the end   Projected status at the end
                                                                      fiscal year 2016             of fiscal year 2018           of fiscal year 2021
--------------------------------------------------------------------------------------------------------------------------------------------------------
Army..........................................................                           90%                           93%                           97%
Navy..........................................................                            82                            85                            90
Air Force.....................................................                            82                            88                            94
DLA...........................................................                            86                            95                            98
FUDS..........................................................                            82                            88                            94
      Total...................................................                            85                            90                            94
--------------------------------------------------------------------------------------------------------------------------------------------------------

    By the end of 2016, the Department, in cooperation with state 
agencies and the Environmental Protection Agency, completed cleanup 
activities at 85 percent of Active and BRAC IRP and MMRP sites, and 
FUDS IRP sites, and is now monitoring the results. During fiscal year 
2016 alone, the Department completed cleanup at over 630 sites. Of the 
roughly 39,700 restoration sites, almost 33,000 are now in monitoring 
status or have completed cleanup. We are currently on track to meet our 
program goal of completing cleanup at 90 percent of Active and BRAC IRP 
and MMRP sites, and FUDS IRP sites, by the end of fiscal year 2018. We 
anticipate completing cleanup at 94 percent of these sites by the end 
of fiscal year 2021.
    Our focus remains on continuous improvement in the restoration 
program: minimizing overhead; adopting new technologies to reduce cost 
and accelerate cleanup; refining and standardizing our cost estimating; 
and improving our relationships with State regulators through increased 
dialogue. All of these initiatives help ensure that we make the best 
use of our available resources to complete cleanup.
    However, challenges remain that slow our progress. For example, 
unregulated or emerging contaminates, such as PFOS and PFOA, are 
becoming a top priority and require the DoD to reprioritize or reopen 
previously made decisions which will cause delays in achieving our 
goals.
                        environmental technology
    A key part of DoD's approach to meeting its environmental 
obligations and improving its performance is the pursuit of advances in 
science and technology. The Department has a long record of success 
when it comes to developing innovative environmental technologies and 
getting them transferred out of the laboratory and into actual use on 
remediation sites, installations, ranges, depots, and other industrial 
facilities. These same technologies are also now widely used at non-
Defense sites helping the nation as a whole.
    While the fiscal year 2018 budget request for Environmental 
Technology overall is $203 million, our core efforts are conducted and 
coordinated through two key programs--the Strategic Environmental 
Research and Development Program (SERDP--focused on basic and applied 
research) and the Environmental Security Technology Certification 
Program (ESTCP--which validates more mature technologies to transition 
them to widespread use). The fiscal year 2018 budget request includes 
$72 million for SERDP and $32 million for ESTCP for environmental 
technology demonstrations, with an additional $22 million requested 
specifically for energy technology demonstrations.
    These programs have already achieved demonstrable results and have 
the potential to reduce costs by developing new ways of treating 
groundwater contamination and reducing the life-cycle costs of multiple 
weapons systems. As an example, SERDP has been investigating means to 
improve our ability to address issues associated with a suite of 
substances which include PFOS and PFOA. SERDP is funding projects to 
address a range of issues, including remediation, and replacement. This 
research has developed effective remediation approaches for 
contaminated soil and groundwater. SERDP has also started three 
projects focused on a fluorine-free substitute for PFOS and PFOA which 
meets the military's stringent performance requirements for 
firefighting foam.
    Looking ahead, our environmental technology investments are focused 
on the Department's evolving requirements. In the area of Environmental 
Restoration, we are launching an aggressive initiative to develop more 
cost effective treatment options for groundwater contaminated with PFOS 
and PFOA. Finally, in the area of installation energy, we are focused 
on proving technology and solutions that cost-effectively improve the 
energy security of our installations and that protect our energy assets 
and facilities from cyber attack.
         environmental conservation and compatible development
    The Department continues to maintain access to the land, water, and 
airspace needed to support our mission. We successfully manage the 
natural resources entrusted to us on approximately 25 million acres. 
These lands include many high quality and unique habitats that are not 
only vital to readiness, but also sustain nearly 520 species-at-risk 
and over 400 that are federally listed as threatened or endangered 
species. Having high quality natural landscapes not only sustains these 
species but provides the conditions necessary for mission-essential 
activities.
    The fiscal year 2018 budget request for Conservation is $424 
million. The Department invests these funds not only to manage and 
sustain our high quality lands but also to maximize the flexibility to 
use those lands for military purposes. Species endangerment and habitat 
degradation can and does have negative impacts on the mission. This is 
why we work hard to avoid the need for species to become listed, and if 
they do become listed, to manage these plants and animals in ways that 
both sustain the resource and enable us to execute our testing, 
training, and operational responsibilities. We have frequently avoided 
critical habitat designations and the associated impacts to the 
Department's mission because our Integrated Natural Resource Management 
Plans provide comparable protections for at-risk species. In fact, the 
U.S. Fish and Wildlife Service has granted exclusions from designation 
of critical habitat to DoD installations 71 times since fiscal year 
2012.
    As a result of our management, research, and coordination efforts, 
the Department has regained access to important training lands. For 
example, Fort Hood worked with the U.S. Fish and Wildlife Service to 
manage the black-capped vireo and golden-cheeked warbler populations 
and eliminate restrictions affecting a total of 73,000 acres. 
Similarly, the Navy partnered with the California Department of Fish 
and Game to prevent the listing of the flat-tailed horned lizard, 
averting impacts to the Naval Air Facility El Centro mission. 
Sustaining military readiness by working to avoid the need for species 
to be listed and to recover them enough to be delisted are top natural 
resource objectives for DoD.
   readiness and environmental protection integration (repi) program
    REPI investments protect training, testing, and operational assets 
of the Department. As training, testing, and operational activities 
increase, the ability to work with Federal, state, local and private 
partners to limit incompatible development, relive regulatory 
restrictions and leverage resources that sustain critical military 
capability, becomes even more important. Investing in and taking 
advantage of current opportunities for innovative collaboration is 
paramount to securing the operational viability of local installations 
and ranges. Through REPI's partnership efforts we can continue to 
support the warfighter, provide value to the taxpayer, and protect 
military readiness.
    To help ensure DoD sustains its national defense mission and help 
ensure military installations do not become refuges of last resort for 
threatened, endangered or at-risk species, the Department has developed 
a strategy that supports conservation beyond installation boundaries. 
Under this strategy DoD engages with other governmental and non-
governmental partners who work with private landowners, to develop 
initiatives and agreements for protecting species for the purposes of 
avoiding or mitigating regulatory restrictions on training, testing, 
and operations on DoD lands. Expanding the scale and options for 
protecting species on non-DoD land benefits conservation objectives 
while helping sustain access to, and operational use, of DoD live 
training and test domains.
    This strategic focus is a key element of the Readiness and 
Environmental Protection Integration (REPI) Program. Under REPI, the 
Department partners with conservation organizations and state and local 
governments to preserve buffer land and sensitive habitat near 
installations and ranges. Preserving these areas allows the Department 
to avoid more costly alternatives such as workarounds, restricted or 
unrealistic training approaches, or investments to replace existing 
test and training capability. Simultaneously, these efforts ease the 
on-installation species management burden and reduce the possibility of 
restricted activities, ultimately providing more flexibility for 
commanders to execute their missions.
    Included within the $424 million for Conservation, $75 million is 
directed to the REPI Program. The REPI Program is a cost-effective tool 
to protect the nation's existing training, testing, and operational 
capabilities at a time of decreasing resources. In the last 14 years, 
REPI partnerships have protected more than 465,000 acres of land around 
89 installations in 30 states. In addition to the tangible benefits of 
preserving DoD's existing training, testing, and operational assets, 
these efforts have resulted in significant contributions to 
biodiversity and recovery actions supporting threatened, endangered and 
candidate species.
    The REPI Program supports the warfighter and protects the taxpayer 
because it multiplies the Department's investments through unique cost-
sharing agreements. Even in these difficult economic times, REPI is 
able to directly leverage the Department's investments at approximately 
one-to-one with those of our partners, effectively ensuring compatible 
land uses around our installations for half-price.
    In addition, DoD, along with the Departments of the Interior and 
Agriculture, continues to advance the Sentinel Landscapes Partnership 
to protect large landscapes where conservation, working lands, and 
national defense interests converge--places defined as Sentinel 
Landscapes. Established in 2013, the Sentinel Landscapes Partnership 
further strengthens interagency coordination and provides taxpayers 
with the greatest leverage of their funds by aligning Federal programs 
to advance the mutually-beneficial goals of each agency.
    Since the initiation of the Partnership, agencies from the three 
Departments have designated six locations as Sentinel Landscapes. Some 
of the military's most important installations anchor these Landscapes: 
Joint Base Lewis-McChord in Washington, Fort Huachuca in Arizona, Naval 
Air Station (NAS) Patuxent River and the Atlantic Test Ranges in 
Maryland (Middle Chesapeake Sentinel Landscape); Avon Park Air Force 
Range in Florida; Camp Ripley in Minnesota; and a consortium of 
installations in Eastern North Carolina. Partnerships at each of these 
locations are collaborating to preserve, enhance, and protect habitat 
and vital working lands near military installations in order to reduce, 
prevent, or eliminate military test, training, and operational 
restrictions due to incompatible development. At Joint Base Lewis-
McChord, Fort Huachuca, and Middle Chesapeake Sentinel Landscapes 
combined, partners have invested more than $85 million over the last 4 
years to advance each location's specific military mission and resource 
conservation goals. Over $17 million of the total investment during 
this period has come from state and local governments, whose support 
for the mission of the Partnership has helped to ensure its success.
            fiscal year 2018 budget request--energy programs
    Unlike the Department's MilCon and Environmental Remediation 
programs, where the budget request includes specific line items, our 
energy programs are subsumed across other accounts. The following 
sections describe the Energy portion of the budget request.
                           operational energy
    Operational energy is the energy required for training, moving, and 
sustaining military forces and weapons platforms for military 
operations. In other words, operational energy is fuel for ships, 
aircraft, combat vehicles, and contingency bases. While energy is an 
essential component of our warfighting capability, longer operating 
distances, remote and austere geography, and anti-access/area denial 
threats are challenging the Department's ability to assure the delivery 
of fuel. As the ability to deliver energy is placed at risk, so too is 
the Department's ability to deploy and sustain forces around the globe.
    The fiscal year 2018 President's Budget supports a broad set of 
investments to counter emerging threats to the delivery of fuel to 
globally deployed combat forces. The Department is investing over $2.5 
billion to upgrade and procure new equipment, improve propulsion, adapt 
plans, concepts, and wargames to account for increasing risks to 
logistics and sustainment, and enhance how the Department considers 
energy in developing new capabilities. As the Department responds to 
changing threats in Europe, the Asia-Pacific, and the Middle East, 
these initiatives are increasing capability and decreasing risks for 
warfighters deployed around the globe.
    Separate from these investments and overseen by the Office of the 
Under Secretary of Defense (Comptroller), the fiscal year 2018 budget 
also includes an estimated $9.2 billion request for 87.7 million 
barrels of fuel.
    Highlights of the Department's investments in operational energy 
include:

  --Propulsion.--Over $1.4 billion in Department investments in 
        improved engines for ships, aircraft, and tactical vehicles 
        provide commanders with a range of options, including 
        additional range, time on station, payload, speed, and 
        endurance.
  --Vehicle Upgrades.--The Department is investing $234.6 million to 
        improve and upgrade its tactical vehicles, including the Army's 
        Joint Light Tactical Vehicle, Abrams tank, and Bradley infantry 
        fighting vehicle, and the USMC's Light Attack Vehicle. These 
        modifications will increase operational range, enable increased 
        performance, or reduce the need for resupply on the 
        battlefield.
  --Contingency Basing.--The Department's request includes $188.9 
        million to extend the operational reach and reduce the risks of 
        sustaining forward deployed forces through improvements in 
        shelters, mobile power generators, microgrids, and--when they 
        meet mission requirements and increase warfighter capability--
        tactical solar.
  --Operational Energy Capability Improvement Fund (OECIF).--The 
        Department is requesting $37.4 million in RDT&E funding to 
        initiate operational energy research programs that improve 
        military effectiveness organized around specific annual themes 
        or focus areas, as well as support programs already underway.
  --Alternative Fuels.--When cost competitive and drop-in compatible 
        with existing equipment, the Department procures and uses 
        alternative fuels in worldwide operations. The Department is 
        investing $26.5 million in research, testing, and certification 
        to ensure our combat platforms are able to use alternatives to 
        petroleum-based military specification fuels--including 
        commercial jet fuel, synthetic fuel, and biofuels--as they 
        enter the global supply chain.
  --Oversight and Policy.--The Department is requesting $4.9 million to 
        support the oversight of operational energy activities by the 
        Combatant Commands, Defense Agencies, and the Services. Per 
        statute, the Department annually reviews the alignment of the 
        President's Budget with the Department's Operational Energy 
        Strategy.

    In addition to these investments in the President's Budget, the 
Department is shaping how we develop, operate, and sustain future 
combat systems, including:

  --Requirements of Future Systems.--Partnered with the Joint Staff, my 
        office ensures the consistent use of an Energy Key Performance 
        Parameter (eKPP), informed by an Energy Supportability Analysis 
        (ESA), in all Department programs. The eKPP and supporting ESA 
        assess whether a platform can successfully perform its mission 
        as intended and whether the platform can be sustained with 
        energy using planned force structure, concepts, and tactics. In 
        fiscal year 2016, the Department review of 27 programs of high 
        interest to the Joint Requirements Oversight Council confirmed 
        that 14 had ESA-informed eKPPs, while the remaining 13 had 
        waivers provided by the Joint Staff, Director of Logistics 
        (most eKPP waivers were granted to C4ISR programs).
  --Operational Risk in Wargames.--To better understand the role of 
        operational energy in future operations, we support long-range 
        wargames conducted by the Department. In fiscal year 2016, my 
        office participated in the Air Force's Global Engagement 2016 
        wargame and the Defense Logistics Agency's 2016 Logistics 
        Centric game. Operational Energy staff participated in the 
        planning and execution of the games, as well as the assessment 
        of game results.
  --Supply Chain Analyses.--In coordination with OSD, the Defense 
        Logistics Agency--Energy, the Joint Staff, and the Services, my 
        office is evaluating end-to-end fuel supply chain risks to 
        assess implications for operations in the Pacific and European 
        theaters.

    Based on his experience in Iraq, then Lt Gen James Mattis, Director 
of Marine Corps Combat Development Command, directed researchers in 
2005 to identify technological and operational improvements that would 
``unleash us from the tether of fuel.'' The operational energy 
investments in the fiscal year 2018 budget request are focused on 
reducing that ``tether'' and increasing the capability of our forces on 
land, air, and sea.
                          installation energy
    Installation energy is the energy used to power our 500 plus 
permanent installations here in the U.S and overseas. It also includes 
the fuel used in our 160,000 non-tactical fleet vehicles. Our 
installation energy bill remains our single largest base operating cost 
and utilities expenditures are included in the Base Operations O&M 
request. There is no explicit request in the overall budget for 
installation energy. In fiscal year 2016, we spent $3.7 billion to 
heat, cool, and provide electricity to our facilities. To reduce this 
cost the Department is pursuing energy efficiencies through building 
improvements, new construction, and third party financed investments.
    The Department's fiscal year 2018 budget request includes 
approximately $783 million for investments in energy efficiency and 
water conservation projects, most of which are directed to existing 
buildings. The majority ($633 million) is in the Military Components' 
operations and maintenance accounts, to be used for sustainment and 
recapitalization projects. Such projects, in the past, typically 
involved retrofits to improve lighting, high-efficiency HVAC systems, 
double- pane windows, energy management control systems, and new roofs. 
The remainder ($150 million) is for the Energy Resilience and 
Conservation Investment Program (ERCIP), a MilCon account used to 
implement resilience through energy efficiency, water conservation, and 
renewable energy projects. This program was formerly known as the 
Energy Conservation Investment Program (ECIP) and was expanded this 
budget year to include projects that support the Department's energy 
resilience requirements. Each individual ERCIP project has a positive 
payback (i.e. Savings to Investment Ratio (SIR) > 1.0) and the overall 
program has a combined SIR greater than 2.0. This means for every 
dollar we invest in ERCIP, we generate more than two dollars in 
savings. Among other energy resilience projects, ERCIP's fiscal year 
2018 budget includes a cogeneration microgrid project at Schriever Air 
Force Base, whose mission is to support global space and missile 
defense operations. This project will ensure Schriever's critical 
missions will have the capability to become completely independent from 
the electrical grid to sustain operations in the event of a grid 
outage, natural disaster, or attack.
    In addition to retrofitting existing buildings, we continue to 
integrate and optimize high- performance building attributes in our 
existing and newly constructed buildings that are cost effective and 
reduce long-term operating costs. These requirements are now codified 
in Unified Facility Criteria (UFC) 1-200-02, High Performance and 
Sustainable Building Requirements, which was updated and published in 
December 2016. This guidance provides requirements for achieving high 
performance and sustainability in our facilities assisting in 
compliance with the Energy Policy Act (EPAct) of 2005, and the Energy 
Independence and Security Act (EISA) of 2007.
    Further, the Department has broad alternative financing authorities 
that can be leveraged to implement installation energy initiatives. 
These authorities allow us to use performance based contracts, power 
purchase agreements, enhanced use leases and utilities privatization, 
among others. For example, the Department has taken advantage of third-
party financing through Energy Savings Performance Contracts (ESPCs) 
and Utility Energy Service Contracts (UESCs) to implement energy 
efficiency improvements in our existing buildings. Under these 
contracts private energy firms or utility companies make energy 
upgrades to our buildings and are paid back over time using utility 
bill savings. While such performance based contracts have long been 
part of the Department's energy strategy, the Services have 
significantly increased the use of ESPCs and UESCs. Since December 
2011, the Department has awarded $2.3 billion in performance based 
contracts. These contracts are expected to save the DoD approximately 
$4 billion across the contract terms through energy efficiencies, 
maintenance savings and water efficiencies.
           energy resilience and facilities energy management
    Ensuring our military bases are energy resilient is a top priority 
for the Department. Secure access to energy resources on our 
installations is critical to the execution of the DoD mission. The 
interdependent and vulnerable nature of existing electric power grids 
supporting our installations places risk on our mission capabilities 
and installation security as well as our power projection ability and 
support to global operations.
    To ensure our installations have the ability to prepare for and 
recover from energy disruptions that impact mission assurance, the 
Military Departments are implementing the DoD energy resilience policy 
my office issued early last year. The policy requires the Military 
Departments to take the necessary steps to plan for and have the 
capability to ensure available, reliable and quality power to 
continuously accomplish our missions from our installations and 
facilities. This includes prioritizing installation missions, 
conducting assessments and planning and programming energy resilience 
projects to reduce mission risk for improved energy resilience and 
security. As a follow on to this policy, an Energy Resilience: 
Operations, Maintenance and Testing Strategy and Implementation Guide 
was recently issued by my office to provide installation commanders, 
mission operators and energy managers procedures to ensure that energy 
generation systems, infrastructure, equipment, and fuel are available 
and reliable to support critical mission operations on military 
installations. We are currently working on guidance that integrates 
energy resilience metrics into energy resilience requirements to better 
inform investment decisions.
    The Department's energy efficiency efforts, not only contribute to 
energy resilience by reducing critical loads, but lowers our base 
operating costs--freeing up funds for the warfighter. Since fiscal year 
2005, the Department has reduced its facility energy usage by 16 
percent, helping the DoD avoid approximately $5 billion in utility 
costs. To further improve facilities energy management, my office 
issued a policy to require the Military Departments to develop 
Installation Energy Plans (IEP) by fiscal year 2019. Implementation of 
this policy ensures the Department makes installation energy 
investments that are holistically planned to improve facilities, 
decrease operation and maintenance costs and improve energy resilience 
in support of mission.
    With respect to distributed energy sources, which includes 
renewable and alternative energy, the Department is focused on cost 
effective projects that lower costs and when economically feasible, 
contribute to energy resilience. Most large-scale distributed energy 
projects we pursue are financed by private developers. DoD's 
authorities for distributed energy--particularly the ability to sign 
energy production facility agreements for up to 30 years--provide 
incentives for private firms to fund the projects themselves, and must 
also provide a business case that they are able to offer DoD lower 
energy rates than are being paid currently. The DoD does not make any 
capital investment in these distributed energy projects. When the 
business case supports it, the Department is pursuing distributed 
energy projects with micro-grid-ready applications that can enable the 
provision of continuous power in the event of a disruption. For 
example, the Army contracted with a developer to construct, own and 
operate an on-site solar photovoltaic array and an off-site wind 
project for Fort Hood, along with a power purchase agreement. The on-
site solar energy generation system is being constructed as a micro-
grid ready system to enhance the base's energy resilience. Once this 
hybrid project is completed and fully on-line, Army anticipates a 
substantial electricity cost avoidance to Fort Hood over the term of 
the contract.
                           highlighted issues
                  base realignment and closure (brac)
    The Department urges Congress to authorize one new round of base 
closures and realignments, in 2021, using the statutory commission 
process that has proven, repeatedly, to be the only effective and fair 
way to eliminate excess DoD infrastructure and to reconfigure what must 
remain.
    The Department has not been authorized to undertake a BRAC analysis 
for over 14 years. In those years, the Department has undergone 
considerable changes that have impacted the force structure, mission 
requirements, and threats facing the United States. In addition, budget 
constraints imposed by the Budget Control Act have further strained 
existing resources and forced the Department to take risk in sustaining 
the infrastructure it does maintain. It is a fiscal reality that the 
Department cannot fully fund all sustainment requirements. Limited 
construction and maintenance funding is better used at enduring 
locations with the highest military value rather than keeping 
installations that the Department does not need. Reality and prudence 
dictate that infrastructure should be reconfigured to meet specific 
needs and changing threats or validated as enduring.
    The Department requires a comprehensive BRAC process to reduce 
excess while enhancing military value, achieving recurring savings, and 
ensuring retention of sufficient space for contingency and surge 
requirements, and changing missions, tactics, and technology. As 
indicated in testimony over the last several years, and as supported by 
two recent capacity assessments, the Department is maintaining excess 
infrastructure capacity--between 19 and 22 percent depending on what 
level of force structure is used in the analysis. This level of excess 
is not surprising given the fact that in 2004 we found that the 
Department had 24 percent excess and BRAC 2005 reduced infrastructure 
by 3.4 percent (as measured by plant replacement value).
    BRAC supports the Secretary of Defense's reform agenda as well as 
the Administration's commitment to rebuild infrastructure, focusing on 
the necessary so we do not waste resources on the excess. Of equal 
importance is the ability to conduct a holistic, periodic review of 
stationing in view of new and changing force structure configurations. 
With force structure adjustments under review today, a 2021 BRAC round 
provides a timely opportunity to integrate force structure decisions 
with the analysis to more efficiently synchronize delivery of 
supporting infrastructure.
    Savings from BRAC rounds are real and substantial. The last five 
BRAC rounds are collectively saving the Department $12 billion 
annually. A new efficiency-focused BRAC could save the Department an 
additional $2 billion annually (based on the `93/'95 rounds).
    The savings generated from BRAC result from avoiding the cost of 
retaining and operating unneeded infrastructure. DoD no longer has to 
fund the recurring operation and maintenance (O&M) nor the civilian and 
military personnel costs for those installations it closes or for the 
portion of those realigned bases that it does not retain. Savings from 
base realignments and closures are retained by the military Services 
and used to support higher priority programs that enhance 
modernization, readiness, and quality of life for our armed forces.
    The Department and Congress have previously agreed that changes in 
force structure must be accompanied by corresponding changes in support 
infrastructure. Congress created the BRAC process for that reason, and 
it has emerged as the only fair, objective, and proven process for 
closing and realigning military installations in the United States. The 
Department has therefore worked with Congress to provide suggested 
changes to the BRAC legislation that would maintain the benefits of 
BRAC while addressing congressional concerns with the 
``transformational'' BRAC 2005 round.
    Our legislative proposal addresses congressional concerns while 
maintaining the core tenets of a process that has worked in five 
previous BRAC rounds. The first four BRAC rounds focused on 
efficiencies, while the BRAC 2005 round was more of a transformational 
BRAC across the Department. To ensure the next BRAC round is focused on 
saving money and maximizing efficiency, the Department's revised BRAC 
legislation adds a requirement for the Secretary of Defense to certify 
that the round will have the primary objective of eliminating excess 
infrastructure to maximize efficiency and reduce cost. Similar to the 
existing requirement to certify the need for a BRAC round, this 
certification occurs at the outset of the BRAC process and is a 
precondition to moving forward with development of recommendations. 
Additionally, subject to the requirement to give priority consideration 
to the military value selection criteria, the proposed legislation 
would require the Secretary to emphasize those recommendations that 
yield net savings within 5 years of completing the recommendation, and 
would limit the Secretary's ability to make recommendations that do not 
yield savings within 20 years. In order to make a recommendation that 
does not yield savings within 20 years, the Secretary must expressly 
determine that the military value of such recommendations supports or 
enhances a critical national security interest of the United States.
    The key is maintaining the essence of the BRAC process: treating 
all bases equally; all or none review by both the President and 
Congress; an independent Commission; the priority of military value; 
and a clear legal obligation to implement all of the recommendations in 
a time certain together with all the authorities needed to accomplish 
implementation (specifically the authority to undertake MilCon 
necessary to implement recommendations).
    The Department believes we have addressed all congressional 
concerns. We have: looked at overseas installations first and 
successfully completed an efficiency-like BRAC in Europe that will save 
$500 million a year; completed an updated excess capacity assessment 
based on a fiscal year 2012 force structure; demonstrated the 
transformative nature of BRAC 2005 and how a future BRAC will be 
focused on efficiency; programmed costs and projected savings into the 
budget; and provided proposed legislative changes to the BRAC law.
    The time to authorize another BRAC round is now. The BRAC process 
requires considerable time to analyze and develop recommendations, have 
those recommendations reviewed by the independent BRAC Commission, and 
then implement them over a six year period of time. The longer 
authorization is delayed, the longer the Department will be forced to 
expend valuable resources on unnecessary facilities instead of weapons 
systems, readiness, and other national security priorities.
    We now hope that our efforts will result in a real dialogue with 
members of Congress regarding the need for and value of the BRAC 
process, ultimately resulting in authority for a 2021 BRAC round.
addressing perfluorooctanoic sulfonate (pfos) and perfluorooctane acid 
                                 (pfoa)
    In recent years, the presence of perfluorooctanoic sulfonate (PFOS) 
and perfluorooctane acid (PFOA) in drinking water has become an 
emerging issue. PFOS and PFOA are part of a class of man-made chemicals 
used in many industrial and consumer products to make the products 
resist heat, stains, water, and grease. In the 1970s, DoD began using 
aqueous film forming foam (AFFF), which contains PFOS, and in some 
cases PFOA. AFFF is mission critical because it quickly extinguishes 
petroleum-based fires.
    On May 19, 2016, the U.S. Environmental Protection Agency (EPA) 
issued Lifetime Health Advisories (LHAs) recommending the individual or 
combined levels of PFOS and PFOA in drinking water be below 70 parts 
per trillion.
    The Department is committed to addressing the risk associated with 
PFOS and PFOA and ensuring safe drinking water for the people living 
and working on our installations. As such, in June 2016 I directed the 
Military Departments to test for PFOS and PFOA where DoD supplies 
drinking water. Under this policy, the Department has tested 85 percent 
of our 505 drinking water systems. Where the test results were above 
the EPA LHA level, DoD is following the EPA advisory recommendations, 
including providing consumers bottled water. Where DoD purchases 
drinking water, I encouraged installations to ask if their drinking 
water supplier has tested the drinking water and if so, whether the 
results are below the EPA LHA level. If our drinking water supplier has 
not conducted testing, the DoD Components are testing the on-base 
drinking water. If the results of these tests are above the EPA LHA 
level, the installation will work with the drinking water supplier to 
taking appropriate actions (such as providing bottled water) to ensure 
our Service members, their families, and other installation personnel 
receive safe drinking water.
    Although the EPA LHA level is only guidance under the Safe Drinking 
Water Act and is not an enforceable drinking water standard, DoD 
considers the EPA's LHA toxicity information when assessing risk to 
human health under its cleanup program. DoD followed a comprehensive 
approach to identify installations where we have used AFFF containing 
PFOS or PFOA and suspect there was a release that may impact drinking 
water. As of December 2016, DoD has identified 393 active and BRAC 
installations where there are one or more areas with a known or 
suspected release of PFOS or PFOA. The Military Departments are 
following the Comprehensive Environmental Response, Compensation, and 
Liability Act (CERCLA) process. These known or suspected PFOS and/or 
PFOA release areas are in various stages of assessment, investigation, 
and cleanup. Throughout the CERCLA process, the Department will work in 
concert with regulatory agencies and communities and will share 
information in an open and transparent manner. Now that we have an 
initial inventory, it may take a few years to determine the potential 
cleanup costs as we collect information on the nature and extent of the 
releases. As of December 31, 2016, the Department has spent 
approximately $204 million on sampling, analysis, and cleanup to 
address PFOS and PFOA.
    We are also taking steps to remove and replace AFFF containing PFOS 
from our supply system. In January 2016, I issued a policy requiring 
the Military Departments to issue Service-specific risk management 
procedures to prevent uncontrolled land-based AFFF releases during 
maintenance, testing, and training activities. The policy also requires 
them to remove and properly dispose of AFFF containing PFOS from the 
local supplies for non-shipboard use where practical. Each of the 
Military Departments is taking actions to remove AFFF containing PFOS 
from the supply system. We are also investing in research to develop a 
fluorine-free foam as I mentioned earlier. Addressing PFOS and PFOA is 
a priority for the Department, and we are committed to finding an 
alternative that meets critical mission requirements while protecting 
human health.
                     rebalance to the asia-pacific
Rebasing of Marines to Guam
    Under a plan agreed upon by the United States and Japan in April 
2012, approximately 5,000 Marines, organized as a Marine Air Ground 
Task Force (MAGTF), will relocate to Guam. The current timeline 
envisions the start of forces flowing to Guam in 2024.
    This plan represents a revision from the 2006 U.S.-Japan 
``Realignment Roadmap,'' in which up to 8,600 Marines with significant 
numbers of family members would have relocated from Okinawa to Guam. 
The current plan is much more operationally effective and resilient, in 
that MAGTFs will be established in Guam, Australia and Hawaii, as well 
as retaining a MAGTF capability with the III MEF (Marine Expeditionary 
Force) headquarters in Okinawa.
    The realignment of Marines to Guam along with the expansion of 
training capability in the Commonwealth of the Northern Mariana Islands 
(CNMI), while independent actions, are both critically important if we 
are to achieve a more geographically dispersed, operationally 
resilient, and politically sustainable posture in the Asia-Pacific. The 
Government of Japan (GoJ) has committed to providing up to $3.1 billion 
(fiscal year 2012 dollars) towards construction facilitating the Marine 
Corps relocation to Guam and development of training capabilities in 
the CNMI, of which $1.3 billion has already been provided to the U.S. 
Treasury. Japan's support is based, in part, on the calculation that 
the status quo of U.S. bases in Okinawa is unsustainable. Relocating 
Marines to Guam, the westernmost territory of the United States, 
retains their deterrent effect in Northeast Asia.
    The fiscal year 2018 budget request includes $262 million in MilCon 
and Planning and Design to continue construction at the North Ramp of 
Andersen Air Force Base (AAFB) in support of the Marine Aviation Combat 
Element and a Water Well Field project off-base in the vicinity of 
Finegayan. Later this year, after a long delay awaiting completion of 
required environmental documentation, we expect to break ground on the 
main cantonment at Finegayan. We also intend to award a $309 million 
utilities and site improvement project using a portion of the GoJ- 
provided funds already deposited in our Treasury. Additionally, we 
intend to award the $126 million fiscal year 2016 construction project 
that will start development of the live-fire training range complex 
(LFTRC) at the Northwest Field of Andersen. This facility is critical 
for maintaining readiness of the units to be stationed on Guam.
Commonwealth of Northern Mariana Islands (CNMI) Initiatives
    To increase joint military training capabilities in the Asia-
Pacific region, in addition to the ranges to be constructed on Guam, 
the Department is pursuing development of live-fire ranges and training 
areas in the CNMI known as the CNMI Joint Military Training (CJMT) 
complex. The USMC is leading this initiative on behalf of the U.S. 
Pacific Command (PACOM). The GoJ has agreed that $300 million of its 
overall contribution may be applied to establishing these training 
areas, which will support regular training events for all Marine Forces 
Pacific units, higher level headquarters, allies in a bilateral or 
multilateral venue, and other military Services.
    Due to CNMI's concerns with immigration issues (expiration in 2019 
of the CNMI-Only Transitional Worker (CW) program) and the potential 
economic and environmental impacts of our proposed development (use of 
live-fire and potential destruction to their lands), Governor Ralph 
Torres requested consultations as authorized by Section 902 of the 
Covenant to Establish the CNMI in Political Union with the United 
States of America.
    The first consultation meeting occurred at the White House in June, 
2016, and was followed by site visits to the CNMI islands of Saipan and 
Tinian to see businesses and construction sites impacted by the limited 
number of foreign workers, facilities working to train and grow the 
U.S. worker population, and areas impacted by the expansion of military 
training. Meetings with elected officials and affected members of the 
community, along with the site visits, provided the Department with 
first-hand knowledge of the economic challenges facing the CNMI people, 
government, and private industry.
    A key recommendation from the consultation process was to establish 
a CNMI/DoD ``Coordinating Council'' to further enhance respectful 
dialogue with CNMI, jointly developing a way ahead that supports our 
operational requirements while minimizing local impacts. That Council's 
kick-off meeting was held on June 2nd. Using this construct, the 
Department will diligently work with CNMI to establish a mutually 
beneficial path forward.
    In addition to the CJMT, the Department is also pursuing a divert 
capability for approximately 12 tanker aircraft for the U.S. Air Force 
in CNMI. Although the initial study called for this capability to be 
met by an expansion of facilities at Saipan International Airport, 
based on discussions with local CNMI leadership the Department elected 
to locate the entire divert capability to the north side of the Tinian 
Airport.
    The Air Force signed its Record of Decision for the divert 
capability in December 2016 and has provided the Commonwealth Ports 
Authority with an Airport Layout Plan design that meets the 
Department's requirements while addressing CNMI's desires. There are 
still several requirements remaining to implement this initiative, to 
include approval by the Federal Aviation Administration. The Department 
is committed to working with CNMI to find a mutually agreeable way 
ahead, with a target of 2021 for tanker capacity on Tinian.
Workforce Issues in Guam and Commonwealth of Northern Mariana Islands 
        (CNMI)
    The resident workforce in Guam and CNMI is insufficient to support 
their economies, so foreign worker H-visas are critical. Congress 
recognized this and established an exemption for Guam and CNMI to the 
otherwise applicable numerical caps for H-1B and H-2B nonimmigrant 
workers. This exemption expires on December 31, 2019.
    A sustainable, self-sustaining economy on Guam and CNMI is vitally 
important to our national security and in support of our enduring 
military presence. DoD needs sufficient workers to build and support 
the Guam realignment as well as the CJMT and Divert initiatives, if we 
are to achieve a dispersed, operationally resilient, and politically 
sustainable posture in the Asia-Pacific region. If employers on Guam 
and CNMI cannot source required labor for infrastructure projects, DoD 
may experience impacts to program timelines and/or cost increases, 
making it difficult for the Department to remain within the 
Congressionally mandated cost cap of $8.7 billion (fiscal year 2012 
dollars).
                              other items
                mission compatibility evaluation process
    The Department appreciates the statutory changes made by the 
National Defense Authorization Act for fiscal year 2017 to Title 49 of 
the United States Code. These changes were developed in consultation 
between DoD and the Federal Aviation Administration (FAA) to assist FAA 
in supporting DoD when an energy project would present an unacceptable 
risk to national security. These changes reduce the likelihood that 
DoD's mission capabilities may be degraded by incompatible energy 
developments. As a result of congressional direction and our own 
efforts, we are effectively evaluating the mission impact of utility-
scale energy projects. In 2016 the Department reviewed over 4,200 
applications for energy projects that were forwarded by the FAA; the 
greatest number of reviews in a single year by the DoD Siting 
Clearinghouse. The DoD Siting Clearinghouse worked aggressively with 
the Military Departments, energy project developers, and interested 
states to implement affordable and feasible mitigation solutions where 
DoD missions might have been adversely impacted. No project reviewed in 
2016 rose to the level of an unacceptable risk to the national security 
of the United States, which is the statutory threshold to object to a 
project.
                               conclusion
    Thank you for the opportunity to present the President's fiscal 
year 2018 budget request for DoD programs supporting installations, 
energy, and the environment. We appreciate Congress' continued support 
for our enterprise and look forward to working with you as you consider 
the budget request.

    Senator Moran. Thank you, Mr. Potochney.
    General Bingham.
STATEMENT OF LIEUTENANT GENERAL GWENDOLYN BINGHAM,
            ASSISTANT CHIEF OF STAFF FOR INSTALLATION 
            MANAGEMENT, UNITED STATES ARMY
    General Bingham. Chairman Moran, Ranking Member Schatz, 
distinguished members of the subcommittee, good afternoon.
    I join my teammates in thanking each of you for your 
leadership, advocacy, and support of our men and women who are 
serving in harm's way in places all around the globe. I would 
like to express my sincere gratitude to this committee for your 
strong support of Army installations. I want to thank you too 
for the 2017 MILCON appropriations. These projects go a long 
way toward meeting emerging missions and building critical 
infrastructure requirements.
    The U.S. Army's top priority continues to be warfighting 
readiness. The Army requires ready and resilient 
installations--our power projection platforms--to help shape 
the global security environment, defend our homeland, and to 
win our nation's wars. Reduced resources, emerging 
requirements, missions, and increased operational tempo for 
more than a decade have resulted in nearly 22 percent or 33,000 
facilities that are now in poor and failing condition, a 
deferred maintenance bill of $10.8 billion.
    The condition of these mission facilities, airfields, 
training areas, maintenance facilities, roads, ports, dams, 
bridges, housing, and barracks directly impacts the readiness 
of our units and the morale of soldiers, civilians, and 
families.
    While the Army's fiscal year 2018 budget request continues 
to reflect a decision to take risk in our installation 
facilities, it also represents a 40 percent increase over the 
historic low reached in fiscal year 2015. This increase 
demonstrates the Army's intent to reverse past underfunding 
admittedly over an extended timeframe. Army installations can 
only be ready and resilient with adequate, predictable, and 
sustained funding and the authority to implement efficiency 
measures such as closing and realigning our installations.
    The Army has infrastructure capacity in excess of any 
foreseeable future for structure--not always located where it 
is needed, but consuming precious dollars that could be better 
invested elsewhere. BRAC preserves irreplaceable training land 
and airspace, while eliminating unneeded assets and excess 
buildings to efficiently facilitate future growth.
    I thank you for the opportunity to discuss the Army's 2018 
MILCON program and its impact on Army readiness. We deeply 
appreciate your support and I look forward to your questions.
    [The statement follows:]
              Prepared Statement of Lt. Gen. Gwen Bingham
                              introduction
    Chairman Moran, Ranking Member Schatz, and Members of the 
Subcommittee: on behalf of the Soldiers, Families, and Civilians of the 
United States Army, thank you for the opportunity to present the Army's 
fiscal year (FY) 2018 budget request for Installations, Energy, 
Environment, and Base Realignment and Closure (BRAC).
    Before I enter the remainder of my testimony, I would also like to 
take a moment to express my gratitude to this committee for your strong 
support of Army installations. Specifically, thank you for the recent 
funding increases as well as the NDAA provision that defines facility 
conversions as repair projects for which Operations and Maintenance 
(O&M) funding is available; a welcome change that provides the Army 
with significantly greater flexibility to address capacity issues.
    The U.S. Army's top priority continues to be warfighting readiness. 
The Army must be ready to shape the global security environment; defend 
our homeland; and win the nation's wars. To meet these ends, the Army 
requires ready and resilient installations--our power projection 
platforms--to enable regional engagement and global responsiveness.
    We as an Army made a deliberate choice to ensure our Soldiers had 
what they needed to train, fight and win against our adversaries. . . 
and rightly so. Reduced resources, emerging requirements, missions and 
increased operational tempo for more than a decade resulted in nearly 
22 percent or 33,000 facilities that are now in poor or failing 
condition. The deferred maintenance against these facilities is 
equivalent to $10.8 billion which will take years to buy back. The 
condition of these mission facilities, airfields, training areas, 
maintenance facilities, roads, ports, dams, bridges, housing and 
barracks directly impacts the readiness of our units and the morale of 
our Soldiers, Civilians and Families.
    While the Army's fiscal year 2018 budget request continues to 
reflect a decision to take risk in our installation facilities, it also 
represents a 40 percent increase over the historic budget low reached 
in fiscal year 2015. This increase demonstrates the Army's intention to 
reverse past underfunding, admittedly over an extended timeframe. The 
request focuses our limited resources on necessary and prudent 
investments in Military Construction (MILCON), Sustainment, Restoration 
and Modernization (SRM), Demolition, and Base Operations Support (BOS). 
These funding streams and associated authorities will be used to 
support six major Installation related efforts: 1) investments in 
essential infrastructure, 2) preserving ready installations, 3) 
optimizing Army facilities, 4) posturing for growth, 5) ensuring energy 
security, and 6) safeguarding the environment.
    Army installations can only be ``ready'' and ``resilient'' with 
adequate, stable, and predictable funding--and the authority to 
implement efficiency measures such as closing and realigning our 
installations.
                 investing in essential infrastructure
    The Army's request for MILCON provides secure and sustainable 
facilities to meet the Army's emergent needs in three critical subsets 
of overall installation readiness: Capabilities Deficits, 
Recapitalization and Modernization, and Footprint Consolidation. For 
fiscal year 2018, the Army requests just over $1.7 billion for Military 
Construction, an increase of $237 million from fiscal year 2017 
appropriations. The budget allocates $920 million for the Active 
Component (AC); $211 million for the Army National Guard (ARNG); $74 
million for Army Reserves (USAR); $183 million for Army Family Housing 
Construction (AFHC); and $347 million for Army Family Housing 
Operations (AFHO).
    While the Army continuously seeks to maximize the value of every 
MILCON project, we have been unable to compensate for several years of 
historically low funding levels and have been prevented from 
recapitalizing poor and failing facilities.
    The $920 million MILCON request for the AC will allow the Army to 
move forward with such projects as the Fort Shafter Command and Control 
Facility (Increment #3) for $90 million; Fort Jackson Reception 
Barracks Complex (Phase #1) for $60 million and an Ammunition Supply 
Point at Fort Carson for $21 million.
    The ARNG's fiscal year 2018 MILCON request of $210.7 million 
includes: $115.1 million to build five Readiness Centers; $36 million 
to construct a maintenance facility; $22 million to construct an Air/
Ground Integrations Training Range; $4.5 million to construct a 
Training Aids Center; $16.7 million for Unspecified Minor Military 
Construction (UMMC); and $16.2 million for planning and design. Our 
ARNG budget request is focused on recapitalizing readiness centers--the 
heart and soul of the National Guard--as well as maintenance 
facilities, training areas, and ranges to allow the Guard to be ready 
to perform state and Federal missions. These projects will address 
space constraints and focus on replacing failing facilities. Even with 
optimal use of available resources, degradation across the inventory of 
ARNG readiness centers will continue.
    The fiscal year 2018 budget request for the USAR totals $73.7 
million with three critical projects replacing our most dilapidated and 
failing facilities totaling $61.4 million. These three projects are: 
$36 million USAR Center in Fallbrook, CA; $12.4 million USAR Center in 
Aguadilla, Puerto Rico; and $13 million to replace an Annual Training/
Mobilization Dining Facility at Fort McCoy, WI. An additional $12.3 
million will support planning and design of future year projects, as 
well as address unforeseen critical needs through the UMMC account.
    The AFHC budget allows us to provide homes and services to the 
Soldiers and their Families living on our installations around the 
world. For fiscal year 2018, the Army requests $182.7 million for 
family housing construction. This will fund $34.4 million for increment 
II of the fiscal year 2017 Camp Humphreys, Korea, project which is 
critical to supporting consolidation and quality of life for our 
Soldiers and their Families. The project is necessary to meet the U.S. 
Forces Korea Commander's requirements for on-post housing. The request 
also replaces poor and failing housing units in Natick, MA and 
Kwajalein Atoll, Marshall Islands for $21 million and $31 million, 
respectively. An additional $33.6 million will support planning and 
design of future year projects. An additional $346.6 million is 
requested to sustain all family housing operations; cover utility 
costs; ensure proper maintenance and repair of government family 
housing units; lease properties where required; and provide 
privatization oversight.
                     preserving ready installations
    The Army has more facilities than it can adequately maintain, 
creating a growing backlog of deferred maintenance and diverting 
limited resources away from those facilities most critical to 
warfighter readiness. Additionally, excess facility capacity burdens 
the Army sustainment and base operations--consuming limited dollars 
that could be better invested elsewhere.
    Sustainment, Restoration, and Modernization (SRM) accounts fund 
investments to maintain and improve the condition of our facilities. 
Periodic restoration and modernization of facility components are 
necessary to ensure the reliable functionality of our facilities in 
support of mission readiness. Efforts are focused on preventing the 
degradation of facilities and optimizing the use of Army investments to 
prevent small maintenance issues from turning into large and expensive 
problems.
    We appreciate the additional funding Congress provided the Army in 
fiscal year 2016 and fiscal year 2017 to meet the most pressing SRM 
needs on our installations. The fiscal year 2018 $4.4 billion budget 
request gets us closer to meeting our full SRM requirements. The $2.9 
billion request for sustainment will meet 75 percent of our critical 
requirements.
    Responsibly managing real property facilities and infrastructure 
over 13 million acres also means that the Army must maintain extensive 
base operations. Through funding for BOS accounts, Army installations 
provide services similar to those associated with a municipality: 
public works, security protection, logistics, environment, and other 
community services that support our Soldiers and their Families. These 
programs and services enable Soldiers, Civilians, and Families to live 
and work on 156 Army installations worldwide. The President's fiscal 
year 2018 budget requests a total of $9.82 billion for BOS accounts, 
including $8.08 billion for the AC; $1.14 billion for ARNG ; and $599.9 
million for the USAR.
                       optimizing army facilities
    The Army has infrastructure capacity in excess of any foreseeable 
future force structure. Additionally, this capacity is not always 
located where it is needed or where it best enables readiness. Excess 
capacity is estimated at 21 percent at a Total Army of 980K military 
members (450K AC; 335K ARNG; and 195K USAR). The President's fiscal 
year 2018 budget request funds a Total Army of 1.018 million (476,000 
AC; 343,000 ARNG; and 199,000 USAR). At this higher end strength, 
excess facility capacity would fall within the 18 to 21 percent range.
    The Army is making significant strides in rationalizing its use of 
installation infrastructure. Overseas, the Army has two MILCON project 
requests in fiscal year 18 necessary to complete our European 
Infrastructure Consolidation (EIC) effort. Starting in fiscal year 21, 
EIC efforts will yield a return of $172 million in annual savings in 
exchange for a one-time investment of $332 million during fiscal year 
2016 through fiscal year 2021.
    Under our ``Reduce the Installation Facility Footprint'' 
initiative, Commanders and planners are accountable for making all 
reasonable efforts to maximize space utilization; consolidate units 
into our best facilities; and dispose of excess assets. As a result, we 
are seeing some positive results in terms of better facility 
utilization.
    And while the Army continues to implement plans to reduce facility 
footprints, the benefits from intra-installation consolidation are not 
and cannot be a substitute for another round of BRAC. There is not a 
direct, 1:1 relationship between the operating cost of an installation 
and the square footage of facilities or the number of people working/
living there. There is a substantial fixed cost to run an installation 
regardless of its supported population.
    The aim of another BRAC round would be a modest reduction of 4-5 
percent excess capacity while allowing for the preservation of some 
surge capability to adapt to changing conditions. Our intent in such a 
BRAC would be to retain our highest military value installations and to 
better utilize retained installation capacity. The Army can use the 
depoliticized and proven BRAC process to shed a modest number of lower 
military value installations in order to realize significant annual 
recurring savings. Today, five prior rounds of BRAC are generating 
approximately $2 billion per year in savings for the Army.
        posturing for army growth: ``defragging the hard drive''
    In addition to saving funds and helping to optimize facilities for 
use today, an additional advantage of a BRAC round is that it better 
prepares the Army for future growth if so required. A BRAC round today, 
would allow the Army to preserve vital and irreplaceable blocks of 
training land and airspace while eliminating unneeded assets and 
surplus buildings.
    This was the approach taken in prior rounds of BRAC where the Army 
closed cantonment areas but retained training lands. Examples include: 
Fort Devens, MA; Fort Pickett, VA; Fort Chaffee, AR; Fort Dix, NJ; Fort 
Hunter Liggett, CA; and Fort McClellan, AL. In these BRAC cases, the 
Army realized savings because base operations costs are concentrated in 
the cantonment area, not training areas/airspace. Savings were realized 
by reducing BOS expenses associated with the cantonment area 
activities. With this approach, the Army was able to rapidly expand 
from 482,000 in fiscal year 2000 to 566,000 by fiscal year 2010.
    Today, the Army's existing capacity is inefficient and dispersed. 
Future growth will be needlessly more expensive and time consuming 
without the ability to comprehensively analyze where missions would be 
optimally supported. BRAC is akin to periodically ``de-fragmenting'' 
Army installations. Just like a hard drive, contiguous blocks of 
capacity have to be freed-up so new missions can be accommodated 
without having to buy more space. BRAC facilitates rather than 
constrains the growth of Army end-strength and force structure.
    Lastly, the idea of retaining millions of square feet of empty 
buildings for many years is impractical. Empty buildings deteriorate 
very rapidly when unoccupied and when minimal maintenance is provided. 
Restoring such buildings after years of non-use is expensive and time-
consuming. Conversely, preserving empty buildings for future use is 
more expensive than most realize. A BRAC will enable the Army to grow 
in a planned, rational, and affordable manner.
              ensuring energy security and sustainability
    Assured access to energy and water underpins readiness-related 
functions that occur on Army installations. Without energy and water, 
the Army fails. Cyber and physical vulnerabilities in the 
interdependent electric power grids, natural gas pipelines, and water 
resources supporting Army installations jeopardize mission capabilities 
and installation security. These vulnerabilities undermine the Army's 
ability to project power and support global operations. In response to 
these risks, the Acting Secretary of the Army issued a Directive in 
February 2017 setting new installation energy and water security 
requirements. This Directive sets a requirement to secure critical 
missions by being capable of providing necessary energy and water for a 
minimum of 14-days. This requirement, tracked by new installation 
energy and water security metrics, are a key step as we embed energy 
and water security into the total Army readiness posture and make 
strategic investment decisions to reduce the greatest vulnerabilities 
first.
    The Army views sustainability of energy, water, and land resources 
as mission enablers. Our installation energy budget request is focused 
on enhancing mission effectiveness and is supported by strong business 
case analyses. For fiscal year 2018, the Army is requesting $2.0 
billion to pay utility bills on our installations; invest in energy and 
water efficiency improvements; and leverage Department of Defense 
authorities to partner with the private sector to enhance the security 
and resiliency of our installations.
    Efficiency remains a cornerstone of the Army's installation 
strategy. To implement these objectives in light of underfunded 
installations accounts, the Army continues to partner with the private 
sector. The Army leads the Federal Government in the use of Energy 
Savings Performance Contracts (ESPCs) and Utility Energy Service 
Contracts (UESCs). ESPCs and most UESCs allow private companies and 
servicers to provide the initial capital investment needed to execute 
projects using repayments from savings. The amount of energy saved by 
Army ESPC and UESC projects awarded between fiscal year 2010 and fiscal 
year 2016 is equal to the amount of energy consumed by Fort Bragg--one 
of the Army's largest and most populous installations--in a year.When 
it is life-cycle cost effective, the Army plans to continue to leverage 
ESPC/UESC to reduce energy and water consumption; implement alternative 
energy projects, such as combined heat and power; and increase the 
reliability of our mechanical systems.
    In addition to efficiency, the Army is partnering with the private 
sector to deploy renewable and alternative generation assets that can 
support the resiliency of our installations. The Office of Energy 
Initiatives (OEI) plans and develops alternative energy projects, which 
are accomplished by private investment, including battery storage and 
advanced controls when possible. OEI currently has 14 projects 
completed, under construction, or in the final stages of the 
procurement process--together providing over 350 megawatts of 
generation capacity. These projects represent over $600 million in 
private sector investment, saving funds that would otherwise be 
appropriated for these projects. A key and expanding component of this 
effort is the inclusion of enhanced energy security measures, building 
a foundation of onsite energy production.
    In regards to sustainability, the Army continues its efforts to 
ensure our buildings are constructed to the highest possible standards, 
with low resource footprints resulting in longer building life and 
lower life-cycle costs. We continue our efforts to reduce potable water 
consumption, particularly in water scarce areas and to reduce our waste 
flows through recycling, reuse and diversion.
    The Army's energy security and sustainability program has proven 
results--improving energy and water efficiency; reducing our reliance 
on external utility systems; improving operational freedom of action; 
and contributing to mission readiness--all at minimal impact to Army 
budgets. We urge Congress to continue to support the Army's energy 
security and sustainability initiatives.
                      safeguarding our environment
    The mission of the Army's environmental program is three-fold: (1) 
to comply with environmental laws and regulations and ensure proper 
stewardship of our natural, cultural, and Tribal resources; (2) to meet 
DoD's goals for installation restoration and munitions response; and 
(3) to invest in environmental technology research, development, 
testing, and evaluation.
    The Army manages over 13.6 million acres of land, which inevitably 
leads to interactions with endangered species. We also have 
requirements to preserve historic sites and restore critical or 
contaminated lands. Performing these functions well and in accordance 
with all applicable laws permits continued Army operations and protects 
our Soldiers, Families, and communities. Our fiscal year 2018 budget 
request of $0.941 billion will allow the Army to fulfill these 
objectives, keeping the Army on track to meet our cleanup goals and 
maintain full access to important training and testing lands, which are 
integral components of Army readiness.
                               conclusion
    Underfunding facilities maintenance costs is an appropriate, short-
term approach to sustaining overall Army readiness. But over time, this 
approach, along with the continued sustainment of failing facilities 
and low-value assets, creates extensive liabilities and detracts from 
the Army's ability to perform its core functions.
    We appreciate your support for the Army's fiscal year 2018 MILCON 
budget increase and we thank you for your continued advocacy. This 
budget represents a significant and positive step towards addressing 
our facility shortfalls. Contingent upon congressional support for 
another round of BRAC, the Army could truly optimize its facilities and 
installations. Further BRAC efforts would allow the Army to reduce 
expenses associated with maintaining facilities that we don't use or 
need; posture the Army for future growth; and generate significant 
long-term savings.
    Army installations serve as the platform for Army Readiness. We 
need ready and resilient installations to ensure our Soldiers are 
properly trained and can be easily deployed anywhere in the world in 
order to fight and win our nation's wars.
    Readiness is the foundation that keeps our nation free. Our great 
Soldiers and Families are the blueprint of this foundation. They 
deserve the best facilities, programs, and services we can afford.
    Thank you for the opportunity to present this testimony and for 
your continued support of our Soldiers, Families, and Civilians.

    Senator Moran. Thank you, ma'am.
    General Bingham. Thank you.
    Senator Moran. Admiral.
STATEMENT OF VICE ADMIRAL DIXON R. SMITH, DEPUTY CHIEF 
            OF NAVAL OPERATIONS FOR FLEET READINESS AND 
            LOGISTICS, U.S. NAVY
    Admiral Smith. Chairman Moran, Ranking Member Schatz, and 
distinguished members of the subcommittee, I appreciate the 
opportunity to provide an overview of the Navy's fiscal year 
2018 MILCON budget request.
    I would like to thank the Congress for its continued 
support of the Navy's Military Construction Program passage of 
the fiscal year 2017 MILCON and family housing appropriations 
and for providing additional funding to our infrastructure 
programs in the fiscal year 2017 request for additional 
appropriations. All these actions enabled us to proceed with 
the timely planning, design, and execution of our 
infrastructure program.
    Further, the additional appropriations we received this 
year are helping to address some of our most urgent 
infrastructure shortfalls. The Navy's shore infrastructure is 
vital to our readiness and crucial to mission success. Our 71 
installations are essential for preparing our warfighters, 
protecting combat power, projecting combat power, securing our 
assets, and providing quality of life to our sailors, 
civilians, and their families.
    As CNO Richardson recently testified on the importance of 
navy wholeness and the compliment of investments that enable 
long-term capability sustainment, our shore infrastructure is a 
key enabler of Naval readiness.
    As the Navy seeks to achieve this wholeness amidst budget 
shortfalls we are compelled to accept risk in the shore to 
support warfighter readiness and funding uncertainties 
exacerbate this risk. We remain mindful of the long-term 
consequences of persistent underfunding to shore readiness.
    Our fiscal year 2018 President's budget request maintains 
fiscal year 2017 investments in shore readiness to continue 
improving warfighting readiness and fail critical readiness 
gaps. Our request includes nearly $1 billion for military 
construction to support combat and commanders, recapitalize 
shipyards, support new platforms and missions, and modernize 
critical infrastructure. While this funding level is consistent 
with last year's enacted amounts, the Navy has additional high 
priority projects that could not be funded in this budget 
request that addressed operational requirements, improved 
utilities infrastructure, and provide greater quality of life 
for sailors living in unaccompanied housing.
    Our fiscal year 2018 request also includes nearly $2 
billion for facility sustainment, restoration, and 
modernization which provides a modest increase over fiscal year 
2017 enacted levels. This increase, however, does not address 
our facilities recapitalization backlog. We will continue to 
target investments on our most critical shore requirements to 
carefully and deliberately manage risk and assure enterprise.
    As CNO articulated, continued investments and shore 
readiness are key to preventing further degradation of 
facilities, docks, and airfields that have experienced years of 
underfunding.
    I look forward to working with the Congress to provide a 
sustainable and secure shore that supports Navy wholeness and 
enables mission success. Thank you again for your support of 
the Navy shore infrastructure programs and for the opportunity 
to testify today. I look forward to your questions.
    [The statement follows:]
           Prepared Statement of Vice Admiral Dixon R. Smith
    Chairman Moran, Ranking Member Schatz, and distinguished members of 
the Committee, it is an honor to appear before you representing the 
thousands of Navy Sailors and civilians at our seventy-one 
installations worldwide. Thank you for the opportunity to testify about 
the Navy's fiscal year 2018 budget request for our shore readiness and 
infrastructure programs.
    As the Chief of Naval Operations articulated, our fiscal year 2018 
budget is a balance of interconnected investments needed to achieve 
Navy `wholeness.' Wholeness includes the capabilities that are ready to 
meet our missions today, complemented by the additional investments 
that will enable us to sustain those capabilities over time. True 
wholeness requires a balanced set of investments in military and 
civilian personnel, current readiness, key readiness enablers, 
modernization, acquisition and research and development.
    Our shore infrastructure is a critical enabler to military 
readiness, combat power projection, and security of equipment, 
personnel, and family members. Importantly, many of the Navy's 
platforms plan, train, launch and reconstitute from our installations, 
and some perform their entire mission from our bases, highlighting the 
shore as a key readiness enabler to the fight. While existing funding 
reductions and budget uncertainty compel us to continue accepting risk 
in shore infrastructure investment and operations to focus on 
warfighter readiness, we are mindful of the impacts our decisions have 
on the shore infrastructure's lifecycle requirements, and ability to 
meet ever-evolving mission requirements.
    We thank the Congress for passage of the fiscal year 2017 Military 
Construction and Veterans Affairs Appropriations Act and fiscal year 
2017 National Defense Authorization Act. Thank you also for the 
additional funding for projects included in our fiscal year 2017 
Unfunded Priority List and our fiscal year 2017 Request for Additional 
Appropriations. These additions address some of our most critical shore 
infrastructure needs, contribute to improving Navy readiness, and put 
us on a path to support the Chief of Naval Operation's goal to attain 
wholeness. Our fiscal year 2018 budget request builds upon that 
foundation by maintaining our investment levels in our shore 
infrastructure and operations.
                         military construction
    The Navy's request for the fiscal year 2018 Military Construction 
(MILCON) program includes 18 projects, planning and design (P&D), and 
unspecified military construction at a value of nearly $1 billion. 
Since sequestration began in 2013, the Navy has invested an average of 
approximately $900 million annually in MILCON. Recognizing the shore is 
a key readiness enabler, the fiscal year 2018 budget request reflects a 
1 percent increase over fiscal year 2017 enacted MILCON funding levels.
    Our fiscal year 2018 MILCON request funds shore infrastructure 
worldwide, while meeting the objectives in the CNO's Design for 
Maintaining Maritime Superiority, and the Secretary of Defense's 
priorities to improve warfighting readiness, achieve program balance by 
addressing pressing shortfalls, and build a larger, more capable, and 
more lethal joint force.
    The Navy's 2018 MILCON projects invest $737 million in meeting new 
platform and mission requirements in accordance with our global 
Strategic Laydown Plan, supporting Combatant Commanders, recapitalizing 
Naval Shipyards, modernizing utilities systems, investing in cyber 
warfare, upgrading or recapitalizing critical infrastructure, and 
supporting the Navy Reserves. This includes:

Meeting New Platform and Mission Requirements ($153 million, 4 
projects)

  --ACU-4 Electrical Upgrades--Joint Expeditionary Base Little Creek-
        Fort Story
  --F/A-18 Avionics Repair Facility--Naval Air Station Lemoore
  --Intelligence, Surveillance, and Reconnaissance Operational Facility 
        Expansion--Naval Air Station Oceana
  --Washington Navy Yard Anti-Terrorism/Force Protection Land 
        Acquisition--Naval Support Activity Washington
Supporting Combatant Commanders ($73 million, 3 projects)
  --Navy Commercial Tie-In Hardening--Naval Base Guam
  --Strategic Aircraft Parking Apron Expansion--Naval Support Activity 
        Souda Bay Greece
  --Aircraft Parking Apron Expansion--Camp Lemonnier Djibouti
Recapitalizing Naval Shipyards ($135 million, 2 projects)
  --Paint, Blast, and Rubber Facility--Portsmouth Naval Shipyard
  --Ship Repair Training Facility--Norfolk Naval Shipyard
Modernizing Utilities Systems ($148 million, 2 projects)
  --Advanced Wastewater Treatment Plant--Naval Station Mayport
  --Sewer Lift Station and Sewer Line--Joint Base Pearl Harbor-Hickam
Investing in Cyber Warfare ($66 million, 1 project)
  --Communications/Cryptology Facility--Joint Base Pearl Harbor-Hickam
Upgrading or Recapitalizing Critical Infrastructure ($127 million, 4 
projects)
  --Chambers Field Magazine Recap--Naval Station Norfolk
  --Missile Magazine Replacement--Naval Station Mayport
  --Missile Magazines--Naval Magazine Indian Island
  --Cost to Complete Naval Research Lab Electronics and Technology--
        Naval Support Activity Washington
Supporting the Navy Reserves ($35 million, 2 projects)
  --Navy Operational Support Center Fort Gordon--Submarine Base Kings 
        Bay
  --Navy Operational Support Center Lemoore--Naval Air Station Lemoore
          facility sustainment, restoration, and modernization
    The fiscal year 2018 budget requests $2.0 billion to sustain 
infrastructure, roughly $200 million more than fiscal year 2017 enacted 
levels. Notably, this increased request improves our facility 
sustainment from 70 percent of the Department of Defense (DoD) model in 
fiscal year 2017 to 78 percent in fiscal year 2018. While still below 
the DoD goal of 90 percent facilities sustainment, this increase 
demonstrates our commitment to a more balanced investment in key 
enablers that support Navy wholeness.
    After 4 years of sequestration, under-resourcing our shore 
infrastructure has taken its toll resulting in a significant facilities 
sustainment, restoration, and modernization backlog. The Navy has 
strived to mitigate this backlog by implementing a facility investment 
strategy that ensures our most critical facilities and components are 
maintained and secure. While this has allowed us to triage our facility 
requirements, it has accelerated degradation of the majority of our 
facilities across the Navy. Although we are proactively managing our 
investments, as we continue to defer these less critical repairs and 
allow our facilities to continue to degrade, we acknowledge that this 
backlog must eventually be addressed.
                             family housing
    The CNO has stated that wholeness starts with people, and our 
fiscal year 2018 budget request supports this by providing Sailors and 
their families the opportunity for suitable, safe, and affordable 
housing. The Navy continues to rely on the private sector to house 
Sailors and their families, and when options are not available or are 
insufficient, Navy provides government- owned, leased, and privatized 
housing.
    The fiscal year 2018 Family Housing budget request provides $350 
million for oversight of nearly 40,000 privatized housing units, funds 
the operation and maintenance of almost 7,100 government-owned homes, 
leases for approximately 1,800 units, replacement and renovation of 
approximately 210 units. Specifically, we continue the elimination of 
inadequate units at Naval Support Activity Andersen, Guam by replacing 
60 homes, and will renovate 151 existing homes at Naval Station Rota.
                         base operating support
    Our fiscal year 2018 budget request invests $4.4 billion in base 
operating support, remaining essentially unchanged from fiscal year 
2017. The Navy continues to prioritize installation security, Fleet 
operations, and quality of life programs over all other base 
operations, which have been reduced to minimally acceptable levels.
                      base realignment and closure
    The Navy supports the Department of Defense request for 
authorization to conduct a Base Realignment and Closure (BRAC) round in 
2021. Completing the more detailed analysis once a BRAC is authorized 
will have value, and may highlight opportunities for some savings. 
Enduring savings from BRAC recommendations will leave more DoD 
resources available for future force structure or readiness 
requirements. BRAC also allows us, if the analysis supports it, to 
reposition forces or station new forces in locations that optimize 
their military value.
    With respect to previous BRAC rounds, Navy has completed disposal 
of 94 percent of property. The BRAC program is requesting $144 million 
in fiscal year 18 to continue environmental cleanup actions, caretaker 
operations, and property disposal for the remaining 6 percent.
                               conclusion
    The Chief of Naval Operations has charged us to rededicate 
ourselves to winning, advancing our competitive edge, and to be more 
effective and affordable to achieve Navy wholeness. Shore readiness, as 
a key enabler to supporting the warfighter, is held to these same 
tenets, making best use of every dollar invested. We must continue to 
carefully and deliberately manage risk and remain flexible to meet 
evolving mission requirements with limited funding. I look forward to 
working with Congress to deliver a sustainable and secure shore 
infrastructure that enables mission success. Thank you for your 
steadfast support of Navy's shore readiness and infrastructure programs 
and your unwavering commitment to our Sailors, Navy civilians and their 
families.

    Senator Moran. Thank you, sir.
    General Broadmeadow
STATEMENT OF MAJOR GENERAL JOHN J. BROADMEADOW, 
            COMMANDER, MARINE CORPS INSTALLATIONS 
            COMMAND AND ASSISTANT DEPUTY COMMANDANT, 
            FACILITIES, INSTALLATIONS AND LOGISTICS 
            DEPARTMENT
    General Broadmeadow. Thank you, Chairman Moran, Senator 
Schatz, and distinguished members of the committee. On behalf 
of our Commandant, General Neller, and the thousands of 
Marines, sailors, civilians, and their family members, we thank 
you for your continued support to the defense of our nation and 
to your United States Marine Corp.
    Marine Corp bases and stations provide a platform from 
which our Marines deploy and from which they conduct realistic 
and relevant training that's necessary for them to accomplish 
very difficult missions and return home safely to their 
families. Our bases provide a critical support system for our 
military families, especially when their Marine or sailor is 
deployed.
    Our fiscal year 2018 Marine Corps Military Construction 
budget of $765 million provides for 2017 projects to support 
both our active our reserve force. This facility's investment 
is prioritized to support new weapons platforms, operations, 
training, and force presence. Our Family Housing budget request 
of $62 million supports the renovation of family housing and 
the maintenance and operations of our inventory, maintaining a 
high quality of life for our families.
    As the Commandant has testified previously, the Marine 
Corps' first priority is to reinforce the near-term readiness 
capabilities needed by Marines who are deployed. To accomplish 
that priority, the Marine Corps has had to accept risk in our 
infrastructure accounts. Current budget uncertainty has also 
eroded readiness and will continue to have negative impacts on 
our ability to make the long-term decisions necessary for 
healthy infrastructure portfolio.
    Long-term underfunding of facilities requirements will 
result in the gradual degradation of our infrastructure and 
create a bow wave of increased future costs to return our 
infrastructure into adequate condition.
    To address these challenges, the Commandant signed our 
Infrastructure Reset Strategy in order to improve the 
infrastructure life cycle management and insure that the 
infrastructure investments are aligned with Marine Corp 
capability requirements to support our warfighting mission and 
contribute to the current and future readiness requirements. We 
will ring out every dollar in the infrastructure accounts to 
support this philosophy. In the end, we will sustain 
infrastructure and installations as capable, resilient, and 
right sized platforms to generate and support our force 
readiness.
    Your Marines are the nation's expeditionary force and 
readiness. We focus our resources on maintaining that readiness 
of our forward deployed Marines and we will always be diligent 
stewards of the assets provided to us.
    Thank you for the time and opportunity and on behalf of all 
your Marines, Sailors, and their families, I look forward to 
your questions today.
    [The statement follows:]
        Prepared Statement of Major General John J. Broadmeadow
                                preface
    Chairman Moran, Ranking Member Schatz, and distinguished Members of 
the Committee, I appreciate the opportunity to discuss the Marine 
Corps' facilities infrastructure programs which are critical to our 
ability to train forces and be ready. Thanks to the strong support we 
have received from the Congress, the Marine Corps has been able to make 
significant improvements in the quality and condition of facilities on 
our bases and stations.
    Marine Corps bases and stations represent an irreplaceable national 
asset. They are fundamental to combat readiness, particularly the pre-
deployment training, launching, sustaining, and reconstituting of 
Marine operating forces. Additionally, our bases and stations are and 
will continue to be integral to the quality of life of Marines, 
Sailors, and their families through the provision of a range of 
housing, community support facilities and related infrastructure.
    The operation and maintenance of these installations as well as 
their future development and use require long-term planning, careful 
investment, and timely program execution. Implementation of the 
Commandant's Infrastructure Reset Strategy will ensure our 
installations are capable of supporting Marine Corps operations well 
into the future.
    The Marine Corps has infrastructure and facilities worldwide valued 
at more than $58 billion that are used to train, house, and provide 
quality of life for Marines and their families. These facilities must 
be properly maintained to prevent degradation of our capability to 
support these mission-essential tasks. Adequately protecting our 
installations, supporting new warfighting and training capabilities, 
and sustaining facilities and equipment are top installations 
management priorities for the Marine Corps.
                      impact of budget uncertainty
    With Congress' strong support, the Marine Corps has made 
significant progress over the last 8 years in replacing old and 
unsatisfactory infrastructure. However, continued budget uncertainty 
has eroded our readiness and will continue to have negative impacts on 
our ability to make long-term decisions necessary for a healthy 
infrastructure portfolio. Long-term underfunding of facilities 
requirements will result in gradual degradation of our infrastructure 
and create a bow wave of increased future costs to return these assets 
to adequate condition. More reliable funding and support of the annual 
budget request are needed in order to maintain and improve 
infrastructure readiness.
    To maintain near-term operational readiness, the Marine Corps has 
been forced to accept risk in its infrastructure portfolio. Taking risk 
in the facilities sustainment, restoration and modernization, and 
military construction has resulted in the degradation of our 
infrastructure, which in turn increases lifecycle costs. Improving the 
current state of our facilities is the single most important investment 
to support training, operations, and quality of life.
    While the Marine Corps has been able to fund most military 
construction projects that support new weapons platforms (primarily the 
F-35) and other projects associated with life, health, and safety 
concerns, many other military construction requirements remain 
unfunded. Examples include projects supporting new force protection 
standards, replacing inadequate and obsolete facilities supporting 
Marine Corps operations, and utility resiliency and reliability.
    In order to better manage our infrastructure portfolio, the 
Commandant signed the Infrastructure Reset Strategy in November 2016 to 
improve the infrastructure lifecycle management and ensure 
infrastructure investments are aligned with Marine Corps capability- 
based requirements to support the warfighting mission, and contribute 
directly to current and future force readiness. The vision of the 
Infrastructure Reset Strategy is to provide Marine Corps installations 
that are capable, adaptive, and economically sustainable platforms from 
which to generate readiness and project combat power in a fiscally 
constrained environment. Implementation of this strategy consolidates 
and right-sizes infrastructure footprint within existing installations 
to improves operational readiness.Successful execution of this strategy 
will depend on future budget stability.
                         military construction
    The Marine Corps' fiscal year 2018 Military Construction (MILCON) 
program includes 17 projects valued at approximately $765 million which 
is a 32 percent increase over the fiscal year 2017 as-enacted budget of 
$580 million. The growth in the budget is attributable to an increase 
in funding budgeted for the facilities to support the relocation of 
Marines from Japan to Guam.
    Marine Corps MILCON requirements are driven by operating force and 
other mission requirements such as: (1) introducing new platforms or 
weapons; (2) relocating forces to better position assets to meet the 
national military strategy; (3) meeting force protection or safety 
standards; (4) enhancing or replacing facilities that are in poor or 
failing condition; (5) meeting new and improved training standards for 
the 21st century Marine Corps; (6) modernizing critical infrastructure; 
(7) improving utilities reliability and resilience to support 
readiness; (8) meeting environmental regulations and laws and energy 
reduction mandates; (9) improving training areas to include aerial/
ground ranges; and (10) acquiring land needed to support training.
    Congress has been very supportive of prior MILCON budget requests. 
Thanks to the Congress, the Marine Corps has received funding for many 
projects that positively impact readiness and training. A few recent 
examples include the funding of the expansion of training areas at 
Twentynine Palms, California, expansion of the aerial bombing range at 
Townsend, Georgia, numerous training, ground, and aviation simulator 
support facilities, the Marine Forces Cyber Command operations facility 
at Fort Meade, Maryland, and significant improvements at Marine Corps 
University at Quantico, Virginia.
    The primary focus areas of the fiscal year 2018 Marine Corps MILCON 
budget request include: (1) supporting the beddown of new capabilities 
and platforms; (2) providing facilities to support force relocations; 
(3) recapitalization and replacement of inadequate facilities; and (4) 
meeting safety and environmental mandates. Our fiscal year 2018 budget 
accomplishes the following:

  --Supports new aviation platforms such as F-35 and KC-130J with new 
        aircraft maintenance hangars, depot facilities and simulator 
        buildings.
  --Provides aviation training infrastructure to continue to support 
        the relocation of aviation squadron to Marine Corps Base, 
        Hawaii.
  --Improves quality of life for junior enlisted Marines at NWS 
        Yorktown, Virginia and MCB Camp Lejeune, North Carolina by 
        providing new barracks.
  --Provides new aviation support facilities and utility infrastructure 
        to support the relocation of Marines from Japan to Guam.
  --Improves environmental compliance posture at various bases.
  --Replaces numerous inadequate and obsolete facilities in order to 
        improve operations depot maintenance, operations, quality of 
        life, and training.
  --Supports our Reserve component with operational and training 
        facilities at Joint Base Maguire/Dix/Lakehurst and Naval Air 
        Station Fort Worth, Texas.
        infrastructure sustainment, restoration, and demolition
    The President's Budget for fiscal year 2018 funds 75 percent of the 
OSD facilities sustainment model requirement for the Marine Corps; 
however, the OSD guideline is to fund 90 percent of the requirement. We 
remain aware that underfunding facilities sustainment increases the 
rate of degradation of Marine Corps infrastructure which leads to more 
costly repairs, restoration, and new construction in the future.
    When restoring and modernizing our infrastructure, we prioritize 
life, health, and safety issues and efficiency improvements to existing 
infrastructure and focus on repairing only the most critical components 
of our mission critical facilities. By deferring less critical repairs, 
especially for non-mission critical facilities, we are allowing certain 
facilities to degrade and causing our overall facilities maintenance 
backlog to increase. We acknowledge this backlog must eventually be 
addressed.
    The first step in addressing this backlog is reflected in the 
Marine Corps request of $46 million for the demolition of 1.6 million 
square feet of failing and obsolete facilities to enable implementation 
of the Commandant's Infrastructure Reset Strategy. The Marine Corps 
also supports a Department of Defense request for authorization to 
conduct a Base Realignment and Closure (BRAC) round in 2021 based on 
the needs of the other Services, and to reinforce efforts planned 
through our Infrastructure Reset Strategy to optimize facilities 
posture to support increased readiness.
                             family housing
    Our world-wide family housing inventory is 96 percent privatized, 
which has improved the homes in which our families live and support 
facilities such as community centers, playgrounds, and ``green spaces'' 
that help create neighborhoods and a sense of community for our Marines 
and their families. Combined with traditional military construction, 
privatized housing will continue to build and improve the homes 
necessary to supplement local community housing.
    The Marine Corps is not requesting any new family housing 
construction in fiscal year 2018 through either traditional MILCON or 
through the use of privatization authorities.
    However, we are requesting $10.3 million in the family housing, 
construction improvements account for the sustainment and restoration 
of 24 officer family housing townhouse units at MCAS Iwakuni, Japan in 
order to continue with the renovation of Iwakuni housing neighborhoods. 
This will provide much needed improvements to quality of life for our 
Marines and their families stationed overseas.
                               conclusion
    Our infrastructure programs are an important part of maintaining 
our high state of readiness as the Nation's crisis response force. The 
fiscal year 2018 budget request supports this premise. While fiscal 
instability disrupts our planning and challenges our readiness, the 
Marine Corps will continue to rely on the sound stewardship of existing 
facilities and infrastructure to support our mission requirements.
    Thank you for the opportunity to testify before you today. I look 
forward to working with you to sustain the warfighting capability and 
quality of life of the Marine Corps.

    Senator Moran. Thank you so much, General.
    General Green.
STATEMENT OF MAJOR GENERAL TIMOTHY S. GREEN, U.S. AIR 
            FORCE DIRECTOR OF CIVIL ENGINEERS, DEPUTY 
            CHIEF OF STAFF FOR LOGISTICS, ENGINEERING 
            AND FORCE PROTECTION
    General Green. Chairman Moran, Ranking Member Schatz, 
distinguished members of the subcommittee, I'm honored today to 
represent America's Airmen, active, Air National Guard, Air 
Force Reserve, and civilian, and discuss the Air Force's fiscal 
year 2018 Military Construction and Housing request.
    Our $1.96 billion fiscal year 2018 total force MILCON 
request is slightly less than last year's budget. I want to 
emphasize that these funds and requested projects support the 
national defense strategy and critical Air Force priorities. At 
the macro level, about 11 percent of the request supports 
Combatant Commander priorities and appointments. About 41 
percent beds down new and modernized weapon systems. And 
roughly 39 percent is focused on today's readiness through 
recapitalization of our existing infrastructure.
    Additionally, our fiscal year 2018 request includes vital 
quality of life funding for military housing construction 
overseas and dormitory projects for our Airmen.
    The President's budget also requests authority from 
Congress to conduct a base realignment and closure round in 
2021. Enduring savings from BRAC recommendations will leave 
more Department of Defense resources available for future 
projects and for structures across the board. BRAC allows us, 
if analysis supports it, to reposition forces or station new 
forces in locations that optimize their military value.
    I want to thank you for your support in giving the Air 
Force much needed help in fiscal year 2017 with the request for 
additional appropriations and providing additional funding for 
Military Construction projects from our unfunded party list. If 
budget control like funding levels return to fiscal year 2018, 
the Air Force will not be able to meet the entire national 
defense strategy, nor sustain its asymmetric advantage over 
potential peer competitors.
    Additionally, BCA levels will cause continued degradation 
of infrastructure and installation support. We would expect a 
reduction in Military Construction funding resulting in reduced 
support to Combatant Commanders, reduced funding to upgrade 
nuclear enterprise, facilities, and support new weapon systems 
beddown and the inability to recapitalize our aging 
infrastructure.
    The Air Force would also expect similar reductions in 
facility sustainment, restoration, and modernization funding 
forcing us to prioritize day to day facility maintenance over 
much needed facility repairs. And as you know, these effects 
cascade over many years and cannot simply be made up in the 
next fiscal year.
    The Air Force's 2018 budget request sets us on a path to 
provide the Air Force America needs and deserves. However, even 
at the requested level, the Air Force remains stressed to meet 
national defense strategy.
    Chairman Moran, Ranking Member Schatz, and distinguished 
members of the subcommittee, thank you again for the 
opportunity to testify today and I look forward to your 
questions.
    [The statement follows:]
          Prepared Statement of Major General Timothy S. Green
                              introduction
    The Air Force's fiscal year 2018 President's Budget request is 
based upon our long-term strategy and vision to provide ready 
installations supporting the Secretary and Chief of Staff of the Air 
Force's budget focus area to enhance airpower from a network of 
globally positioned bases. This requires the Air Force to balance 
installation readiness, capability, and capacity to help ensure we can 
maintain and field a credible and affordable future force. To 
accomplish these goals, the Department of Defense (DoD) and the Air 
Force need your support for sufficient, predictable, stable and 
flexible budgets.
    The Air Force's fiscal year 2018 President's Budget request sets us 
on a path to provide the Air Force America needs and deserves. However, 
even at the requested level, the Air Force remains stressed to meet the 
defense strategy. This request is informed by our guiding principles 
supporting the Air Force's core missions. We used a deliberate process 
to define what the Air Force needs to be ready today and what 
capabilities we need to invest in now in order to fight future threats. 
The end result is a budget which supports the defense strategy, is 
anchored to the Air Force 30-year plan, and meets combatant commanders' 
needs.
    If Budget Control Act funding levels return in fiscal year 2018, 
the Air Force will not be able to meet the entire defense strategy, nor 
sustain its asymmetric advantage over potential peer competitors. 
Additionally, these levels will cause continued degradation of 
infrastructure and installation support. The Air Force would expect a 
reduction in Military Construction funding resulting in reduced support 
to combatant commands, reduced funding to upgrade the nuclear 
enterprise and support new weapons systems beddown, and the inability 
to recapitalize aging infrastructure. The Air Force would also expect 
similar reductions in fiscal year 2018 facility sustainment, 
restoration and modernization funding, forcing Air Force priority on 
day to day facility maintenance at the expense of much needed facility 
repairs.
    Our unequalled security, economic, and political advantages depend 
on investment in an Air Force able to succeed against any competitor, 
in any environment. In order to ensure a trained and ready force to 
engage in a full range of contingencies and threats, at home and
    abroad, we must provide the facilities and support that enable 
training, operations, and maintenance of increasingly complex and 
technology dependent systems. Now more than ever, the Air Force must 
make smart investments in its installations through military 
construction (MILCON) and facility sustainment.
                             installations
    Ready and resilient installations are a critical component of Air 
Force operations. Unfortunately, twenty-six years of continuous combat, 
a fiscal environment constrained by the Budget Control Act (BCA) and 
continued continuing resolutions, and a complex security environment 
have taken their toll on Air Force infrastructure and base operations 
support investments. Furthermore, the Air Force is currently 
maintaining installations that are too big, too old and too expensive 
for current and future needs. This forces us to spend scarce resources 
on excess infrastructure instead of operational and readiness 
priorities.
    Air Force installations are foundational platforms comprised of 
both built and natural infrastructure. They serve as the backbone for 
Air Force enduring core missions delivering air, space, and cyberspace 
capabilities. These force projection platforms send a strategic message 
to both allies and adversaries, signaling commitment to our friends and 
intent to our foes; they foster partnership-building by stationing our 
Airmen side-by-side with our coalition partners; and they enable 
worldwide accessibility when our international partners need our 
assistance or, when necessary, to repel aggression. Taken together, 
these strategic imperatives require us to effectively and efficiently 
operate and sustain installations to enable Air Force core missions.
    The total Air Force fiscal year 2018 facilities budget request is 
$9.45 billion including military construction (MILCON), facility 
sustainment, restoration and modernization (FSRM), Housing, legacy BRAC 
cleanup and Environmental Programs. As in fiscal year 2017, the fiscal 
year 2018 President's Budget request attempts to strike the delicate 
balance between readiness, capability and capacity--essential to 
ensuring we can field a ready force today and a modern force for 
tomorrow--while deliberately taking steps to recover from the impacts 
of sequestration in a time of constrained budgets. As a result, the Air 
Force facilities budget continues to accept near term risk across the 
entire infrastructure maintenance and repair portfolio of MILCON, 
sustainment, and restoration and modernization accounts in order to 
protect readiness and maintain credible capabilities in other core 
missions. We take risk in this area acknowledging our choice will have 
long-term effects on the overall condition of our infrastructure.
    The Air Force's fiscal year 2018 request includes $1.96 billion in 
military construction requirements, a slight decrease from fiscal year 
2017 request (1 percent) and a 6.5 percent decrease from fiscal year 
2017 enacted appropriations (including the fiscal year 2017 Request for 
Additional Appropriation (RAA) and additional appropriations provided 
from the Air Force's fiscal year 2017 Unfunded Priority List (UPL)). In 
fiscal year 2017, the Air Force deliberately shifted resources into the 
military construction account from the maintenance and repair accounts 
in order to replace degraded facilities that simply could not wait any 
longer. While recapitalization remains critical to mission 
accomplishment, this resource shift is not sustainable long-term and we 
requested maintenance and repair funds at higher levels in fiscal year 
2018. The fiscal year 2018 MILCON budget supports Combatant Command 
requirements and commits significant resources on new weapons system 
beddown. Also included is an equitable distribution of $225 million to 
the Guard and Reserve components.
    To assure continued focus on taking care of our Airmen and their 
families, the fiscal year 2018 President's Budget request also requests 
$318 million for Military Family Housing operations and maintenance, 
and $85 million for Military Family Housing Construction.
    Additionally, the Air Force supports the Department of Defense 
request for a Base Realignment and Closure in 2021 as we have excess 
inventory to our operational needs.
                         military construction
    The requested fiscal year 2018 MILCON program consists of three 
primary categories. The first is support to the Combatant Commands; the 
second is providing facilities and supporting infrastructure for the 
beddown of new weapons systems; and the third is replacing our most 
critical existing mission degraded infrastructure.
Combatant Command Support
    This year's President's Budget request includes $219 million for 
Combatant Commander requirements. Of our request, $15 million is for 
U.S. Central Command (USCENTCOM), $88.9 million for U.S. Pacific 
Command (USPACOM), $100 million for U.S. Strategic Command 
(USSTRATCOM), and $15 million for U.S. Northern Command (USNORTHCOM). 
These investments represent the Air Force's most direct support to 
Combatant Commander requirements and their continued efforts to protect 
American interests across the globe, including the Air Force's 
continued priority on Asia Pacific Resiliency.
New Mission Infrastructure
    The fiscal year 2018 President's Budget request includes $805 
million of infrastructure investments to support the Air Force's 
modernization programs including the beddown of the F-35A, KC-46A, and 
Presidential Aircraft Recapitalization. The Air Force's ability to 
fully operationalize these new aircraft depends not only on acquisition 
of the aircraft themselves, but also on the construction of the 
aircraft's accompanying hangars, maintenance facilities, training 
facilities, airfields and fuel infrastructure.
    The fiscal year 2018 President's Budget request includes $280.3 
million for the beddown of the KC-46A at four locations. This consists 
of $4.9 million at Altus AFB, Oklahoma, the Formal Training Unit (FTU); 
$6.4 million at Seymour-Johnson AFB, North Carolina the third main 
operating base (MOB 3); and $269.0 million split between Joint Base 
McGuire-Dix-Lakehurst, New Jersey and Travis AFB, California, the 
preferred alternatives for the fourth main operating base (MOB 4).
    This request also includes $253.6 million for the beddown of the F-
35A at three locations consisting of $8.7 million at Eglin AFB, 
Florida; $127.9 million at Eielson AFB, Alaska; and $117.0 million at 
Royal Air Force (RAF) Lakenheath, United Kingdom.
    In preparation for the Presidential Aircraft Recapitalization 
acquisition, the Air Force's 2018 budget requests $271.5 million for 
the necessary land acquisition, hangar, and maintenance space at Joint 
Base Andrews, Maryland.
Existing Mission Infrastructure Recapitalization
    This year's President's Budget request also includes $766.8 million 
in MILCON recapitalization projects addressing existing mission 
infrastructure--$160.1 million of it directed to the Guard and 
Reserve's most critical recapitalization needs. The Active Duty 
program's recapitalization efforts focus on `mission critical, worst 
first' infrastructure--facilities such as installation entry gates, 
aircraft control towers, and firing ranges--as well as upgrades to 
range support facilities vital to our efforts to fully exploit the 
capabilities of fifth generation weapons systems. Finally, our program 
also includes investing $128.1 million at Joint Base San Antonio 
(Lackland), TX toward Basic Military Training (BMT) infrastructure, 
thereby continuing our sustained efforts to replace Vietnam War-era 
buildings so we can house and train our newest Airmen in effective and 
efficient modern training facilities.
    In total our fiscal year 2018 request represents a balanced 
approach to ensure critical infrastructure is in place, allowing the 
Air Force to meet mission needs and operational timelines.
                 european reassurance initiative (eri)
    The Air Force remains committed to support the United States 
European Command (USEUCOM) Commander's continued efforts started in 
fiscal year 2015 to reassure North Atlantic Treaty Organization Allies 
and partners in Europe of the United States commitment to their 
security and territorial integrity. Our fiscal year 2018 European 
Reassurance Initiative (ERI) MILCON program will continue the fiscal 
year 2017 efforts to set deterrence conditions in the theater in order 
to provide greater capability for the United States to rapidly respond 
and support Allies opposing any threats made by aggressive actors in 
the region.
    The $271 million total fiscal year 2018 ERI MILCON Overseas 
Contingency Operations investment remains focused on the USEUCOM 
Commander's efforts to improve infrastructure and enhance 
prepositioning lines of effort for airfields, training, and storage 
areas in Estonia and Romania, while expanding the program to Hungary, 
Iceland, Latvia, Luxembourg, Norway, and Slovakia in fiscal year 2018. 
The fiscal year 2018 ERI MILCON program includes $57 million in 
planning and design to support future-year ERI program efforts.
          facility sustainment, restoration and modernization
    In fiscal year 2018, the Air Force requests $3.79 billion for 
Facilities Sustainment, Restoration and Modernization, approximately 11 
percent more than our fiscal year 2017 President's Budget request 
(including the Consolidated Appropriations Request). This request funds 
Sustainment to 80 percent of the Department of Defense-modeled 
requirement and enables us to slow but not arrest the growth of our 
total facility investment backlog ($25 billion).
    The Sustainment account is increased 18 percent over the previous 
year as we work to ``keep good facilities good'', and the Restoration 
and Modernization account is reduced by approximately 3 percent in 
fiscal year 2018 as compared to fiscal year 2017 enacted budget. 
Despite the $418 million increase in our fiscal year 2018 Sustainment, 
the Air Force continues to accept near-term risk in sustainment in 
order to protect readiness and maintain credible capabilities in other 
core missions. The Air Force has made strides in fielding improved 
tools to implement asset management principles and focus limited 
resources on ``mission critical, worst first'' facilities as a means to 
reduce the risk in infrastructure.
                                housing
    During periods of fiscal turmoil, we must never lose sight of our 
Airmen and their families. Airmen are the source of Air Force airpower. 
Regardless of the location, the mission, or the weapon system, our 
Airmen provide the innovation, knowledge, skill, and determination to 
fly, fight and win. The Air Force strives to provide quality housing on 
our installations to fill the shortfall of available housing in the 
local community. Adequate housing that meets the requirements of our 
Airmen is often very limited based on where our installations are 
located. As communities have grown up around our bases over the past 
decades, the number of on- base houses required has declined. The 
remaining homes in the Air Force inventory represent the Air Force's 
commitment to provide Airmen and their families with safe and well 
maintained housing communities. For example, many of our Airmen's first 
homes are at remote and isolated bases. It is imperative we get housing 
right.
    The Air Force privatized military family housing (MFH) at each of 
its stateside installations, including Alaska and Hawaii. There are 32 
projects at 63 bases, with an end-state of 53,239 homes and we are now 
focused on long-term oversight and accountability of the sustainment, 
operation and management of this portfolio.
    Concurrently, the Air Force continues to manage approximately 
17,000 government- owned family housing units at overseas 
installations. Our $318 million fiscal year 2018 Family Housing 
Operations and Maintenance (O&M) funds request provides a program that 
supports daily operations, maintenance, and leasing requirements. It 
allows us to sustain adequate units, improve inadequate units, and 
correct life, health and safety issues. Our $85 million request for 
Family Housing Construction funds improves 130 single family and duplex 
units on Kadena Air Base in Okinawa, Japan. This request supports the 
housing requirements of our Airmen and sister service members and their 
families living on the island.
    Similarly, our focused investment strategy for dormitories enables 
the Air Force to sustain the DoD goal of 90 percent adequate dormitory 
rooms for permanent party unaccompanied Airmen, while continuing to 
support Airmen in formal training facilities. The fiscal year 2018 
President's Budget MILCON request includes one training and dormitory 
facility at Joint Base San Antonio (Lackland), TX and one permanent 
party dormitory at Incirlik AB, Turkey. With Congressional support for 
our fiscal year 2018 request, we will continue to ensure wise and 
strategic investment in these quality of life areas to provide modern 
housing and dormitory communities.
                               conclusion
    The Air Force again has made hard strategic choices during 
formulation of this budget request and continues to strike a delicate 
balance between readiness, capability and capacity in order to ensure a 
ready force today and a modern force tomorrow while also recovering 
from the impacts of sequestration and adjusting to budget 
uncertainties. Our fiscal year 2018 President's Budget request includes 
MILCON to support Combatant Commander and new weapon system 
requirements while continuing to address the current mission backlog of 
deferred infrastructure recapitalization from the fiscal year 2013 
strategic pause. Funding at the BCA level will halt this recovery. We 
also must continue the dialogue on right-sizing our installations 
footprint for our smaller, more capable force that sets the proper 
course for enabling the Defense Strategy our most pressing national 
security issues--our fiscal environment.
    In spite of fiscal challenges, we remain committed to our Service 
members and their families. Privatized housing at our stateside 
installations and continued investment in government housing at 
overseas locations provide our families with modern homes and improves 
their quality of life now and into the future. We also maintain our 
responsibility to provide dormitory campuses that support the needs of 
our unaccompanied Service members.
    Finally, we continue to carefully scrutinize every dollar we spend. 
Our commitment to continued efficiencies, a properly sized force 
structure, and right-sized installations will enable us to ensure 
maximum returns on the Nation's investment in her Airmen, who provide 
our trademark, highly valued airpower capabilities for the Joint team.

    Senator Moran. Thank you all very much for your testimony 
and more importantly, thank you for your service to our nation.
    Mr. Secretary, let me begin with you and you initially 
raised the topic of BRAC. Is the expectation that Congress 
would approve a new round of BRAC in this Congressional 
session?
    Secretary Potochney. Yes, sir.
    Senator Moran. And what do you envision then to be the 
timeframe or the consequence of events that then would follow 
until actually it results or recommendations from a Commission 
would be provided to Congress?
    Secretary Potochney. So if the Congress were to authorize 
BRAC in the--excuse me--in the fiscal year 18 authorization 
bill, upon enactment we would begin organizing and start 
conducting the analysis. It is an extraordinarily comprehensive 
and frankly difficult analysis to conduct, and I know that from 
experience, but it would lead to recommendations that the 
Secretary of Defense would provide to the Commission in April 
of 2021. So we would have a robust amount of time to do this 
extensive and frankly exhaustive work.
    Senator Moran. Would you expect or have an opinion as to 
whether this BRAC would involve the outright closure of entire 
military bases, facilities, or would this be a BRAC that it is 
more designed to eliminate unnecessary building and 
infrastructure within a base?
    Secretary Potochney. Well, it is base realignment and 
closure. And so we would have to review everything. Everything 
is on the table. But we do have a fair amount of authority to 
reduce our footprint within our installations. We do not trip 
any of the thresholds and the laws that frankly make it very 
difficult for us to change our infrastructure around, to adjust 
our infrastructure.
    So we do not need a BRAC to consolidate within a base. We 
do need a BRAC if we are going to move forces across bases or 
close bases--and excuse me--and move forces across bases, which 
are realignments and create a, frankly, a winner and a loser, 
or to close bases. So we would be looking at both.
    Senator Moran. Let me turn to the Marines. In regard to the 
movement of Marines from Guam to Okinawa, in 2012 we made an 
agreement with Japan and announcements have been made about 
what is expected to occur with themovement of Marines. Let me 
ask what the current status of the negotiations is between 
Japan and other governments, Australia, Singapore, and the 
Philippines.
    Can you give the committee an update on the progress that 
has been made to date?
    General Broadmeadow. Progress on negotiation between Japan 
and other countries, Senator?
    Senator Moran. Yeah. Yes.
    General Broadmeadow. Senator, I would like to take that one 
for the record. I am not----
    Senator Moran. Let me ask you the question this way. Tell 
me about the--give me an update, a status on the movement of 
Marines.
    General Broadmeadow. Sure. Yes, sir. You know, we have got 
a number of movements that are ongoing right now. Okinawa 
starts with a--we have a consolidation effort on there where we 
move a number of Marines from the southern part of the island 
up to the northern part of the island as part of the program of 
record. We also move about 5,000 Marines to Guam. We move 
about--we move Marines to Hawaii. And we have also got 1,250 
Marines currently doing rotating into Australia. And we 
anticipate that going up to about 2,500 Marines.
    Senator Moran. Those movements to be concluded when?
    General Broadmeadow. Senator, a number of those movements 
have been delayed because of ongoing environmental and 
political issues around, you know, both in Japan and 
environmental issues in some of the locations that we are going 
to. So I would be hesitant to give you a date that we would 
complete any of that.
    Senator Moran. In your view, what would be an acceptable 
conclusion to the FRF issue, the Futenma replacement facility?
    General Broadmeadow. Sir, our effort right now, our program 
of record, is to build the Futenma replacement facility up and 
around Henoko. I made a trip out there myself back in the 
December time frame to take a look at it. It was right after 
the Japanese Supreme Court allowed the work to start going--to 
commence again on that Futenma replacement facility. I will 
tell you, I saw the Japanese putting in place the structures 
for the silt fence. They had the buoys back out there kind of 
providing security and doing the boring samples. So they have 
started moving ahead on that agreement to build the FRF out 
there in Henoko.
    Senator Moran. What do you see as an acceptable training 
facility in the Pacific for Marines?
    General Broadmeadow. Right now we have PACOM's effort to do 
what is called the CGMT, the CNMI's Military Training, Joint 
Military Training facility out in the Marianas. That effort is 
under way right now. It has got some local opposition. However, 
we have started some consultive work with the people in CNMI so 
that, you know, we can get beyond some of those issues and come 
to a favorable resolution for both of us in order to enhance 
PACOM and others training throughout the Marianas.
    Senator Moran. Thank you, sir, very much.
    Senator Schatz.
    Senator Schatz. Thank you, Mr. Chairman.
    I was going to start with another question, but I cannot 
resist talking about Guam. You know, I talked to the Commandant 
about this as well. It occurs to me that between FRF, which has 
incredible domestic political issues, CNMI, likewise, Guam, 
have infrastructure challenges, and so those are just to start. 
And then you overlay on that a couple of additional problems. 
You overlay on top of that the fact that the security 
environment in the Asia Pacific region continues to evolve such 
that you are in the program of record. Maybe the FRF still 
makes sense, but in terms of the theater a lot of things have 
changed in the last two or 3 years since we locked in this 
plan.
    [The information follows:]

    In a 10 February joint statement, President Trump and Japan Prime 
Minister Abe reaffirmed the commitment of both countries to construct 
the FRF, enabling the U.S. to fulfill its security obligations to Japan 
and return MCAS Futenma to Okinawa. Construction of the FRF is part of 
a long-standing bi-lateral agreement that helps create an environment 
supporting the enduring presence of U.S. forces in Japan, bringing 
unique capabilities that cannot otherwise be replicated. A more 
geographically distributed, operationally resilient, and politically 
sustainable force posture provides the U.S. with flexible crisis 
response options to meet a wider range of potential regional 
contingencies. While the regional threat picture has become sharper in 
recent years, the FRF remains an essential component of our realignment 
plans with Japan to enable the consolidation of U.S. bases in Okinawa 
and the relocation of Marines to Guam.
    The Secretary of Defense has continued to reaffirm that the Futenma 
Replacement Facility (FRF) is the only solution that addresses 
operational, political, financial and strategic concerns and avoids the 
continued use of Marine corps Air Station (MCAS) Futenma. The current 
threat environment has changed over the last several years and will 
continue to evolve in the future. Within the current threat 
environment, the Marine Corps is postured to meet all requirements of 
the Pacific Combatant Commander. When complete, the FRF meets the Marne 
Corps' mission requirements. Until that time, MCAS Futenma will remain 
operational. Futhermore, the Government of Japan (GoJ) has expressed 
their commitment to contribute to the refurbishment of parts of MCAS 
Futenma until the FRF is fully operationsal. To date, the GoJ has 
agreed to contribute $152.4M to the sustainment, refurbishment, and 
maintenance of MCAS Futenma.

    Senator Schatz. And so I would just--I will take this one 
for the record, but I really would like the Marine Corps and 
the Office of the Secretary to continue, while we maintain our 
ironclad commitment to fulfill our obligation to our best ally 
in the Asia Pacific region, while we maintain that and we are 
unequivocal about that, that does not require that we do this 
with blinders on or with unrealistic timeframes or spending 
billions of dollars for laydowns that do not provide the 
strategic lift that we need, for instance, on Guam, or do not 
recognize that things continue to evolve in the region. So I 
will take that for the record if you would not mind.
    And, Mr. Secretary, did you want to weigh in on that? 
Because it looked like you were jumping up.
    Secretary Potochney. No.
    Senator Schatz. Or maybe you were jumping away.
    Secretary Potochney. Well, what I was agreeing with in my 
mind is it is really difficult. These are substantial actions 
that we are taking. The impact on Guam and CNMI for the CJMT, 
the CNMI Joint Military Training facility, is significant. And 
we are devoting a lot of time and effort and we are mindful and 
respectful, frankly, of the impact that we are making on the 
communities that we will be occupying and located in.
    So I do take your point that it is difficult, but we would 
not be going forward with it in the face of that difficult if 
it was not so important.
    Senator Schatz. And we should go forward with it. It is 
just that we should be planful and thoughtful and judicious 
with taxpayer dollars.
    Secretary Potochney. Yes, sir.
    Senator Schatz. And we should respond to Harry Harris' 
needs and U.S. Forces Korea and everybody else in the region. 
And the challenge that I have had in trying to better do 
oversight and better get an articulated strategy for the 
laydown is that every time we ask a question we sort of fall 
back to this we made a commitment to the country of Japan. 
Japan is our best ally in the region. All of that is true. 
Senator Murphy and I and others, we were there last summer to 
reaffirm that commitment and I certainly understand it 
representing the State of Hawaii. And yet it does not seem to 
me that it is incompatible to reiterate our ironclad commitment 
and say to our allies in Japan, ``Would you permit us some 
flexibility in order to do this in a smart way?''
    I will go back to my first question. A number of my 
colleagues, especially on the Democratic side of the aisle, 
have voiced concerns that the Administration has been non-
responsive in letters seeking written responses to issues 
coming from committee members.
    Do we have your commitment--and I will just go down the 
line--to respond promptly to written questions from members of 
the committee?
    Secretary Potochney. You have my commitment. Yes, sir.
    General Bingham. You have my commitment, Senator Schatz.
    Admiral Smith. Yes, sir, Senator. Absolutely.
    General Broadmeadow. Yes, Senator. You have my commitment 
on that.
    General Green. Yes, Senator. You have our commitment.
    Senator Schatz. Thank you.
    Admiral Smith, I will just ask a quick question and then I 
will get the next question in the second round. We were talking 
about a bigger Navy and I would like you to briefly talk about 
what we have to do in capacity. We talk about the ships a lot, 
but not as much about the shipyards, so if you would speak to 
that.
    Admiral Smith. Yes, sir. And thank you for the question, 
sir.
    So we look--I will start a little bit big and then I will 
go down to the shipyards. We have a strategic laydown and 
dispersal process that we work at the installation level for 
their needs who then goes into a working group. And that is fed 
by the fleet commanders and the CISCOMs, system commands, to 
make sure that all of the needs and requirements are 
understood. And then we have got a analytical evaluation 
process that we put that in to the CIV, if you will, sift it 
out to get the rack and stack.
    And then we look at that at the working group level--are 
the priorities with that said. And then we work it at a senior 
level, but with both the fleet commanders, Navy installations 
command, Naval facilities command, and C&O staff to make sure 
we have got those priorities right. So, as we have talked 
about, we are not getting everything done we need to get done, 
but we are getting the most urgent projects required in a 
timely manner making sure that those are what we are getting 
done.
    Now, bring it down to the shipyard. That fits into the same 
process for all four shipyards. We know that we are challenged 
in the shipyards. You and I have talked about that, sir, before 
with Pearl Harbor and Fort Smith. So we make sure that we are 
getting to the projects we need as best we can competing all 
the other requirements we have. And that is basically how we 
work the process in all requirements, but there is--I can tell 
you the CNO has put readiness front and center on us. Shipyards 
are absolutely instrumental to that. That is reflected in the 
fiscal year 2018 budget, both on the MILCON side and on the 
restoration and modernization.
    Senator Schatz. So with your permission, Mr. Chairman, just 
one final comment along those lines.
    I understand that process. I respect that process. And it 
looks good. It looks like sort of incremental improvements, 
which I think is appropriate. But if we are talking about a 
much bigger Navy, a much bigger Navy, then that is not the 
process we are talking about. We are going to need to have a 
non-incremental improvement in our shipyard capacity space, 
workforce, facilities, and the whole thing. And to talk about a 
bigger Navy is one thing. To purchase ships is one thing. But 
to get them done and to get them maintained and to have the 
shipyard workers is an entirely different thing.
    Thank you.
    Admiral Smith. That is absolutely the wholeness piece that 
we are talking about. Yes, sir.
    Senator Moran. Senator Rubio.
    Senator Rubio. Thank you. Thank you all for being here.
    Mr. Potochney, as you know, the 2009 the Navy announced its 
plan to homeport an aircraft carrier at Mayport in Northeast 
Florida. And following the announcement in 2010, the QDR, the 
DOD confirmed that decision to base an aircraft carrier at 
Mayport. And I raise the issue again because these plans have 
been there since 2009. It is supposed to happen by 2019.
    So in your testimony, you mention the 2017 unfunded 
priority list. How many of those priority list projects are 
associated with supporting a nuclear carrier at Mayport?
    Secretary Potochney. Sorry. Perhaps the Navy can add to 
that, but I will have to take that for the record. Sorry.
    Admiral Smith. For fiscal year 2018, sir, there are none.
    Senator Rubio. Well, that is right. The answer is none. And 
the problem with that is I understand the difficult fiscal 
constraints that the military faces and has been forced into, 
but as the QDR reflected and others have said, it is not 
strategically acceptable to base four and soon to be fine of 
our nation's most expensive assets in one location. And that is 
not me making that up. I mean, that is something that was 
looked at as part of the QDR. That is why they endorsed the 
Navy's request to start. This is a quote from the QDR, ``To 
mitigate the risk of a terrorist attack, accident, or natural 
disaster, the U.S. Navy will homeport an East Coast carrier in 
Mayport, Florida.''
    And some of the construction appropriations necessary to 
enable this to happen have been appropriated and completed such 
as the harbor drudging and the piers and some of the 
infrastructure. Other necessary projects have been deferred 
since the year 2013. Does the Navy intend to request the 
necessary funds to meet this need ever?
    Admiral Smith. Sir, I cannot speak to ever. I mean, we use 
the strategic laydown and dispersal and that was what 
determines where our projects goes. As of right now, in our SLD 
there is not a CVN in Mayport. That is the current one. I 
cannot project the future on how that might--may or may not 
change.
    Senator Rubio. So is it fair to say that basically 
operating in a constrained environment the Navy's position, as 
I understand it, has still not changed in terms of dispersal. 
It is a decision that was made based on a limitation of 
resources and trying to figure out where you could best spend 
these resources with limited funding.
    Admiral Smith. To your specific question, sir, I will have 
to take that for the record and get back to you.
    Senator Rubio. Okay. I also want to--let me ask on-- I am 
trying to figure out who the--maybe I think you would be the 
appropriate person to ask this question of. In your testimony I 
think you mentioned, if I heard correctly, investing in 
cyberwarfare and supporting the Combatant Commanders, or maybe 
it was in your written for Fiscal 2018.
    Admiral Smith. Yes, Senator.
    [The information follows:]

    Yes. The Navy remains committed to the strategic dispersal of the 
nuclear aircraft carrier (CVN) force. Additional East Coast CVN 
homeports would reduce risk and provide strategic flexibility in the 
event of natural disaster, manmade calamity, or attack. Current fiscal 
constraints dictate that the Navy continue to defer the investment in 
another East Coast CVN homeport. The Navy's current Strategic Laydown 
and Dispersal Plan (SLD17) does not reflect another East Coast CVN 
homeport; however, SLD18 will re-evaluate the strategic dispersal of 
our CVN force in light of the current fiscal and strategic environment.

    Senator Rubio. Yet it is my view, and I just visited a 
facility here recently, that they are both underfunded. The 
cyberwarfare receives funding for only one MILCON project and 
support to Combatant Commands amounted to less than about 10 
percent of the budget.
    Are there plans to increase the priority in the funding for 
these two critical areas? This is going to be an area of 
continued and massive growth, not just in personnel, but in the 
ability to house them, and not just house them, but in 
appropriate facilities for the kind of work that they are 
doing. I was very impressed with the work that is done, but it 
an area--it is a growth business, to say the least, in terms of 
the environment that we are now living in.
    So what are the plans? Do you think 2018 is adequate to 
meet the needs? And what is the long-term projections on that 
as you understand it?
    Admiral Smith. So in 2018 we have the facility for Yuma to 
address the cyber piece. With respect to installations, we are 
tackling the most critical risks on our installations right 
now. We have done 24 assessments right now. We have got another 
20 to do to finish that out this year to address 
vulnerabilities we have and the most critical. There are others 
of less significance. In the out years, we will continue to 
work our way through that list. Again, it goes to the priority 
piece we have talked about and making sure we rack and stack 
all the different competing interests we have within the fiscal 
environment we are working under.
    Senator Rubio. Yeah. I was asking specifically about the 
areas of the training facilities in terms of having, for 
example, Cory Station, being adequately funded for the growth 
that is on its way. And perhaps, I do not know if that is what 
you were answering towards--I heard you talk about 
vulnerabilities and it sounded more like you were talking about 
cyber vulnerabilities. I am talking about the training and 
equipping of cyber and information training facilities.
    Admiral Smith. You are talking about the workforce and----
    Senator Rubio. Correct.
    Admiral Smith. Make sure that they are ready to have the 
capability for----
    Senator Rubio. But also have the facilities in which we can 
train this growing and retrain this growing workforce. And yet 
I look at it and it appears, unless I am reading it wrong, that 
cyberwarfare received funding for only one MILCON project and 
support to the Combatant Commands amounted to less than 10 
percent of the budget. So is that just, again, an allocation of 
limited resources situation? In essence, if there was more 
money would we see more of a priority, or is this something we 
need to be--what are the long-term plans and ideas about 
providing facilities for what this--I would not say it is a 
new, but certainly an emerging area of training?
    Admiral Smith. There is more we need to do and it is an 
allocation of resources.
    Senator Moran. Senator Udall.
    Senator Udall. Thank you. Thank you so much, Mr. Chairman.
    New Mexico's bases greatly benefit, as you all know, from 
military construction. And I appreciate the work of this 
committee and the Armed Services Committee to make sure we have 
the best facilities for our troops at New Mexico's three Air 
Force bases. This includes important projects of the fiscal 
year 2018 at Cannon and Holloman Air Force Bases, as well as a 
project for the National Guard in Los Cruces. The remotely 
piloted aircraft facility at Holloman and the special 
operations facilities at Cannon will significantly improve the 
capabilities of our airmen and women at these bases.
    General Bingham, it is good to see you again. I want to let 
you know that the communities surrounding White Sands Missile 
Range were extremely grateful to you for your service at the 
base as well as your service to the community of Southern New 
Mexico. I am glad to see that your stewardship of White Sands 
did not go unnoticed and that you have been promoted to 
Assistant Chief of Staff for Installation Management. And I 
would like to draw upon your experience as the commanding 
officer of White Sands.
    White Sands will play an important role in developing 
weapons and capabilities to protect forward deployed forces 
from long range threats. Can you quickly summarize what are the 
most important construction and maintenance projects in the 
pipeline at White Sands?
    General Bingham. Thank you, Senator Udall, and great to see 
you again and thank you for your leadership.
    Senator Udall. You bet.
    General Bingham. It was my privilege to serve as the 
Commanding General from 2012 to 2014 at White Sands Missile 
Range. And point of fact, I came to know it as a crown jewel 
for our nation in that it is a one of a kind range and one that 
we could not replicate anywhere in the world. I will tell you 
that just this week we sent over our plan and designs for the 
main network infrastructure building there that burned down 
years ago. That is in the planning and design phase and that 
came over here to Congress.
    We do understand that our test and evaluation community is 
vitally important to our nation's defense and being able to 
test various assets there. And so we do all that we can 
throughout our sustainment, our restoration and modernization 
account as well as our MILCON. But I am hopeful that with the 
fiscal year, the PND in support of that main infrastructure 
there that that will go a long way toward improving its 
condition.
    Senator Udall. I appreciate that. General Bingham, what 
percentage of the tests at White Sands are being devoted to 
countering the anti-access area denial capabilities being 
developed by our near peer competitors, China and Russia?
    General Bingham. I do not know the answer to that question. 
I do know that we train test for all the services, Army, Air 
Force, and Navy. I will have to take that one for the record, 
Senator, and get back to you with a specific percentage.
    Senator Udall. Thank you very much.
    [The information follows:]
    Approximately 80 percent of the tests at White Sands Missile Range 
are devoted to countering the anti-access area denial capabilities. 
Furthermore, 50 percent of the tests at Yuma Proving Ground and 14 
percent of the tests at Redstone Test Center are devoted to anti-access 
area denial capabilities.

    Senator Udall. Vice Admiral Smith and General Green, I 
recognize you are not necessarily the experts on this issue, 
but how concerned are you that the Navy and Air Force about the 
anti-access aerial denial capabilities being developed by our 
near peer competitors, China and Russia?
    Admiral Smith. The Navy is very concerned about it and we 
are focused on it and the development of our tactics, 
techniques, and procedures and how we are going to fight the 
fight if called upon to have to do that.
    Senator Udall. Would the members of the panel agree that if 
we are going to be able to effectively counter these 
capabilities, test ranges and facilities like White Sands must 
be made a priority for military construction and maintenance? 
General Bingham.
    General Bingham. Certainly that is certainly a priority for 
us because it enables readiness. And so commensurate with our 
funding both as it relates to military construction funding as 
well as SR&M funding we will apply as we are able to to ensure 
that this national treasure is able to execute its multi 
missions.
    Senator Udall. Yeah. Really appreciate your answers and I 
know that budgets are limited, but as the Department of Defense 
sets priorities I hope that we will continue to recognize the 
specialized and irreplaceable facility that is White Sands.
    And with that, I will submit the rest of my questions for 
the record. Really appreciate seeing you again, General 
Bingham.
    Thank you very much, Mr. Chairman.
    General Bingham. Thank you, Senator.
    Senator Moran. Thank you, Senator Udall.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    General Bingham, you mentioned in your testimony that the 
Army's top priority continues to be readiness. And you gave us 
a truly startling statistic that I do not want to be lost in 
this hearing, that the underinvestment combined with the 
increased operational tempo of the last decade has resulted in 
nearly 22 percent or 33,000 facilities that are now in poor or 
failing condition. I think that is a startling statistic for us 
to deal with.
    In that regard, I am pleased that the Army has included 
funding for a much-needed National Guard Readiness Center in 
Presque Isle, Maine as part of your budget request. This is 
essential for the 185th Engineers Support Company at the Maine 
National Guard to maintain its readiness levels and recruiting 
efforts. And it will replace a building that is completely out 
of code, does not meet modern standards at all.
    Another readiness center in Saco, Maine, which is in the 
southern part of the state, is also urgently needed and is in 
the Maine National Guard's top priority for future MILCON 
budget requests. So I want to put that one on your radar screen 
as well.
    So that we have a better understanding of the importance 
and connection to readiness, could you discuss the importance 
of these National Guard Readiness Centers to the Army's 
readiness of the total force?
    General Bingham. Thank you, Senator Collins, for the 
question. And absolutely the National Guard as well as the Army 
Reserve are critical to the One Army team. Working alongside 
our active component brethren. In point of fact, when I see a 
soldier, I do not see whether he is a Guardsman or a Reservist, 
but he is a soldier. And we are very grateful for what this 
fiscal year 2018 budget request will do for us as it relates to 
being able to arrest our facility degradation and it is able to 
do that.
    When you combine the sustainment funding with restoration 
and modernization coupled with the MILCON, this fiscal year 
2018 budget request, if approved, will be able to arrest the 
accelerated downward trend, or upward trend, I should say, in 
facility degradation. So we are very grateful for that. We are 
very grateful for the facilities that support the Guard and the 
Reserve.
    And as we are funded commensurately, we will continue to 
buy down that facility degradation that I talked about, the 22 
percent of 33,000 facilities. This budget request is definitely 
a positive step in the right direction and we would like to see 
that sustained and adequate funding continue.
    Thank you for your support.
    Senator Collins. Thank you.
    Admiral, I am also pleased that the Navy's request includes 
$62 million to consolidate the paint blast and rubber 
fabrication facilities at the Portsmouth Naval Shipyard in 
Kittery, Maine. As you know, we are very proud of this shipyard 
which has been called the gold standard--no offense to Pearl 
Harbor by which governments should measure shipyards due to the 
efficient high-quality work. And this is a much-needed project 
that will replace some outdated and inefficient buildings.
    On the topic of shipyard infrastructure more generally, and 
I know this is of concern to the Ranking Member as well. I 
continue to be concerned regarding dry dock capability and 
capacity and the pace of modernization. Without major 
improvements at all of our nation's public shipyards, the 
fleet's readiness will be seriously affected over the next 30 
years due to a lack of dry dock operational availability.
    As the Navy considers its shipyard infrastructure 
modernization plan, how do you intend to prioritize public 
shipyard capacity and modernization?
    Admiral Smith. Yes, Senator. Thank you very much for that 
question.
    And I have had the privilege to visit your shipyard more 
than once in my last job and they do a great job up there. And 
I know that you are very proud of them, and as you should be. 
They do phenomenal work.
    The dry dock, I mean, what is pressurizing our dry docks. 
They are old. In many cases, we have not maintained them. I 
mean they are--some are from World War II, as you know. The 
Naval Sea Systems Command has finished up their internal dry 
dock study. They have passed it to other equities with the Navy 
for us to start evaluating and looking at.
    The two principal drivers are the Virginia Payload Module, 
when that delivers to the fleet, and also the Ford Carrier. And 
so as we go and prioritize those projects, we need to make sure 
against the other competing issues that we have that we get 
those in to the budget and approved in time to deliver, improve 
those dry docks before we have to put in the First Virginia 
into drydock or the Ford.
    So we have to take that into account as we go forward and 
make sure we prioritize those in the right priority to meet the 
requirement when those assets show up.
    Senator Collins. Thank you.
    Admiral Smith. Yes, ma'am.
    Senator Collins. Thank you both.
    Senator Moran. Senator Boozman.
    Senator Boozman. Thank you, Chairman Moran, and Ranking 
Member Schatz for holding today's hearing. And I thank all of 
you all for your service to our country and for being with us 
today and your many, many years of service and leadership.
    A common and alarming threat that jumped out at me in each 
of your opening testimony was the level of risk being taken 
when it comes to maintaining facilities and installations 
throughout the Department. Senator Collins touched on this a 
little bit. I think the figure you all provided was the 
unfunded backlog of deferred maintenance and repair work 
currently exceeds $140 billion. The percentage of military 
facilities in poor or failing condition is very troubling. I 
think the word triage was used in some of your testimony to 
describe current maintenance and repair strategies.
    I think I speak for many of my colleagues on this 
subcommittee when I say we are eager to help you turn this 
around. We are also eager to help eliminate the chronic budget 
uncertainty your service has faced over the last several years.
    I was interested to read in General Broadmeadow's testimony 
about the Marine Corp request to demolish 1.6 million square 
feet of failing and obsolete facilities to help alleviate the 
maintenance backlog. You explained that this demolition would 
help enable implementation of the Commandant's Infrastructure 
Reset Strategy.
    General Broadmeadow, do you envision the demolition efforts 
to be a multiyear request? Will there be a similar request in 
fiscal year 2019 and beyond? Could you also talk further about 
the Infrastructure Reset Strategy and what it entails?
    General Broadmeadow. Senator, thank you.
    That is an important question for the Marine Corps. We are 
pretty proud of our Infrastructure Reset Strategy. And 
demolition, particularly this initial demolition, is important 
to start setting the scene for that.
    Specifically, to your question, yes. We view demolition to 
be a continuing effort and it will continue to be part of our 
facility sustainment, restoration, and modernization requests 
for at least the next decade. However, at the heart of this 
strategy, we also plan to take some of the savings that we 
recoup from that demolition and put it back into our 
restoration and modernization efforts as well. So we are hoping 
to reap some of the savings that we will sow from that 
demolition.
    At its heart, what the reset strategy is doing is 
broadening the Marine Corp's scope into what it takes to 
maintain our facilities and really providing a lot of 
leadership oversight onto it rather than simply focusing on new 
construction or any other element of facilities infrastructure 
individually. We are looking at it as a comprehensive 
portfolio. And the leadership gets briefed on all elements of 
our infrastructure management, our infrastructure investment so 
that we are not looking at just MILCON alone, but all of those 
things that are necessary to maintain a balanced portfolio.
    What we hope at the end of this reset strategy in about 
2021 is to have balanced out the portfolio where almost all of 
our facilities are Q2 or better, you know, fair condition or 
better, as a direct result of this strategy.
    Senator Boozman. Very good.
    Are any of the rest of you, any of the other branches, are 
you all considering anything similar?
    General Bingham. Thank you, Senator Boozman.
    Within the Army, we use a three-prong facility investment 
strategy where we are applying our resources to one, sustain 
that which we have in adequate and good condition to prevent it 
from falling into a state of disrepair. We apply resources to 
get after that $10.8 billion deferred maintenance backlog I 
talked about. And we apply resources to modernize and upgrade 
our facilities to keep pace with our execution of our missions.
    We do demolish our facilities as funds are available. To 
help ourselves, we have taken on an initiative about a year ago 
called Reduce the Footprint where we are consolidating all of 
our men and women into our best facilities first and then being 
able to rid ourselves of facilities that are in failed 
condition. We know that we have about 161 million square feet 
of excess capacity, so we program that we could probably 
account for about 33 million square feet in excess. So, say 
from having a BRAC, base realignment and closure that is about 
all we will be able to do as it relates to diminishing our 
excess.
    Senator Boozman. Very good.
    Thank you, Mr. Chairman.
    Senator Moran. Thank you, Senator Boozman.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman, and thank you 
all for being here.
    General Bingham, this is for you. This is regarding the 
Fort Greely School. Back in May of 2015 the Delta Greely School 
District was forced to close that school district. They had low 
enrollment, high maintenance, and high utility costs. This 
particular building was built by the Federal Government. It was 
transferred to the school district by the Federal Government, 
but now that the school is no longer in use, we understand that 
the Army wants the school district to demolish the building and 
remediate environmental contamination that existed prior to its 
occupancy.
    The school district is really not in a financial position 
to do that and we have been trying to engage the Army on a 
solution here that does not bankrupt the school district. So 
and we are looking for some solutions, perhaps something that 
involves other Federal agencies, but we really have not been 
getting anywhere. And I need to know that we can get to a place 
where there is a workable solution here.
    Can you address this?
    General Bingham. Thank you, Senator Murkowski. I appreciate 
your question.
    And we too want to be good stewards of government 
resources, but we also want to be good neighbors. So, to that 
end, we have begun conversations with the school district.
    Senator Murkowski. Okay.
    General Bingham. And what we aim to do is find an amicable 
solution where we can have a win-win. But we continue in our 
dialogue and we are committed to finding that win-win so that 
both parties would be satisfied at the end result.
    Senator Murkowski. Well, I appreciate that and would ask 
that you keep us informed on that. Again, the school district 
is really not in a situation financially to assist with this, 
but I appreciate your comment and desire to be a good neighbor 
and community partner there.
    General Bingham. Thank you.
    Senator Murkowski. Let me ask General Green about the 
activities at Eielson. There is some pretty important meetings 
going on in Fairbanks this week. One of those meetings concerns 
how to house the approximately 3,000 people that will be coming 
to Eielson as a result of the F-35 beddown. The other is how 
the community plans to deliver services to these additional 
residents.
    Eielson, as you know, has a great working relationship with 
the communities, but there are a number of decisions that are 
going to affect these local conversations that are being made 
at the headquarters and the major command levels.
    For example, we hear that the housing privatization partner 
will not be asked to build additional units at Eielson to meet 
the increasing demand. We understand that approximately 800 
housing units must be made available in the community to 
support the beddown. Additionally, we need to know how many 
people are coming. We need to know their demographics. We need 
to know when they are coming, if there is going to be any 
delays. We need reasonable advanced notice of what is 
happening.
    So what I would like from you, General Green, this 
afternoon are assurances from the Air Force that will have an 
ongoing and constructive dialog about what is needed from the 
community to ensure that we truly do have a seamless beddown. 
So, your thoughts on this issue.
    General Green. Yes, ma'am. I can assure you that we will 
have a continued dialog, Senator, and thank you for the 
question because this is a very important beddown to us. We 
realize it is a large impact on the community. In fact, I was 
talking to Colonel Mineau this weekend about the same thing. 
And so our commitment is to be as transparent as we can with 
exactly what you talked about, the numbers of people moving in, 
when they are moving in, and what we can do with the community 
to work together.
    I am sure that you understand his challenges within the 
wing and we understand the challenges in the community. So our 
commitment is to work together. It has always been a great 
community for us to work with and partner with. They are great 
hosts to our Airmen and their families and so we look forward 
to finding a common solution because we are all invested in 
this together.
    Senator Murkowski. Well, I appreciate that. And you are 
absolutely correct. There is a generosity. There is a support 
for our military that is absolutely undeniable there. And 
again, in order to make this seamless, the more information and 
sufficient notice is greatly appreciated.
    The last question, and this is also directed to you, 
General Green, the Galina Forward Operating Base that was 
closed as a result of the 2005 BRAC roundup. The cleanup there 
is continuing. I do understand that the Air Force has budgeted 
about $2.1 million for fiscal year 18 which is lower than we 
have seen in recent years. The community has a number of 
questions that I will submit for the record and I know that we 
will eventually be seeing answers to those, but I would like to 
get representatives of the Air Force and the community together 
in the near future to talk about the issues of the cleanup 
going forward, so we would just put that on your radar green.
    General Green. Yes, Senator. Thanks to you. We will be glad 
to participate in that and I look forward to answering your 
questions. I do know that we are committed to the cleanups that 
are ongoing. The money, the $2 million this year is about both 
studies and closure activities and then we have ongoing 
operations and maintenance. So we will continue to be invested 
and look forward to working with you.
    Senator Murkowski. Great.
    Mr. Chairman, I have an additional question that I am going 
to be submitting to all about the implementation of Real ID and 
how that is playing out in Alaska, but that will be submitted 
as part of the questions for the record, so thank you.
    Senator Moran. Senator Murkowski, thank you very much.
    We are going to go for another round of questions. Let me 
begin by expressing my concern about the Army Corps of 
Engineers and its capabilities as providing engineering 
services, planning, and design for military installations.
    I know this as a Kansan in regard to challenges that I have 
seen as a senator representing my state, but now in this 
capacity as chairman of the subcommittee, I have the 
opportunity to approve or disapprove reprogramming dollars. And 
I want to highlight a couple of things for you and get your 
response.
    This year's request includes $251 million for the 
replacement hospital at Fort Bliss, a project that will end up 
costing well over a billion dollars before it is complete. 
Earlier this year, the Department sought a reprogramming of $74 
million to cover cost overruns resulting from ``design errors, 
design omissions, and settlement of contractor requests for 
equitable adjustment.''
    What I have seen in Kansas related to similar mismanagement 
of a hospital project at Fort Riley, in this case the Corps and 
the contractor reached a settlement of $22 million. Again, the 
contractor being paid $22 million to settle, and I quote, 
``design deficiencies and associated impacts and delays.''
    These cases raise questions to me about the ability of the 
Army Corps to effectively manage major construction projects. 
Maybe the place to start with you is, Mr. Secretary, how common 
is this? Do you share any of my concerns in regard to the 
Corps? Would you, could you, or perhaps it is the Army provide 
me with complete list of projects that resulted in a settlement 
including the cost of those settlements related to those kinds 
of issues?
    Secretary Potochney. Thank you for that question, sir.
    I can provide and I will do that for the record. I think 
any cost overrun is of concern. The construction world, as you 
know I am sure better than me, is complex. And hospital 
construction in particular is complex. And so I guess and I 
know in this case that there was some difficulty. General 
Bingham will talk about it, perhaps, in a little bit more 
detail, but I know though that the Corps has put a fair amount 
of attention on this and should be up here and we would like to 
get them on your calendar to brief you in particular.
    [The information follows:]

    Adjustments to the original contract price for construction 
contracts are common and expected because the construction process is 
complex and involves many uncertainties. The uncertainties include 
unforeseen site conditions, maturing user requirements, design changes, 
economic swings that affect labor and materials, disputes brought by 
the contractors, weather, and contract options. While the Corps does 
have a good record of managing construction projects overall, the 
Department does share your concern about cost growth when it exceeds 
any reasonable expectations. We are reviewing these instances directly 
with the Corps. With respect to the request for a list of projects that 
resulted in a settlement including the cost of those settlements, I 
defer the response to the Army, who will provide the information 
directly to your office.

    Senator Moran. I would expect us, this subcommittee, 
pursuing this topic further and I would be delighted to have 
the Corps have a conversation. I guess let me ask you before I 
move on, Mr. Secretary, is there a recognition that there is a 
problem in this regard?
    Secretary Potochney. I forget what the statistics are, but 
the cost overruns are not as prevalent. As you know, it is a 
bad headline and it receives attention and should receive 
attention, but I would not let it characterize the Corp's 
overall capabilities or ability. So I am certainly concerned 
and others are as well, but I think they deserve to be able 
to--they deserve the time to explain what happened in this 
instance in particular.
    Senator Moran. Well, again, let me say that my impression 
is it is more than one instance. I am most familiar with what 
happened in Kansas, but again, as I said, I get the opportunity 
to approve or disapprove adjustments in spending. I would say 
that it is a bad headline. That part is true. And it is 
certainly expensive from a taxpayer point of view. But what we 
saw in the case of Irwin Army Hospital, it was a delay of years 
before soldiers and their families, military retirees, were 
able to access the latest and newest technologies in a modern 
hospital.
    So it is more than just a headline, a bad headline. It is 
more than even cost to taxpayers. It is an--has a consequence 
upon the health and wellbeing of those who serve our country 
and their family members.
    Let me ask you, General Bingham, your thoughts on my 
concern about this topic. What is taking place that you either 
want to disprove me of my beliefs or suggest to me that there 
are actions underway to improve the circumstances that I 
described?
    General Bingham. Thank you, Chairman Moran.
    I will just tell you that the Corp of Engineers Commander, 
Lieutenant General Semonite, is taking this action or this 
issue very seriously. We have processes in place where we go 
about looking at these cost overruns, as you described them, 
and certainly we are concerned. I cannot talk about the 
hospitals because those are not in my specific portfolio, but I 
can say that on average we have more situations where we come 
in underfunded than we do over as it relates to cost.
    Currently, about 65 percent of those projects are coming in 
under cost and about 32 percent are coming in over cost. And so 
what we sincerely appreciate is your support for allowing us to 
be able to retain the bid savings so that we are able to 
accommodate the cost overruns. But I agree with Mr. Potochney 
that General Semonite would be more than willing to come and 
speak with you and talk you through such that you would feel a 
little bit more comfortable coming from him.
    Senator Moran. I appreciate that. I guess I want to make 
clear that I understand there can be cost overruns. And it is 
pleasing, I suppose, that our ability to estimate is more often 
on one side of the equation than the other, although the hope 
is that you can estimate whether it is an overrun or an under 
cost. You hope that you can estimate cost accurately. I 
understand that is not always possible and circumstances 
change, but my greater concern is the explanation. And I do not 
want the Army to change their explanations when they ask me to 
approve a reprogramming, but the explanation is design errors, 
design omissions. So it is not necessarily the cost overrun. It 
is the reason in which the money is needed to be adjusted.
    And so your answer, General, is fine except I want to make 
sure my point is clear. It is not necessarily the overrun that 
I am talking about. It is the explanation for the overrun in 
which the Army Corps of Engineers in their design work failed 
to do their job appropriately.
    And let me ask, I'm sorry, General Green, to bring you into 
this, but you are a customer of the Army Corps of Engineers 
Service and I would not want to let you off the hook without 
asking you about the experience the Air Force has had in regard 
to design work by the Corps.
    General Green. Senator, normally I would say thank you. I 
am no sure that is appropriate at this point.
    But what I would say is we have found great success with 
the Corps in working across the nation, but I would agree that 
it is inconsistent at times just like any large bureaucracy. 
The Corps is a very large organization, so there have been 
pockets of challenges for the Air Force, but there has been 
pockets of great success. In fact, Kansas City District that 
has run the construction for the KC46 beddown at McConnell has 
proven to be very successful and they have saved. Through 
innovation and thinking ahead and looking ahead they saved over 
$40 million in that program.
    So I do recognize and acknowledge the problems that you are 
referring to. We have experienced some of our share, but I do 
not think it is a brush in which we would pain the entire 
Corps. I think it is uneven across such a large bureaucracy, 
which is something that we all experience in large 
organizations.
    Senator Moran. Does the Air Force choose which region, 
which part of the Corps you utilize in those projects or is it 
geographically based?
    General Green. It is a mix. Some of it is geographically 
based. Some of it is based upon a center of excellence or a 
district that has a lot of expertise and so I would say it is a 
mix. And if we have a preference we will often ask if we can go 
to a district. I would say the districts that are most 
successful, there is a lot of requests. So there is perhaps 
some capacity challenges.
    An example would be the weapon storage facilities. You 
know, one Corps district is doing all of the work for all the 
weapons storage facilities in the nuclear enterprise that is 
being done by the Army Corps of Engineers. And that was 
something that General Semonite and I negotiated early on. So, 
it is one office. It is the center of expertise. And so, again, 
they have the size and skill also that we can leverage their 
talent.
    Senator Moran. Not many Naval facilities built in Kansas, 
Admiral, so unless you want to join in this conversation, it 
will not be required on my part. Thank you.
    Senator from Montana.
    Senator Tester. Thank you, Mr. Chairman and Ranking Member 
Schatz. Thank you for the testimony of the panel and thank you 
for the work you do.
    Just one thing that I would just relay off the questioning 
of the Chairman is that if there are some regions that do 
particularly good work and others that do not, I would hope 
that folks would talk to get the expertise on why some regions 
are good and others are not to bring everybody up to good or 
better. We are depending on you.
    I just would just say that there was a Denver VA facility 
that had an incredible cost over and we turned it over to you 
guys because you guys should know more about it than them. And 
so the answers were a bit distressing, I might add, in that you 
guys are the pros and we are depending on you, so please make 
sure everybody is at the top level.
    My questions are for you, General Green. As you know, 
military construction is a key component of our nuclear 
deterrence efforts. And as you know from previous 
conversations, I am concerned with the deteriorating 
infrastructure at ICBM Wings in Montana and North Dakota and 
Wyoming. In April of this year at my urging, the Air Force 
provided this committee a report that highlighted the need to 
recapitalize our missile alert facilities which date back to 
the 1960s.
    As I mentioned during previous hearings, day to day 
operation and maintenance and labor costs have increased 280 
percent over the last 5 years while engineers have executed a 
Band-Aid fix on existing infrastructure, which is okay for a 
while, but I think the Band-Aids are getting too many. This 
report noted that while the Air Force is developing plans to 
recapitalize the missile alert facilities, the Air Force does 
not have a reliable estimate of military construction 
requirements at this time.
    Of all the things that you guys do and all the projections 
you have to do, this one is a slam dunk from my perspective, to 
be able to figure what needs to be done to house the folks out 
in the farmhouses called missile alert facilities.
    So can you speak, General Green, can you speak to when we 
can expect to see the construction requirements for the missile 
alert facilities?
    General Green. Senator, thanks for the question. I do not 
believe I can tell you exactly when we will have those defined, 
so I need to go back and understand where they are programming 
them.
    As we look and prioritize the ICBM infrastructure that we 
have talked about, for example, we have been going through and 
doing the Helicopter----
    Senator Tester. Yeah.
    General Green. Tactical Response Force mission beddown. We 
are going through now with the weapon storage facilities, which 
are very large. Those were deemed higher priorities.
    Senator Tester. Yeah.
    General Green. I have been out to the missile field. I have 
visited the other facilities you described. We have advocated 
that they begin to build a program, but I have not personally 
gotten the results of that yet. So I will take this for the 
record, if I may, and get back with you with a timeline.
    Senator Tester. Look, I do not have a problem with your 
priorities. I do think that they need to be on a list so that--
--
    General Green. Yes, sir.
    Senator Tester. You can tell the Chairman and Ranking 
Member they are 10 years out or 5 years out or 1 year out or 
this year, okay.
    So, as long as you brought up weapons storage facilities, 
how is that proceeding and is it on schedule and are we where 
we need to be with the three bases?
    General Green. Yes, sir. With scheduling about like we 
expected in that we have learned a lot. We are learning a lot 
from the FE Warren design. As you know, we have maintained 
Malmstrom in fiscal year 2019. You saw Barksdale has slipped 
from last year's Future Years Defense Program (FYDP). We have 
moved it from 18 to 20 so that we can take the lessons we are 
learning at FE Warren. We are going to apply them to 
Malmstrom----
    Senator Tester. Good.
    General Green [continuing]. Before we start a bomber 
project. And so I think we are where we thought we would be 
pretty closely. It is large. It is difficult.
    Senator Tester. Okay.
    General Green. But we look forward to getting them 
completed.
    Senator Tester. Okay. And are there other ways that this 
budget addresses the ICBM facilities' needs?
    General Green. Not specifically. Now, within the FSRM 
budget request, so sustainment, restoration, modernization, 
there will be funds that go from that account that go support 
the nuclear enterprise, but I do not have at hand with me what 
those projects might be.
    Senator Tester. Okay. Well, we look forward to continue the 
conversation on those and other issues.
    As you know, Montana National Guard Unit, that its 120th 
Airlift Wing needs a new aircraft apron. The current apron is 
undersized by 50 percent, does not meet the space requirements 
to properly house the HC-130s that we have in Great Falls. The 
lack of space not only impacts the 120th's mission, but if not 
addressed it places Great Falls International Airport at risk 
of losing accreditation from the FAA. That is kind of a big 
deal.
    According to the Chief of the National Guard Bureau, the 
requirement is construct a new aircraft apron in Great Falls is 
necessary. This is a necessary thing that has to be done. Will 
this project be prioritized appropriately so it can be funded 
in fiscal year 2018?
    General Green. Sir, it is prioritized, but it is not going 
to be funded in--it is not a request that we are making in 
fiscal year 2018. That particular apron is scheduled in the 
budget request in the FYDP with fiscal year 2022 for the 
construct aircraft apron at Great Falls. So we would say with 
the limited budget that we have, it is competing. And as you 
know, Senator, fiscal year 2018 is pretty firm request. The 
further we go out, there will be changes in the years. But what 
this tells me is it is important to the Air Force and we 
recognize we need to get to that as soon as we can. It is a 
matter of too many requirements with too little funding.
    Senator Tester. Okay. Well, General, and I say this with 
all due respect because I really do appreciate not only the job 
you do, but everybody sitting at this table. Has there been a 
conversation with the FAA to find out if they are going to 
decredit, if that is the proper term, the airport in Great 
Falls if these aprons are held out until 2022?
    General Green. Senator, I am not aware of that we will have 
to take that for the record.
    Senator Tester. Well, I think it would be really important 
because if that happens, it is going to be disastrous.
    General Green. Yes, sir.
    Senator Tester. Okay. Thank you all. Appreciate it. Thank 
you, Mr. Chairman.
    Senator Moran. Senator Schatz.
    Senator Schatz. Admiral Smith, I wanted to talk to you 
about climate change and I promise not to get into politics. I 
just wanted to talk to you about what is happening with sea 
level rise and I want to know first what is the Navy doing to 
incorporate rising sea levels into the planning and risk 
management process in order to mitigate your risks?
    Admiral Smith. Senator Schatz, thank you for the question.
    And we are taking sea level rise into consideration in our 
projects. We started this a few years ago as we realized that 
it is changing. And so now whenever we design any project that 
is within the 100-year flood plain we look at it and analyze do 
we need to make adjustments to a standard project, if you will, 
to accommodate for that.
    A couple of examples where we have taken into account, 
Craney Islands Refueling Depot down in Norfolk, we built it ten 
feet taller to be able to account for sea level rise. The Cyber 
Building that is being built over at the Naval Academy, the 
HVAC systems, the utility systems are not going on the ground 
floor. They are all safe from flooding. We have actually in 
that building have designed flood barriers on the first floor.
    We are writing it into our instructions to make sure that 
it is codified that all our activities that are dispersed 
throughout the world at our bases are in fact taking this into 
account and looking at sea level rise. So we take action that 
is responsible for sea level rise, but not building to the high 
end that we might never see and use excess dollars that we do 
not need to spend too.
    Senator Schatz. And does the Construction Code give you 
sufficient flexibility for this?
    Admiral Smith. We are working on the Construction Code 
right now. So it is not written into the Construction Code to 
go look at it. We are writing it in so that we have to go look 
at it.
    Senator Schatz. And is this how does it work? Is that 
across service branches or each service branch does their own 
construction code?
    Admiral Smith. Unified.
    Secretary Potochney. We have a Unified Facilities Code that 
allows the services--that provides the structure for the 
services to use in designing these facilities, you know, 
against the requirement. And so in my view, in our view I--and 
we are always updating those, by the way--they provide the 
services with the authority that they need to carry out their 
responsibilities and they do include a fair amount of 
flexibility. Having said that though, we are revising them and 
to adjust to all changes.
    Senator Schatz. General Green, just a quick check in from 
the Air Force side. I understand Kadena that joined, and 
Langley, and Eglin, are a few examples of where you have some 
coastal zone flooding. You have some inundation. I would like 
you to just speak to how big of a challenge this is. Do you see 
it increasing? What are you doing about it?
    General Green. Yes, sir. Very consistent with the Navy. We 
have in fact taken actions at Langley from one hurricane 
several years ago. We have done a lot of the activities that 
Admiral Smith described and we have been able to weather the 
next hurricane in a much better fashion. And so we are very 
consistent with elevating our structures, making sure we have 
our underground structures protecting, but by putting things 
aboveground and elevating it is our primary approach and is 
consistent. And we also look to the Unified Facilities 
criteria.
    So I would say we are not doing anything extraordinary. We 
are just being prudent in our design and construction efforts 
of what is ongoing.
    Senator Schatz. Thank you, Mr. Chairman. Thank you all.
    Senator Moran. Senator Schatz, thank you.
    Just a couple of things to follow up on. Mr. Secretary, let 
me start with you. The Appropriations Act of 2017 requests the 
Secretary of Defense to provide future year defense plan, a 
FYDP, for Overseas Contingency Operations, OCO, military 
construction projects for each year in which military 
construction funds have been or will be requested in an OCO 
budget submission.
    The response back from the Secretary's office was, ``We do 
not know that. We do not have that information.'' Can you 
elaborate how we can better prepare for your request utilizing 
OCO in future budget years?
    Secretary Potochney. I am not sure, sir. You know, OCO by 
definition is responsive to the requirements of the 
contingencies. And so our priorities for being responsive I 
think are relatively clear, but the individual priorities are 
hard to predict, at least from my perspective, not being a 
warfighter. We are responsive to those priorities, so we are in 
a react mode. So I do not think that is a sufficient answer for 
your question, but that is the best I can do.
    Senator Moran. Well, in future, what point in time does the 
Department of Defense begin the process of determining whether 
or not OCO funds would be requested in a future year's budget 
request?
    Secretary Potochney. Well, they are reactive to COCOM 
Commander requirements. And so as they get generated in 
response to the situation and they get weighed against all 
other requirements of a similar priority and then we do the 
best we can to allocate the resources we have against them.
    Senator Moran. Would there be any planning and design money 
for future OCO so that its use is known early on?
    Secretary Potochney. I do think there is some?
    General Green. There was this year.
    Secretary Potochney. Yeah. This year there was some 
planning and design. And I think that is prudent, although it 
has not been done in the past.
    Senator Moran. And does that mean that planning money using 
OCO funds, the project would be funded through OCO funds?
    Secretary Potochney. I think so. Yes, sir.
    Senator Moran. Okay. Let me talk a moment about 
sequestration or let me give you all the opportunity to talk 
about sequestration. Again, Mr. Secretary, perhaps this is the 
place for you to speak for the branches, but sequestration will 
occur if no agreement is reached congressionally about spending 
caps. What does that mean for certainly what we are talking 
about today, but for our military's facilities in general?
    Secretary Potochney. Sir, it hurts us significantly. You 
know, as I said in my opening statement is that we do accept 
risk in facilities, but the dynamic that we have experienced 
recently has placed us so far behind that it is impacting our 
readiness in particular. And so if more sequestration, if you 
will, were to occur, it just puts us that much farther behind. 
It is just intolerable.
    Senator Moran. Is there a way that you quantify the risks 
that you are taking with this budget request, probabilities of 
challenges in facilities or is when you say then I think your 
testimony, or at least some of the testimony has been that we 
are taking risks with our budget requests. Is there a way to 
quantify what that risk is?
    Secretary Potochney. I will defer to the services for 
individual examples, but what we are saying is, you know, what 
is the probability of a roof failing, all right. You know, you 
can predict it or you can't predict it. And so and which roof 
are you talking about and what location is it and what climate 
and what does it have, et cetera, et cetera, et cetera.
    So when we say that we are accepting risk is we are looking 
at that in the aggregate, at least when I say it. Specifically, 
the services are making judgments on where to put their money 
individually at what bases by project. And so they are 
sometimes doing worse first, but also they are throwing money 
at those critical facilities that are most critical that need 
investment. And hospitals, for instance, are a good example, 
where you tolerate less. You can tolerate less quality. So that 
is how we do it. We do not have a number of it is 26 percent or 
something like that overall.
    Senator Moran. Before we go to the branches, let me say 
that I always ask the witnesses if they have anything they 
would like to add before I conclude the hearing, and I will do 
that on this topic of sequestration or OCO spending or level of 
risk, but anything else that you want to say. Before I do that, 
I want to direct a question to General Bingham, and that is 
about Sunflower Army Ammunition Plant, former ammunition plant 
in Kansas.
    In 2016, I hoped the Army Assistant Secretary for 
Installations, Secretary Hammack, to that facility. And it 
seemed to me that for a brief period of time that we were 
moving forward and trying to resolve the environmental and 
remediation problems associated with the abandonment of this 
ammunition plant, but it also now seems to me that progress has 
slowed to a crawl. And, General, if you could tell me what you 
know about this project and how we are going to get it back on 
track if my evaluation is correct, and then seek your 
commitment to resolve this to a full cleanup.
    General Bingham. Thank you, Chairman Moran. I appreciate 
the question.
    We feel that we are on track with the Sunflower former ammo 
plant. And point of fact, we have committed contract dollars to 
help with the cleanup efforts there, both on the soil 
remediation as well as the explosive hazard. To that end, we 
have taken on a more comprehensive health risk assessment just 
of late to help inform our way ahead.
    And so as we look to get back those results we believe it 
will help inform our way ahead such that we can go about the 
cleanup efforts associated at Sunflower.
    Senator Moran. I am not an expert at this and don't know 
how desirable this is, but a thing to think about, I think, is 
are there sections of this track or is there a track within 
this wide expanse of land that could be remediated and cleaned 
up and the property moved on and sold and developed in a sense 
in an incremental fashion? Are there things we can do that are 
less problematic and get them done? On the other hand, I do not 
want to let anybody off the hook to get the whole thing cleaned 
up, so I am wandering down a path that may not make sense. But 
I would love for that dialogue to continue to see if we can't 
find solutions that speed up the process.
    General Bingham. I understand, Chairman, where you are 
going with that and so we will look to where we can mitigate 
incrementally to help expedite that action. And we can come 
back to you and your staff to give you an update over the 
coming weeks or month.
    Senator Moran. I may have missed this and you probably said 
it, but I think I got your commitment to see that we get to a 
full cleanup.
    General Bingham. We are committed to that end.
    Senator Moran. Thank you, ma'am.
    Let me now ask if any of you have anything you want to make 
sure the committee knows, questions that we did not ask that 
you wish you could respond to. I cannot take away any questions 
that were asked, but if you would like to augment your 
responses, we would be willing to have that occur.
    General Green. Thank you, Mr. Chairman. You asked about 
sequestration and how we define risk. An example would be about 
a year ago, so there are several examples in the Air Force, but 
certainly when we talk about risk, we are saying we do not have 
the money to fix a problem that we believe we need to fix 
today. That is how we define risk.
    An example would be a storm drainage project at Andrews Air 
Force Base. It was not able to be funded for several years. We 
knew it was a requirement. And until that storm drain that ran 
underneath the runway at Andrews failed and we were no longer 
able to use that runway for launching and recovering aircraft, 
it was unfunded, so that was a risk. The good news is Andrews 
has two runways. We were able to mitigate it a little bit, but 
there's some pretty important missions that come off of that 
airfield.
    So there is examples like that around the Air Force and 
that is what we mean by risk. What is the Air Force doing about 
it? We are trying to prioritize our projects based upon a risk 
to mission or how important projects are that we need to do and 
then how likely are those facilities or installations to fail 
during the next iteration. And so we are looking at a risk to 
mission and a probability of failure as a means to do what we 
believe is the most important.
    Sometimes you hear it described as worst first, but it is 
not always the worst first because sometimes it is the mission 
driver and the probability of failure. So it is not necessarily 
the worst facility.
    And then I would add sequestration will be pretty 
devastating in that the effects are cascading, as I mentioned 
earlier. It is not an effort to fix it 1 year. It will take us 
several years if we moved projects out of the current fiscal 
year from a military construction. It will take us the rest of 
the FYDP to get this year's projects worked back in. So, again, 
it is a cascading effect over numerous years.
    And also, to me, continuing resolutions are equally 
challenging for us because the continuing resolution often 
means that our men and women are doing repeat work. And by 
that, I mean we will award contracts that are maybe for 
services and then with a continuing resolution we have to 
shorten the service, so contracting officers or rewriting it, 
renegotiating. And then when you get the money, you redo it 
again, so you may do the same effort two and three and four 
times versus one time. And it is the same airman who has that 
responsibility. Instead of looking forward, they are looking 
backward.
    And so both continuing resolutions and sequestration would 
give us a great deal of challenges and lost capability within 
the Air force. And I appreciate your time today, Senator. Thank 
you.
    General Broadmeadow. Senator, I just reiterate some of the 
things that General Green said, but some of the examples that 
we have, so our sustainment accounts, because we pay bills out 
here, we pay their near-term readiness bills on the backs of 
our infrastructure. This budget only reflects 75 percent of the 
sustainment requirements we have. We already have a $9 billion 
backlog in those accounts right now. So that is a tangible, you 
know, number that we can hang on there that is showing the 
impacts of what we are not doing.
    Likewise, with MILCON. We are prioritizing new item 
fielding, you know, specifically the F-35 and others. We hit 
those immediate life, health, and safety concerns, but we are 
not doing some of the other things that are on our priority 
list. You know, most particularly force protection type 
upgrades that are desperately needed out there along with a lot 
of quality of life type of new construction that we are not 
getting out in our--we have got about $5.8 billion worth of 
requirements that are not reflected in the budget today.
    I would also like to echo the comment about the continuing 
resolution and kind of tie that back a little bit to the 
planning effort. You know, as we operate under the continuing 
resolutions, we are deferring a lot of that planning and trying 
to pressurize that into the end of the fiscal year, push 
through a lot of that money once we get the big appropriation. 
So it puts a lot of pressure on us to get those planning 
efforts through the Marine Corps into NAVFAC and get them 
accomplished before the end of the fiscal year. So that is CR 
and the uncertainty that we feel from that is on top of the 
BCA's impacts.
    And finally, I probably should have said this in my opening 
statement. I do want to thank the committee very much for the 
$144 million that we got to recover from both the tornado 
damage down to Albany as well as the hurricane impacts to 
Parris Island and Beaufort. That money, while it is not a CR, 
really was helpful to us in fiscal year 2017 in helping us get 
those two bases back up to speed. So thank the committee and 
thank you for all that you do.
    Admiral Smith. Mr. Chairman, I would concur wholeheartedly 
with my shipmates on my port side with respect to the impact 
that sequestration and continuing resolutions have. 
Sequestration is impacting the Navy in total. I will only talk 
to the infrastructure, the shore side. We are paying a 
preponderance of the bills to support the warfighter and the 
operational Navy as we should be when resourcing is tight.
    Our facilities, restoration, sustainment and modernization 
program is increasing about $600 million a year in backlog. At 
the end of this year, we will be at an $8.4 billion backlog in 
FSRM account because of the funding challenges.
    You talk to risk. We have worked through and we now have 
put together a metric where we fund the most critical 
facilities and the most critical components within those 
facilities and that is where we focus our money. As a result of 
doing that, we are starting to see some gain in our most 
critical facilities and their conditions, but at the detriment 
of things that are less critical.
    Right now we have got just under 75,000 facilities--11,000 
of those are OSD's definition of failing, and we see that 
number going up to 20 percent of our 75,000 facilities by 2022. 
So we are taking risk definitely in the lower quadrant of those 
less significant facilities and that risk is defined of, to 
General's comment, when it fails is when we go fix it. So it is 
challenging and we are resource constrained.
    Finally, thank you again for all your support, this 
committee's support. I appreciate the opportunity to appear 
before you today. Thank you.
    General Bingham. Thank you, Mr. Chairman.
    I would say we assess our infrastructure as a significant 
risk. Basically, as we talk about the 22 percent that are in 
poor and failing condition, that is the reason why we assess 
that as significant risk. But we want to make sure that our 
soldiers never go into a fair fight and so we understand how we 
got here.
    To the topic of sequestration and CR like my fellow 
colleagues have already said, that would have a devastating 
impact on our men and women, not only the morale, but also the 
state of our affairs of our infrastructure. So while this 
fiscal year 2018 budget arrests that degradation I talked 
about, sequestration and CR will just put us back or set us 
back and so we do not want to see ourselves doing that.
    I would say that where it relates to BRAC and should the 
Administration support one, the Army and I am sure the 
Department would benefit from a base realignment and closure to 
help us with that excess infrastructure that we have talked 
about.
    And finally, I would like to say thank you again to you, 
Ranking Member Schatz, and the entire subcommittee for your 
support of our men and women serving in harm's way. We greatly 
appreciate it. Thank you.
    Senator Moran. Thank you all very much.
    I would say just a couple of things. One, I actually hope 
that when we have a serious discussion about infrastructure, 
and the President is and the Administration is fully engaged in 
this topic of infrastructure, that we do not forget the 
opportunity to invest in infrastructure for Federal buildings 
and military installations.
    Part of that is growing the economy and investing in our 
future and a lot of backlog and projects could be accomplished 
as part of that program. It also is part of the goal of putting 
more people to work. It creates greater opportunities in that 
regard as well.
    One of my goals as a member of the United States Senate is 
to get the Senate to function and to function better. And the 
appropriations process is a great place in which we can 
demonstrate that can occur. And I am having constant 
conversations with Republican and Democrat leaders in the 
Senate to make sure that negotiations are pursued in regard to 
a budget number. That, if we can accomplish and have agreement, 
both bicamerally and bipartisan, with bipartisanship, and with 
the Executive Branch, we could avoid what you all described as 
a seriously damaging circumstance, either sequestration or a 
continuing resolution because we cannot reach an agreement.
    Continuing resolutions are poor government. They suggest 
that every spending item has the same or equal priority with 
each other. And it also reduces the chance that we have to deal 
with agencies and departments and to have our views known on 
behalf of the American people about how money should be 
prioritized and it's spending.
    So we are your allies in every way that I know how to make 
certain that sequestration and or a continuing resolution does 
not occur.
    And again, as Senator Schatz indicated, on this D-Day we 
express our gratitude to all those who served our country in 
the past and all of you who served our nation today.
    Senator Schatz, anything? Very good. I appreciate your 
cooperation in regard to the hearing today and I want to thank 
again our witnesses for being here. Thank you for your kind 
comments.
    This, I think, has been a productive--I meant from my 
perspective. It has been a productive session and I look 
forward to continuing to work closely with you to improve the 
quality of life. I think that is another point that you well 
made, particularly here in these concluding remarks, is we 
think of infrastructure as buildings. And in so many instances, 
those buildings are a way of life, a quality of life, and 
wellbeing for those men and women who serve our nation. It is 
more than just a facility.
    I know in our case at Fort Riley the ability to have 
quality schools and adequate healthcare. Good housing is a 
significant component of why men and women are able to follow 
their urge to serve their country and have the ability to have 
some sense that their families are well cared for as they do 
so.

                     ADDITIONAL COMMITTEE QUESTIONS

    For members of the subcommittee, any questions for the 
record should be turned into subcommittee staff no later than 
Tuesday, June 13th.
             Questions Submitted to Hon. Peter J. Potochney
               Questions Submitted by Senator Marco Rubio
    Question. The Air Force Development Test Center's (AFDTC) overall 
mission is to plan conduct, and evaluate testing of U.S. and allied 
nonnuclear munitions, electronic combat, target acquisitions, weapon 
delivery, base intrusion protection, and supporting systems. AFDTC 
carries out this work at Eglin Air Force Base, FL, whose land test 
areas encompass 463,000 acres, and water test areas cover 86,500 square 
miles in the Gulf of Mexico, the largest Department of Defense test and 
training area in the world. In order to continue to conduct safe but 
robust testing of our military's newest munitions and systems, deployed 
by our fastest and longest-range aircraft, surface, and subsurface 
vessels, test and training range instrumentation must be modernized. 
What does the Pentagon plan to do to ensure our ranges continue to 
provide the most modern capability for training and testing of our 
warfighters and weapon programs?
    Answer. The Department has sought and Congress provided statutory 
authority to expand the flexibility for investments to improve 
facilities and equipment for research, development, test, and 
evaluation (RDT&E) activities. My office is working with our RDT&E 
facility managers to fully use these authorities and encourage them to 
be more entrepreneurial by partnering with other Federal entities and 
the private sector to invest in our organic strategic RDT&E assets.
    Question. As you know, in 2009 the Navy announced its plan to 
homeport an aircraft carrier at Mayport. Following this announcement, 
in the 2010 Quadrennial Defense Review, DoD confirmed the Navy's 
decision to base an aircraft carrier at Mayport. I raise this issue 
again today because these plans were to have an aircraft carrier at 
Mayport in 2019. In your testimony, you mention the 2017 Unfunded 
Priority List addresses additional funding to critical shore 
infrastructure and Navy readiness. How many 2018 Unfunded Priority List 
projects are associated with supporting a nuclear carrier at Mayport? 
Does the Navy plan to list any MILCON projects associated with a 
nuclear carrier move to Mayport on future Unfunded Priority Lists?
    Answer. There are no projects on the fiscal year 18 Unfunded 
Priority List associated with homeporting a CVN in Mayport, and there 
are no future MILCON projects planned at this time. The Navy's current 
Strategic Laydown and Dispersal Plan (SLD17) does not homeport a 
nuclear aircraft carrier (CVN) in Mayport because current fiscal 
constraints dictate that the Navy continue to defer investment in 
another East Coast CVN homeport. SLD18 will re-evaluate the strategic 
dispersal of our CVN force in light of the current fiscal and strategic 
environment.
    Question. As of today, none of the work necessary for this to 
happen has not begun, nor made the unfunded list. I understand the 
difficult fiscal climate our military has been forced into, but it is 
not strategically acceptable to base four and soon to be five of our 
nation's most expensive assets in one location. Have we not learned 
from history as to what happens when you do this? I want to make it 
clear; I will not back down on this issue until the Pentagon meets this 
commitment for the good of our nation. The 2010 Quadrennial Defense 
Review endorsed the Navy's request, stating ``to mitigate the risk of a 
terrorist attack, accident, or natural disaster, the U.S. Navy will 
homeport an East Coast carrier in Mayport, Florida.'' Then-Chief of 
Naval Operations Admiral Gary Roughead testified to congress during 
fiscal year 2017 budget hearings, saying ``while there is an upfront 
cost to upgrade Naval Station Mayport to support our nuclear aircraft 
carriers, Mayport has been a carrier homeport since 1952 and is the 
most cost-effective means to achieve strategic dispersal on the East 
Coast. The national security benefits of this additional homeport far 
outweigh these costs.''
    Answer. The Navy remains committed to the strategic dispersal of 
the CVN force. Additional East Coast CVN homeports would reduce risk 
and provide strategic flexibility in the event of natural disaster, 
manmade calamity, or attack. Current fiscal constraints dictate that 
the Navy continue to defer the investment in another East Coast CVN 
homeport. The Navy's current SLD Plan (SLD17) does not reflect another 
East Coast CVN homeport; however, SLD18 will re-evaluate the strategic 
dispersal of our CVN force in light of the fiscal and strategic 
environment.
    Question. Some military construction appropriations necessary to 
enable the U.S. Navy to carry out its plan to homeport a CVN at Mayport 
have been appropriated and completed, such as harbor dredging and some 
pier and infrastructure improvements. However, other necessary projects 
have been deferred since fiscal year 2013. In its fiscal year 2013 
budget submission, the U.S. Navy stated ``Although the fiscal year 2013 
budget does not contain a construction project supporting the 
homeporting of a CVN in Mayport, FL, the Department [of the Navy] is 
committed to the requirement and policy to strategically disperse CVNs 
on each coast. This is a deferral at this time due to fiscal 
constraints.'' Does the Navy intend to request the necessary funds to 
meet this need?
    Answer. No. The Navy's current Strategic Laydown and Dispersal Plan 
(SLD17) does not reflect another East Coast CVN homeport in Mayport; 
however, SLD18 will re-evaluate the strategic dispersal of our CVN 
force in light of the current fiscal and strategic environment.
    Question. Do you believe the Navy's cost estimate accurately 
depicts the costs of homeporting an aircraft carrier at Mayport today? 
If not, should this cost estimate be update to better reflect the 
reduced costs due to improvements and enhancements made to Mayport 
since the 2011 cost estimate?
    Answer. Port loading at NS Mayport has changed since the last cost 
estimate, including the addition of an Amphibious Readiness Group and 
Littoral Combat Ships. In the event an aircraft carrier is programmed 
at NS Mayport in the future, a new cost estimate would be needed to 
reflect current economic and operational conditions.
    Question. What is the risk of a catastrophic event damaging 
Atlantic Coast CVN homeporting facilities, and how might that risk be 
altered by homeporting a CVN at Mayport?
    Answer. The Navy remains committed to the strategic dispersal of 
the CVN force. Additional East Coast CVN homeports would reduce risk 
and provide strategic flexibility in the event of natural disaster, 
manmade calamity, or attack. Current fiscal constraints dictate that 
the Navy continue to defer the investment to build new capacity or 
repurpose existing infrastructure to develop another East Coast CVN 
homeport. The Navy's current SLD Plan (SLD17) does not reflect another 
East Coast CVN homeport; however, SLD18 will re-evaluate the strategic 
dispersal of our CVN force in light of the fiscal and strategic 
environment.
    Question. If a catastrophic event were to damage Atlantic Coast CVN 
homeporting facilities, what would be the operational impact on the 
Navy, and how quickly could the Navy repair the damage and return to 
normal operations?
    Answer. The Navy remains committed to the strategic dispersal of 
the CVN force. Additional East Coast CVN homeports would reduce risk 
and provide strategic flexibility in the event of natural disaster, 
manmade calamity, or attack. Specific operational impact and downtime 
to the Navy from a catastrophic event depends on the criticality of the 
activity and the type, magnitude, and duration of the event. Current 
fiscal constraints dictate that the Navy continue to defer the 
investment in another East Coast CVN homeport. The Navy's current SLD 
Plan (SLD17) does not reflect another East Coast CVN homeport; however, 
SLD18 will re-evaluate the strategic dispersal of our CVN force in 
light of the fiscal and strategic environment.
    Question. Are the costs associated with homeporting a CVN at 
Mayport worth the benefits in terms of hedging against the risk of a 
catastrophic event damaging Atlantic Coast CVN homeporting facilities?
    Answer. The Navy remains committed to the strategic dispersal of 
the CVN force. Additional East Coast CVN homeports would reduce risk 
and provide strategic flexibility in the event of natural disaster, 
manmade calamity, or attack. Current fiscal constraints dictate that 
the Navy continue to defer the investment to build new capacity or 
repurpose existing infrastructure to develop another East Coast CVN 
homeport. The Navy's current SLD Plan (SLD17) does not reflect another 
East Coast CVN homeport; however, SLD18 will re-evaluate the strategic 
dispersal of our CVN force in light of the fiscal and strategic 
environment.
    Question. Has the Navy accurately estimated the nonrecurring and 
recurring costs of homeporting a CVN at Mayport?
    Answer. No, the Navy's cost estimate, last completed in 2010, does 
not accurately depict the recurring and nonrecurring costs of 
homeporting a nuclear aircraft carrier (CVN) at Naval Station (NS) 
Mayport today. Port loading at NS Mayport has changed since 2010, due 
to an additional Amphibious Readiness Group and Littoral Combat Ships. 
The Navy's Strategic Laydown and Dispersal Plan (SLD18) will re-
evaluate the strategic dispersal of our CVN force in light of the 
current fiscal and strategic environment.
    Question. Has the Navy accurately assessed the relative merits of 
Norfolk and Mayport in terms of transit times to key overseas operating 
areas and training ranges?
    Answer. Norfolk has a slight advantage over Mayport in transit time 
to key overseas operating areas, being approximately 400 nautical miles 
closer to the Strait of Gibraltar, the first chokepoint en route to the 
key overseas Carrier Strike Group operating areas of the Mediterranean 
Sea and the Arabian Gulf from the East Coast. This represents an 
approximately 24 hour shorter transit from Norfolk, depending on 
transit speed. Norfolk offers similar or slightly greater advantages 
for transits to the North Atlantic, depending on the precise 
destination. Norfolk and Mayport both provide acceptable proximity to 
Atlantic training ranges.
    Question. Has the Navy accurately assessed vulnerability-related 
factors at Norfolk and Mayport, including the risk of a natural or man-
made catastrophic event damaging CVN homeporting facilities, and the 
Navy's ability to defend against such an event at either site?
    Answer. The Navy uses the Mission Assurance Assessment process to 
accurately assess vulnerability-related factors to mission essential 
functions at Norfolk and Mayport. The Navy's current Strategic Laydown 
and Dispersal Plan (SLD17) does not homeport a nuclear aircraft carrier 
(CVN) in Mayport; consequently, the Mayport assessment does not include 
CVN homeporting facilities. SLD18 will re-evaluate the strategic 
dispersal of our CVN force in light of the current fiscal and strategic 
environment.
    Question. Has the Navy overlooked or not given adequate weight to 
other factors in evaluating the merits of Mayport and Norfolk as Navy 
home ports. Such as: The ability of private ship repair firms in 
Northeast Florida to support the maintenance requirements of a CVN? The 
readiness and cost impacts of the aircraft carrier homeporting and 
maintenance at Mayport on the Navy's traveling workforce? The 
interaction of the base facilities at Mayport or Norfolk with other 
regional military facilities (such as naval air stations)? The possible 
effect of CVN homeporting on Navy recruiting in the area surrounding 
the home port?
    Answer. The Navy's Strategic Laydown and Dispersal (SLD) process 
considers multiple factors when determining homeporting solutions, such 
as fiscal and operational impacts, ship maintenance facilities (public 
and private shipyards), training support, logistical support, 
environmental concerns, and capacity/availability of base support 
facilities. SLD18 will re-evaluate the strategic dispersal of our CVN 
force in light of the current fiscal and strategic environment.
    Question. Should the current climate escalate to threatening 
levels, do you believe the Military Construction requests for the EUCOM 
AOR will allow for a potential rapid buildup of forces? If not, what 
measures must be taken to ensure our forces have the infrastructure 
necessary should they require it?
    Answer. The military construction projects targeted for the EUCOM 
area of responsibility are intended to meet future known mission 
requirements. Providing facilities for a rapid buildup of forces is 
generally not a primary purpose of the military construction program. 
In most cases, a rapid buildup of forces will outpace the provision of 
facilities. In response to such large buildups, the Department does 
have the capacity to install temporary facilities in the near-term and 
follow that up with more permanent facilities, as needed.
    Question. Should the current climate escalate to threatening 
levels, do you believe the Military Construction requests for the EUCOM 
AOR will allow for a potential rapid buildup of forces? If not, what 
measures must be taken to ensure our forces have the infrastructure 
necessary should they require it?
    Answer. Yes. The Navy maintains constant and open dialogue with 
EUCOM to ensure infrastructure requirements that support force 
structure in the EUCOM AOR are well understood and deliberately 
programmed. We appreciate Congress' support of the European Reassurance 
Initiative to help meet these needs.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    Question. Pier 32 at the New London Submarine Base is desperately 
in need of an upgrade to meet safety and security requirements. My 
understanding is that the piers construction planned for fiscal year 19 
has now been delayed for several more years-can you please explain this 
delay and the new anticipated construction date? Further, will the new 
Pier 32 be designed and built to meet length and width requirements for 
Block V and beyond VPM-enabled boats?
    Answer. The Navy prioritizes our military construction budget 
request every fiscal year to ensure we provide maximum support for 
warfighting readiness within fiscal constraints. As a result, specific 
projects beyond the budget year often fluctuate. Although the fiscal 
year 2019 budget request is still pre-decisional, the Navy will 
continue planning and design efforts in fiscal year 2018 for a future 
project to replace SSN berthing at Pier 32. The military construction 
project for Pier 32, as currently planned, does not support BLK V with 
VPM requirements. While project's scope and cost are not finalized at 
this time, the latest analysis shows that Piers 31 and 17 are better 
suited to be lengthened to support VPM-enabled boats.
    Question. Will the Navy be using part of the $240 million 
additional funding in fiscal year 17 marked to restore readiness to 
accelerate the planning for the engineered overhaul of the USS Boise to 
return it to the fleet a year earlier than planned?
    Answer. The Navy is dedicated to accomplishing crucial maintenance 
on operational submarines and delivering mission ready assets to the 
Fleet in a timely manner. To this end, the Navy issued a competitive 
solicitation of the USS BOISE (SSN 764) Engineered Overhaul (EOH) on 
March 17, 2017, and is in the process of conducting a limited 
competition between General Dynamics Electric Boat and Huntington 
Ingalls Industries-Newport News Shipbuilding. While the capacity and 
capability may exist in the private sector in the mid-2018 to start 
execution of BOISE's EOH, the Navy's ability to accelerate this 
procurement is constrained by the planning effort required, 
availability of funds, and acquisition timeline. Planning for this 
major availability requires 12 to 15 months of effort. The planning 
effort is currently budgeted for fiscal year (FY) 2018 which will 
result in the EOH starting in fiscal year 2019 due to the required 
planning timeline. The additional Operation and Maintenance funding in 
fiscal year 2017 was prioritized for other critical readiness needs. 
Although beginning the BOISE EOH earlier is highly unlikely due to 
these constraints, the Navy will continue to review and pursue viable 
opportunities for acceleration during the planning process.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
    Question. In addition to near peer competitors, there is open 
source reporting on the proliferation of small off-the-shelf drones 
being utilized in Syria and Iraq to provide Intelligence, Surveillance, 
and Reconnaissance and offensive capability against the United States 
and coalition troops. Likewise commercial drones have been sighted near 
many U.S. bases, raising concerns that adversaries could be surveilling 
these facilities. Force Protection in mind when it comes to military 
construction. How concerned are you with the proliferation of this 
technology? And how are you working to ensure that bases and new 
projects are protected from this capability?
    Answer. Commercial, small Unmanned Aircraft Systems (sUAS) 
proliferation is an emergent issue posing challenges domestically and 
abroad, and presenting unique policy and legal issues. These systems 
are difficult to detect, track, identify and defeat, with recent 
incursions over critical facilities in the US highlighting the 
potential risk associated with sUAS attacks. The fiscal year 2017 
National Defense Authorization Act authorized the Secretary of Defense 
to protect assets and facilities related to DoD's nuclear deterrent, 
missile defense, and space missions against sUAS threats. Efforts under 
this authority are underway, led by the Air Force and Navy. The 
Department is also working to expand the categories of assets and 
facilities protected from unmanned aircraft threats, to include 
assessing the cost implications of threat mitigation.
    Question. In addition to near peer competitors, there is open 
source reporting on the proliferation of small off-the-shelf drones 
being utilized in Syria and Iraq to provide Intelligence, Surveillance, 
and Reconnaissance and offensive capability against the United States 
and coalition troops. Likewise commercial drones have been sighted near 
many U.S. bases, raising concerns that adversaries could be surveilling 
these facilities. Force Protection in mind when it comes to military 
construction. How concerned are you with the proliferation of this 
technology? And how are you working to ensure that bases and new 
projects are protected from this capability?
    Answer. The Department of Defense is very concerned about the 
potential use of commercial drones for surveillance of our bases and 
other assets. Additional information regarding Navy concerns can be 
provided in a classified briefing, if requested.
                                 ______
                                 
      Questions Submitted to Lieutenant General Gwendolyn Bingham
               Question Submitted by Senator Marco Rubio
                               eucom aor
    Question. Should the current climate escalate to threatening 
levels, do you believe the Military Construction requests for the EUCOM 
AOR will allow for a potential rapid buildup of forces? If not, what 
measures must be taken to ensure our forces have the infrastructure 
necessary should they require it?
    Answer. The Army MILCON investments within the EUCOM AOR under the 
European Deterrence Initiative (EDI) support National Defense Strategy 
(NDS) requirements. Army infrastructure requirements will continually 
be updated based on the evolving and dynamic operating environment and 
the Combatant Commander's assessment of threat and risk.
                                 ______
                                 
                Question Submitted by Senator Tom Udall
                           commercial drones
    Question. In addition to near peer competitors, there is open 
source reporting on the proliferation of small off-the-shelf drones 
being utilized in Syria and Iraq to provide Intelligence, Surveillance, 
and Reconnaissance and offensive capability against the United States 
and coalition troops. Likewise commercial drones have been sighted near 
many U.S. bases, raising concerns that adversaries could be surveilling 
these facilities. Force Protection in mind when it comes to military 
construction. How concerned are you with the proliferation of this 
technology? And how are you working to ensure that bases and new 
projects are protected from this capability?
    Answer. Army Senior Leaders are very concerned about the potential 
threats posed from this technology, and are working to ensure all Army 
facilities, assets and installations, including any new construction 
are resilient to the Unmanned Aerial Systems (UAS) threat. Terrorism 
threats and threats from direct and indirect fire are already 
incorporated in Unified Facilities Criteria (UFC) 4-020-01, DoD 
Security Engineering Facilities Planning Manual which serves as a guide 
for all our construction designs. The Army will work further updates to 
this guide based on the evolution of UAS threats.
                                 ______
                                 
           Questions Submitted to Vice Admiral Dixon R. Smith
               Questions Submitted by Senator Marco Rubio
    Question. As you know, in 2009 the Navy announced its plan to 
homeport an aircraft carrier at Mayport. Following this announcement, 
in the 2010 Quadrennial Defense Review, DoD confirmed the Navy's 
decision to base an aircraft carrier at Mayport. I raise this issue 
again today because these plans were to have an aircraft carrier at 
Mayport in 2019.
    In your testimony, you mention the 2017 Unfunded Priority List 
addresses additional funding to critical shore infrastructure and Navy 
readiness. How many 2018 Unfunded Priority List projects are associated 
with supporting a nuclear carrier at Mayport? Does the Navy plan to 
list any MILCON projects associated with a nuclear carrier move to 
Mayport on future Unfunded Priority Lists?
    Answer. There are no projects on the fiscal year 18 Unfunded 
Priority List associated with homeporting a CVN in Mayport, and there 
are no future MILCON projects planned at this time. The Navy's current 
Strategic Laydown and Dispersal Plan (SLD17) does not homeport a 
nuclear aircraft carrier (CVN) in Mayport because current fiscal 
constraints dictate that the Navy continue to defer investment in 
another East Coast CVN homeport. SLD18 will re-evaluate the strategic 
dispersal of our CVN force in light of the current fiscal and strategic 
environment.
    Question. As of today, none of the work necessary for this to 
happen has not begun, nor made the unfunded list. I understand the 
difficult fiscal climate our military has been forced into, but it is 
not strategically acceptable to base four and soon to be five of our 
nation's most expensive assets in one location. Have we not learned 
from history as to what happens when you do this? I want to make it 
clear; I will not back down on this issue until the Pentagon meets this 
commitment for the good of our nation.
    The 2010 Quadrennial Defense Review endorsed the Navy's request, 
stating ``to mitigate the risk of a terrorist attack, accident, or 
natural disaster, the U.S. Navy will homeport an East Coast carrier in 
Mayport, Florida.'' Then-Chief of Naval Operations Admiral Gary 
Roughead testified to congress during fiscal year 2017 budget hearings, 
saying ``while there is an upfront cost to upgrade Naval Station 
Mayport to support our nuclear aircraft carriers, Mayport has been a 
carrier homeport since 1952 and is the most cost-effective means to 
achieve strategic dispersal on the East Coast. The national security 
benefits of this additional homeport far outweigh these costs.''
    Answer. The Navy remains committed to the strategic dispersal of 
the CVN force. Additional East Coast CVN homeports would reduce risk 
and provide strategic flexibility in the event of natural disaster, 
manmade calamity, or attack. Current fiscal constraints dictate that 
the Navy continue to defer the investment in another East Coast CVN 
homeport.
    The Navy's current SLD Plan (SLD17) does not reflect another East 
Coast CVN homeport; however, SLD18 will re-evaluate the strategic 
dispersal of our CVN force in light of the fiscal and strategic 
environment.
    Question. Some military construction appropriations necessary to 
enable the U.S. Navy to carry out its plan to homeport a CVN at Mayport 
have been appropriated and completed, such as harbor dredging and some 
pier and infrastructure improvements. However, other necessary projects 
have been deferred since fiscal year 2013. In its fiscal year 2013 
budget submission, the U.S. Navy stated ``Although the fiscal year 2013 
budget does not contain a construction project supporting the 
homeporting of a CVN in Mayport, FL, the Department [of the Navy] is 
committed to the requirement and policy to strategically disperse CVNs 
on each coast. This is a deferral at this time due to fiscal 
constraints.'' Does the Navy intend to request the necessary funds to 
meet this need?
    Answer. No. The Navy's current Strategic Laydown and Dispersal Plan 
(SLD17) does not reflect another East Coast CVN homeport in Mayport; 
however, SLD18 will re-evaluate the strategic dispersal of our CVN 
force in light of the current fiscal and strategic environment.
    Question. Do you believe the Navy's cost estimate accurately 
depicts the costs of homeporting an aircraft carrier at Mayport today? 
If not, should this cost estimate be update to better reflect the 
reduced costs due to improvements and enhancements made to Mayport 
since the 2011 cost estimate?
    Answer. No, the Navy's cost estimate, last completed in 2010, does 
not accurately depict the costs of homeporting a nuclear aircraft 
carrier (CVN) at Naval Station (NS) Mayport today. Port loading at NS 
Mayport has changed since 2010, due to an additional Amphibious 
Readiness Group and Littoral Combat Ships. The Navy's Strategic Laydown 
and Dispersal Plan (SLD18) will re- evaluate the strategic dispersal of 
our CVN force in light of the current fiscal and strategic environment.
    Question. What is the risk of a catastrophic event damaging 
Atlantic Coast CVN homeporting facilities, and how might that risk be 
altered by homeporting a CVN at Mayport?
    Answer. The Navy remains committed to the strategic dispersal of 
the CVN force. Additional East Coast CVN homeports would reduce risk 
and provide strategic flexibility in the event of natural disaster, 
manmade calamity, or attack.
    Current fiscal constraints dictate that the Navy continue to defer 
the investment to build new capacity or repurpose existing 
infrastructure to develop another East Coast CVN homeport.
    The Navy's current SLD Plan (SLD17) does not reflect another East 
Coast CVN homeport; however, SLD18 will re-evaluate the strategic 
dispersal of our CVN force in light of the fiscal and strategic 
environment.
    Question. If a catastrophic event were to damage Atlantic Coast CVN 
homeporting facilities, what would be the operational impact on the 
Navy, and how quickly could the Navy repair the damage and return to 
normal operations?
    Answer. The Navy remains committed to the strategic dispersal of 
the CVN force. Additional East Coast CVN homeports would reduce risk 
and provide strategic flexibility in the event of natural disaster, 
manmade calamity, or attack. Specific operational impact and downtime 
to the Navy from a catastrophic event depends on the criticality of the 
activity and the type, magnitude, and duration of the event.
    Current fiscal constraints dictate that the Navy continue to defer 
the investment in another East Coast CVN homeport.
    The Navy's current SLD Plan (SLD17) does not reflect another East 
Coast CVN homeport; however, SLD18 will re-evaluate the strategic 
dispersal of our CVN force in light of the fiscal and strategic 
environment.
    Question. Are the costs associated with homeporting a CVN at 
Mayport worth the benefits in terms of hedging against the risk of a 
catastrophic event damaging Atlantic Coast CVN homeporting facilities?
    Answer. The Navy remains committed to the strategic dispersal of 
the CVN force. Additional East Coast CVN homeports would reduce risk 
and provide strategic flexibility in the event of natural disaster, 
manmade calamity, or attack.
    Current fiscal constraints dictate that the Navy continue to defer 
the investment to build new capacity or repurpose existing 
infrastructure to develop another East Coast CVN homeport.
    The Navy's current SLD Plan (SLD17) does not reflect another East 
Coast CVN homeport; however, SLD18 will re-evaluate the strategic 
dispersal of our CVN force in light of the fiscal and strategic 
environment.
    Question. Has the Navy accurately estimated the nonrecurring and 
recurring costs of homeporting a CVN at Mayport?
    Answer. No, the Navy's cost estimate, last completed in 2010, does 
not accurately depict the recurring and nonrecurring costs of 
homeporting a nuclear aircraft carrier (CVN) at Naval Station (NS) 
Mayport today. Port loading at NS Mayport has changed since 2010, due 
to an additional Amphibious Readiness Group and Littoral Combat Ships. 
The Navy's Strategic Laydown and Dispersal Plan (SLD18) will re-
evaluate the strategic dispersal of our CVN force in light of the 
current fiscal and strategic environment.
    Question. Has the Navy accurately assessed the relative merits of 
Norfolk and Mayport in terms of transit times to key overseas operating 
areas and training ranges?
    Answer. Norfolk has a slight advantage over Mayport in transit time 
to key overseas operating areas, being approximately 400 nautical miles 
closer to the Strait of Gibraltar, the first chokepoint en route to the 
key overseas Carrier Strike Group operating areas of the Mediterranean 
Sea and the Arabian Gulf from the East Coast. This represents an 
approximately 24 hour shorter transit from Norfolk, depending on 
transit speed. Norfolk offers similar or slightly greater advantages 
for transits to the North Atlantic, depending on the precise 
destination. Norfolk and Mayport both provide acceptable proximity to 
Atlantic training ranges.
    Question. Has the Navy accurately assessed vulnerability-related 
factors at Norfolk and Mayport, including the risk of a natural or man-
made catastrophic event damaging CVN homeporting facilities, and the 
Navy's ability to defend against such an event at either site?
    Answer. The Navy uses the Mission Assurance Assessment process to 
accurately assess vulnerability- related factors to mission essential 
functions at Norfolk and Mayport. The Navy's current Strategic Laydown 
and Dispersal Plan (SLD17) does not homeport a nuclear aircraft carrier 
(CVN) in Mayport; consequently, the Mayport assessment does not include 
CVN homeporting facilities. SLD18 will re-evaluate the strategic 
dispersal of our CVN force in light of the current fiscal and strategic 
environment.
    Question. Has the Navy overlooked or not given adequate weight to 
other factors in evaluating the merits of Mayport and Norfolk as Navy 
home ports.
    Such as:

  --The ability of private ship repair firms in Northeast Florida to 
        support the maintenance requirements of a CVN?
  --The readiness and cost impacts of the aircraft carrier homeporting 
        and maintenance at Mayport on the Navy's traveling workforce?
  --The interaction of the base facilities at Mayport or Norfolk with 
        other regional military facilities (such as naval air 
        stations)?
  --The possible effect of CVN homeporting on Navy recruiting in the 
        area surrounding the home port?

    Answer. The Navy's Strategic Laydown and Dispersal (SLD) process 
considers multiple factors when determining homeporting solutions, such 
as fiscal and operational impacts, ship maintenance facilities (public 
and private shipyards), training support, logistical support, 
environmental concerns, and capacity/availability of base support 
facilities. SLD18 will re-evaluate the strategic dispersal of our CVN 
force in light of the current fiscal and strategic environment.
    Question. Do you believe it is strategically responsible to have 
all East coast aircraft carriers in a single central location?
    Answer. The Navy remains committed to the strategic dispersal of 
the CVN force. Additional East Coast CVN homeports would reduce risk 
and provide strategic flexibility in the event of natural disaster, 
manmade calamity, or attack.
    Current fiscal constraints dictate that the Navy continue to defer 
the investment to build new capacity or repurpose existing 
infrastructure to develop another East Coast CVN homeport.
    The Navy's current SLD Plan (SLD17) does not reflect another East 
Coast CVN homeport; however, SLD18 will re-evaluate the strategic 
dispersal of our CVN force in light of the fiscal and strategic 
environment.
    Question. Your testimony highlighted investing in Cyber Warfare and 
Supporting Combatant Commanders yet fiscal year 18 woefully underfunds 
both areas. Cyber Warfare received funding for only one MILCON project 
and support to Combatant Commands amounted to less than 10 percent of 
the budget.
    Do you plan to increase the priority and funding for these two 
critical areas? Are funding levels of Cyber and Information Warfare 
Training Centers such as Corry Station adequate to meet rising Cyber 
force demands?
    Answer. The Navy's Shore Mission Integration Group performs a 
rigorous review and assessment annually in order to prioritize hundreds 
of valid facility investment requirements across all strategic 
initiatives and warfare enterprises, including Cyber Warfare, within 
current fiscal constraints. Priority is placed on capital investment 
projects that will prevent mission failure, increase facility 
optimization, and sustain critical power, cyber-security and utility 
capacity. The Navy is sustaining infrastructure investment levels 
necessary to support key Cyber Warfare requirements.
    Question. The creation of CYBERCOM calls for an increase in 
critical skilled workforce that will need to be trained and retrained. 
Joint-service Department of Defense training centers such as Corry 
Station in Pensacola, FL are vital to meeting the cybersecurity demand. 
In the case of Corry Station, how does the Navy plan to improve the 
training facilities? In some cases, there were students training in 
World War era hangars.
    Answer. Through the Navy's Manpower, Personnel, Training and 
Education Enterprise Global Shore Infrastructure Plan, facilities that 
support readiness and training are constantly assessed and prioritized 
for targeted investment within current fiscal constraints. To that end, 
the Navy is closely aligned with Cyber Command to ensure infrastructure 
requirements that support new and expanding missions, including 
training cyber warriors at Corry Station, are well understood and 
deliberately programmed.
    Question. Should the current climate escalate to threatening 
levels, do you believe the Military Construction requests for the EUCOM 
AOR will allow for a potential rapid buildup of forces? If not, what 
measures must be taken to ensure our forces have the infrastructure 
necessary should they require it?
    Answer. Yes. The Navy maintains constant and open dialogue with 
EUCOM to ensure infrastructure requirements that support force 
structure in the EUCOM AOR are well understood and deliberately 
programmed. We appreciate Congress' support of the European Reassurance 
Initiative to help meet these needs.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
    Question. The Navy will experience the impacts of climate change 
sooner rather than later as sea levels rise and wreak havoc on our 
Naval bases. For example Norfolk has already experienced severe 
flooding. This is only the beginning. In light of the President's 
decision to pull out of the Paris agreement and the likely worsening of 
the impacts of climate change that will result how is the Navy 
preparing its construction projects to mitigate against this threat 
along the coastline?
    Answer. The Navy is incorporating the risks of sea level change 
into its Military Construction planning and risk management processes 
in order to mitigate their effects, including:

  --Addressing potential climate impacts in risk-based threat hazard 
        and vulnerability assessment protocols supporting the critical 
        infrastructure program and mission assurance policies.
  --Considering climate effects in encroachment management programs 
        when assessing potential threats to the viability of, and 
        continued access to, areas needed to conduct military testing 
        and training required to maintain mission capabilities.
  --Revising Department of Defense Unified Facilities Criteria to 
        incorporate the impacts of sea level change, storm surge and 
        extreme weather over the life-cycle of a Military Construction 
        project.
  --For current and future projects located in 100-year floodplain(s), 
        we have assessed flood hazards and vulnerabilities during 
        design and implementing necessary mitigation efforts.

    Question. In addition to near peer competitors, there is open 
source reporting on the proliferation of small off-the-shelf drones 
being utilized in Syria and Iraq to provide Intelligence, Surveillance, 
and Reconnaissance and offensive capability against the United States 
and coalition troops.
    Likewise commercial drones have been sighted near many U.S. bases, 
raising concerns that adversaries could be surveilling these 
facilities. Force Protection in mind when it comes to military 
construction. How concerned are you with the proliferation of this 
technology? And how are you working to ensure that bases and new 
projects are protected from this capability?
    Answer. The Department of Defense is very concerned about the 
potential use of commercial drones for surveillance of our bases and 
other assets. Additional information regarding Navy concerns can be 
provided in a classified briefing, if requested.
                                 ______
                                 
           Questions Submitted by Senator Christopher Murphy
    Question. Pier 32 at the New London Submarine Base is desperately 
in need of an upgrade to meet safety and security requirements. My 
understanding is that the piers construction planned for fiscal year 19 
has now been delayed for several more years-can you please explain this 
delay and the new anticipated construction date? Further, will the new 
Pier 32 be designed and built to meet length and width requirements for 
Block V and beyond VPM-enabled boats?
    Answer. The Navy prioritizes our military construction budget 
request every fiscal year to ensure we provide maximum support for 
warfighting readiness within fiscal constraints. As a result, specific 
projects beyond the budget year often fluctuate. Although the fiscal 
year 2019 budget request is still pre-decisional, the Navy will 
continue planning and design efforts in fiscal year 2018 for a future 
project to replace SSN berthing at Pier 32. The military construction 
project for Pier 32, as currently planned, does not support BLK V with 
VPM requirements. While project's scope and cost are not finalized at 
this time, the latest analysis shows that Piers 31 and 17 are better 
suited to be lengthened to support VPM-enabled boats.
    Question. Will the Navy be using part of the $240 million 
additional funding in fiscal year 17 marked to restore readiness to 
accelerate the planning for the engineered overhaul of the USS Boise to 
return it to the fleet a year earlier than planned?
    Answer. The Navy is dedicated to accomplishing crucial maintenance 
on operational submarines and delivering mission ready assets to the 
Fleet in a timely manner. To this end, the Navy issued a competitive 
solicitation of the USS BOISE (SSN 764) Engineered Overhaul (EOH) on 
March 17, 2017, and is in the process of conducting a limited 
competition between General Dynamics Electric Boat and Huntington 
Ingalls Industries-Newport News Shipbuilding. While the capacity and 
capability may exist in the private sector in the mid-2018 to start 
execution of BOISE's EOH, the Navy's ability to accelerate this 
procurement is constrained by the planning effort required, 
availability of funds, and acquisition timeline. Planning for this 
major availability requires 12 to 15 months of effort. The planning 
effort is currently budgeted for fiscal year (FY) 2018 which will 
result in the EOH starting in fiscal year 2019 due to the required 
planning timeline. The additional Operation and Maintenance funding in 
fiscal year 2017 was prioritized for other critical readiness needs. 
Although beginning the BOISE EOH earlier is highly unlikely due to 
these constraints, the Navy will continue to review and pursue viable 
opportunities for acceleration during the planning process.
                                 ______
                                 
        Questions Submitted to Major General John J. Broadmeadow
               Question Submitted by Senator Marco Rubio
    Question. Should the current climate escalate to threatening 
levels, do you believe the Military Construction requests for the EUCOM 
AOR will allow for a potential rapid buildup of forces? If not, what 
measures must be taken to ensure our forces have the infrastructure 
necessary should they require it?
    Answer. The Marine Corps does not have any current military 
construction requests in the EUCOM AOR. Some infrastructure work 
(non?military construction) has been required and completed to support 
current force presence in Europe; however, the Marine Corps is not 
dependent on MILCON for a rapid buildup of forces in the AOR.
                                 ______
                                 
            Question Submitted by Senator Senator Tom Udall
    Question. In addition to near peer competitors, there is open 
source reporting on the proliferation of small off?the?shelf drones 
being utilized in Syria and Iraq to provide Intelligence, Surveillance, 
and Reconnaissance and offensive capability against the United States 
and coalition troops. Likewise commercial drones have been sighted near 
many U.S. bases, raising concerns that adversaries could be surveilling 
these facilities. Force Protection in mind when it comes to military 
construction. How concerned are you with the proliferation of this 
technology? And how are you working to ensure that bases and new 
projects are protected from this capability?
    Answer. The Marine Corps is concerned about the exponential rise in 
the number of drones, the enhanced capability of those drones and the 
ability to operate in the vicinity of our bases and stations. 
Addressing this challenge will take a whole of government approach and 
progress is being made. For instance, DoD is partnering with the FAA to 
create a new category of airspace that will be placed over our bases 
and stations to establish areas where drones should not be operating 
without permission from the installation commander. This will help us 
to identify unauthorized drone activity which is a necessary step in 
countering potential drone threats.
    Additionally, OSD has recently provided the services with enhanced 
authorities for dealing with drone incursions. On the technology side, 
there are a number of counter UAS projects under development which will 
further enhance our Installation Commanders' ability to protect our 
bases and station from unwanted drone incursions.
    It is important to note that the efforts to curtail nefarious uses 
of UAS technology runs concurrent with efforts to support the 
legitimate use of UAS technology by both the local communities near our 
installations and for military applications under the supervision of 
installation commanders. We will continue to engage our local partners 
to protect civilian commercial applications and recreational activities 
to prevent unneeded interference with military operations and training. 
UAS technology provides innovative opportunities for military 
application on our bases as well. We are in the process of implementing 
policies and procedures which will allow us to capitalize on these 
opportunities while protecting our people and assets from potential 
risks and threats.
                                 ______
                                 
               Questions Submitted to Major General Green
           Question Submitted by Senator Senator John Hoeven
    Question. Please provide an update on the Air Force plans to 
replace weapons storage areas (WSAs) across the installations under Air 
Force Global Strike Command. Please also include when the committee can 
expect to receive a request for funding to replace the WSAs.
    Answer. The AF is replacing antiquated (1950s/1960s-era) Weapons 
Storage Areas (WSAs) at operational Intercontinental Ballistic Missile 
(ICBM) and nuclear bomber installations through the Weapons Storage 
Facility (WSF) Investment Strategy.
    Our current plan is as follows:

  --Fiscal year 2016--F.E. Warren AFB, WY--ICBM Facility $95 million 
        (we expect construction contractor bids in November Nov 2017)
  --Fiscal year 2019--Malmstrom AFB, MT--ICBM Facility; $150 million*
  --Fiscal year 2020--Barksdale AFB, LA Bomber Facility; $502 million*
  --Fiscal year 2022--Whiteman AFB, MO Bomber Facility; $520 million*
  --Fiscal year 2025--Minot AFB, ND Bomber and ICBM Facility; costs 
        TBD*

    *Projects beyond the current fiscal year 18 Budget Submission are 
subject to change based on continued refinements to cost estimates, 
requirements definition and operational mission needs.
    Our current plan is to continually reevaluate our WSF construction 
execution plan in order to to apply lessons learned from each WSF 
construction project and to execute the program as efficiently and 
effectively as possible.
                                 ______
                                 
               Questions Submitted by Senator Marco Rubio
    Question. The Air Force Development Test Center's (AFDTC) overall 
mission is to plan conduct, and evaluate testing of U.S. and allied 
nonnuclear munitions, electronic combat, target acquisitions, weapon 
delivery, base intrusion protection, and supporting systems.
    AFDTC carries out this work at Eglin Air Force Base, FL, whose land 
test areas encompass 463,000 acres, and water test areas cover 86,500 
square miles in the Gulf of Mexico, the largest Department of Defense 
test and training area in the world.
    In order to continue to conduct safe but robust testing of our 
military's newest munitions and systems, deployed by our fastest and 
longest-range aircraft, surface, and subsurface vessels, test and 
training range instrumentation must be modernized. What does the 
Pentagon plan to do to ensure our ranges continue to provide the most 
modern capability for training and testing of our warfighters and 
weapon programs?
    Answer. Headquarters Air Force (HAF) continues to work with AFMC 
and the Eglin Test and Training Complex (ETTC) to identify required 
modernization efforts to support next generation weapons testing. These 
requirements are reflected in the USAF, AFMC, AFTC and 96 TW strategic 
plans and submitted to compete for funding through the Air Force's POM 
process. We are also working to implement a process for funding new 
Developmental Test MILCON projects using the authority provided under 
NDAA 2017 ``Defense Laboratory Modernization Pilot Program'' which will 
expand options for funding Eglin requirements. Investments at Eglin AFB 
will be required to support future programs such as F-15C/E 
modernization that drives higher security requirements, F-35 
development/weapons testing, new Joint weapons programs, and Air Force 
Research Laboratory weapons research. In addition, the Gulf Range 
Enhancement program is under development to modernize and expand our 
capability to support future mission sets on the Eglin land and water 
ranges.
    Question. Should the current climate escalate to threatening 
levels, do you believe the Military Construction requests for the EUCOM 
AOR will allow for a potential rapid buildup of forces? If not, what 
measures must be taken to ensure our forces have the infrastructure 
necessary should they require it?
    Answer. The ongoing and planned European Reassurance Initiative 
(ERI) construction will increase the ability of the NATO member states 
to beddown both visiting and deployed U.S. Forces in support of the 
EUCOM Commander. The ERI bolsters the security of our NATO allies and 
partners in Europe as well as improves operational capabilities of 
deploying U.S. forces. The ERI construction program started in fiscal 
year 2015 with an initial investment of $201.4M and is postured to 
execute another $293 million in fiscal year 2018. U.S. forces in Europe 
continually assess their infrastructure requirements and submit MILCON 
requests for prioritization by the Department of Defense when 
appropriate and executable.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
    Question. As the F-16 transition at Holloman progresses, can I have 
your assurance that you will work with the Department of the Army and 
both White Sands and Holloman Air Force Base to ensure that base has 
the resources and facilities it needs to train the next generation of 
F-16 pilots?
    Answer. Yes, the Air Force will continue to work with the 
Department of the Army and both White Sands and Holloman Air Force Base 
to ensure that they have the resources and facilities it needs to train 
the next generation of F-16 pilots. On 1 Jun 17, the Air Force selected 
Holloman AFB as the interim location for two additional flying training 
unit (FTU) squadrons of F-16s (45 aircraft total), for up to 5 years, 
pending a final basing decision. The Air Force has been working with 
White Sands to ensure adequate range availability for pilot training, 
and is in negotiations with the German Air Force (GAF) at Holloman to 
lease facility space for F-16 usage. The GAF plans to vacate these 
facilities no later than 2019. Training a sufficient number of F-16 
pilots is a high Air Force priority, as evidenced by our immediate 
decision to temporarily place the new FTUs at Holloman while a final 
base decision is developed.
    Question. In addition to near peer competitors, there is open 
source reporting on the proliferation of small off-the-shelf drones 
being utilized in Syria and Iraq to provide Intelligence, Surveillance, 
and Reconnaissance and offensive capability against the United States 
and coalition troops. Likewise commercial drones have been sighted near 
many U.S. bases, raising concerns that adversaries could be surveilling 
these facilities. Force Protection in mind when it comes to military 
construction. How concerned are you with the proliferation of this 
technology? And how are you working to ensure that bases and new 
projects are protected from this capability?
    Answer. The Air Force is certainly concerned and paying attention 
to the proliferation of small unmanned aerial systems for all the 
reasons cited in your question. From a force protection and facility 
perspective, the AF considers the probability of an adversary event as 
measured against the expected survivability and consequence of 
particular facilities in relation to the full spectrum of threats. In 
this view, we are constantly reevaluating the resource investment to 
protect from threats as they evolve. In regards to military 
construction, we allocate our resources against prioritized 
requirements to best meet the needs of the Service from both a utility 
and force protection perspective. Furthermore, the current and 
perceived near-term concerns with drones and their ability to damage 
hardened (i.e., brick and mortar) facilities are in the early stages of 
analysis to include the full spectrum of responses and associated risk.
    In the Homeland, our current efforts include working with our 
interagency counter-parts to balance the civil liberties of our 
citizens and the necessity for national security through the 
implementation of small unmanned aircraft systems (i.e., drones) flight 
restrictions. We are also working on fielding counter drone 
capabilities at some of our most critical locations.
    Question. There are two projects on the fiscal year 2018 unfunded 
priority list for Kirtland Air Force Base. Can you please describe the 
scope of these two projects and why it is important for the Congress to 
support funding for these projects during this fiscal year? With 
regards to the project to ``Replace Fire Station 3'' what is the impact 
on fire protection if it is not funded? With regards to project title 
``Wyoming Gate Upgrade for AT Compliance'' what is the impact on force 
protection measures if the project is not funded?
    Answer. The ``Replace Fire Station 3'' project will construct a new 
fire station that meets all the National Fire Protection Association 
(NFPA) 1500 Standard, Chapter 9 and life-safety code requirements. The 
new fire station will be located in an area of the installation that 
will enable fire fighters to meet mandated NFPA response times. The 
current fire station was constructed in 1955 and fails to meet the 
minimum NFPA standards. The parking bays have been identified by the 
wing's safety office as a risk to fire crews due to the potential 
crushing hazard of personnel when backing a fire apparatus into the 
fire apparatus bays. A Fire Safety Deficiency I (the highest risk 
level) is assigned for multiple facility life-safety code deficiencies 
that create great risk to life and mission continuity. If it remains 
unfunded, the current fire station location will continue to fail to 
meet the primary mission factors necessary in determining fire 
emergency services mission capability.
    The ``Wyoming Gate Upgrade for AT Compliance'' project will re-
align Wyoming Boulevard entrance to Kirtland AFB for traffic calming, 
install standard Air Force security measures for an access control 
point, and construct a new visitor control building with 24/7 
operations capability. The current Wyoming Gate does not meet minimum 
anti-terrorism (AT) standards set after 2001. Vulnerabilities at the 
Wyoming Gate have been identified in numerous installation and higher 
headquarters assessments at the installation. Updated gate 
infrastructure increases the ability of security forces personnel to 
effectively and efficiently prevent unauthorized personnel from 
accidentally or maliciously entering the base. If not funded, vehicle 
speeds approaching the gate will continue to create a significant 
vehicle ramming vulnerability due to the straight-in/straight- out 
configuration, which, when paired with narrow lanes, also contributes 
to greater risk for vehicle collisions during normal operating 
conditions. Without a Visitors Center, the gate will not have the means 
to properly process visitors which will cause security forces personnel 
to deny visitors/vehicles at the gate and distract from the mission.

                          SUBCOMMITTEE RECESS

    Senator Moran. And with that, our hearing is adjourned.
    [Whereupon, at 4:13 p.m., Tuesday, June 6, the subcommittee 
was recessed, to reconvene subject to the call of the chair.]
</pre></body></html>
